<html>
<title> - THE STATE OF THE RAIL WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                    THE STATE OF THE RAIL WORKFORCE

=======================================================================

                                (116-24)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             
             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                             
                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-651 PDF             WASHINGTON : 2020                            
                             
                             
 
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                    DANIEL LIPINSKI, Illinois, Chair

ALBIO SIRES, New Jersey              ERIC A. ``RICK'' CRAWFORD, 
DONALD M. PAYNE, Jr., New Jersey     Arkansas
LIZZIE FLETCHER, Texas               SCOTT PERRY, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         RODNEY DAVIS, Illinois
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
FREDERICA S. WILSON, Florida         MIKE BOST, Illinois
MARK DeSAULNIER, California          RANDY K. WEBER, Sr., Texas
STEPHEN F. LYNCH, Massachusetts      DOUG LaMALFA, California
TOM MALINOWSKI, New Jersey           LLOYD SMUCKER, Pennsylvania
GRACE F. NAPOLITANO, California      PAUL MITCHELL, Michigan
STEVE COHEN, Tennessee               BRIAN K. FITZPATRICK, Pennsylvania
JESUS G. ``CHUY'' GARCIA, Illinois   TROY BALDERSON, Ohio
ELEANOR HOLMES NORTON,               ROSS SPANO, Florida
  District of Columbia               PETE STAUBER, Minnesota
EDDIE BERNICE JOHNSON, Texas         GREG PENCE, Indiana
ALAN S. LOWENTHAL, California        SAM GRAVES, Missouri (Ex Officio)
COLIN Z. ALLRED, Texas, Vice Chair
ANGIE CRAIG, Minnesota
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)
                                 

                                CONTENTS

                                                                   Page

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chair, Subcommittee on Railroads, Pipelines, 
  and Hazardous Materials:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     4
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    85

                               WITNESSES
                                Panel 1

Hon. Ronald L. Batory, Administrator, Federal Railroad 
  Administration:

    Oral statement...............................................     7
    Prepared statement...........................................     9

                                Panel 2

Dennis R. Pierce, National President, Brotherhood of Locomotive 
  Engineers and Trainmen:

    Oral statement...............................................    35
    Prepared statement...........................................    37
John Previsich, President, Transportation Division of the 
  International Association of Sheet Metal, Air, Rail and 
  Transportation Workers:

    Oral statement...............................................    41
    Prepared statement...........................................    43
Jerry C. Boles, President, Brotherhood of Railroad Signalmen:

    Oral statement...............................................    49
    Prepared statement...........................................    50
Andrew W. Sandberg, Assistant to the President, International 
  Association of Machinists District Lodge 19:

    Oral statement...............................................    54
    Prepared statement...........................................    56
William Gonzalez, President, Amtrak Police Labor Committee:

    Oral statement...............................................    58
    Prepared statement...........................................    59
Ian Jefferies, President and Chief Executive Officer, Association 
  of American Railroads:

    Oral statement...............................................    62
    Prepared statement...........................................    63

                       SUBMISSIONS FOR THE RECORD

Statement of A. Bradley Mims, President and CEO, Conference of 
  Minority Transportation Officials (COMTO), Submitted for the 
  Record by Hon. Carson..........................................    85
Letter of May 22, 2019, from U.S. Senators Ron Wyden and Jeff 
  Merkley to Union Pacific Corporation, Submitted on Behalf of 
  the Brotherhood of Railroad Signalmen, Submitted for the Record 
  by Hon. DeFazio................................................    87
Report, ``Amtrak Policing Challenges 2019-2022,'' Prepared for 
  the Amtrak Police Labor Committee, June 17, 2019, Submitted for 
  the Record by Hon. DeFazio.....................................    88
Study, ``Barriers to Innovation and Automation in Railway 
  Regulation,'' R Street Policy Study No. 175, June 2019, 
  Submitted for the record by Hon. Crawford......................    92

                                APPENDIX

Questions from Hon. Peter A. DeFazio for Hon. Ronald L. Batory, 
  Administrator, Federal Railroad Administration.................   101
Questions from Hon. Daniel Lipinski for Hon. Ronald L. Batory, 
  Administrator, Federal Railroad Administration.................   101
Questions from Hon. Andre Carson for Hon. Ronald L. Batory, 
  Administrator, Federal Railroad Administration.................   103
Questions from Hon. Eric A. ``Rick'' Crawford for Hon. Ronald L. 
  Batory, Administrator, Federal Railroad Administration.........   103
Questions from Hon. Andre Carson for Dennis R. Pierce, National 
  President, Brotherhood of Locomotive Engineers and Trainmen....   104
Questions from Hon. Andre Carson for John Previsich, President, 
  Transportation Division of the International Association of 
  Sheet Metal, Air, Rail and Transportation Workers..............   104
Questions from Hon. Andre Carson for Andrew W. Sandberg, 
  Assistant to the President, International Association of 
  Machinists District Lodge 19...................................   105
Questions from Hon. Andre Carson for William Gonzalez, President, 
  Amtrak Police Labor Committee..................................   105
Questions from Hon. Eleanor Holmes Norton for William Gonzalez, 
  President, Amtrak Police Labor Committee.......................   105
Questions from Hon. Eric A. ``Rick'' Crawford for William 
  Gonzalez, President, Amtrak Police Labor Committee.............   106
Questions from Hon. Andre Carson for Ian Jefferies, President and 
  Chief Executive Officer, Association of American Railroads.....   106
Questions from Hon. Angie Craig for Ian Jefferies, President and 
  Chief Executive Officer, Association of American Railroads.....   106
Questions from Hon. Paul Mitchell for Ian Jefferies, President 
  and Chief Executive Officer, Association of American Railroads.   107
Questions from Hon. Troy Balderson for Ian Jefferies, President 
  and Chief Executive Officer, Association of American Railroads.   108


                    THE STATE OF THE RAIL WORKFORCE

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 2167, Rayburn House Office Building, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order. I want 
to welcome everyone here this morning to the hearing of the 
Railroads, Pipelines, and Hazardous Materials Subcommittee. We 
will be looking at the state of the rail workforce.
    Railroads, and the men and women who make them run, are a 
key component of the American economy. According to the 
Association of American Railroads, in 2017 major U.S. railroads 
supported over 1.1 million jobs, $219.5 billion in annual 
economic activity, and $71.3 billion in wages, while creating 
nearly $26 billion in total tax revenues.
    In my home region of northeastern Illinois, six Class I 
railroads interact, along with multiple short lines, while 
Metra and Amtrak run hundreds of trains over the same tracks.
    The confluence of all these railroads make northeastern 
Illinois the rail hub of North America.
    The more than 160,000 railroad workers in this country are 
the backbone of the industry, and keep our world-class rail 
system the powerful economic force that it is.
    In northeastern Illinois, thousands of workers get 1,300 
Metra, Amtrak, and freight trains to their destinations on a 
daily basis. There is no doubt that, without the men and women 
who are on the front lines, the industry would not be the 
success it is today.
    Historically, in return, the railroads have provided good-
paying jobs with good benefits for their workers. It is 
important that this continues. Today we will hear from a number 
of witnesses about the widespread changes that are taking place 
in the railroad industry, and the impact that these changes are 
having on the rail workforce.
    Two of the significant changes we have seen recently are 
longer trains and the adoption of Precision Scheduled 
Railroading, or PSR. These changes in rail operations have 
raised concerns about working conditions and safety, as well as 
negative community impacts and the quality of service being 
provided.
    Freight railroads are now running consistently longer 
trains, upwards of 10,000 to 15,000 feet. That equates to 2- or 
3-mile-long trains. Or, to put it another way, 33 football 
fields. However, the rail infrastructure has largely gone 
unchanged. This has led to operational challenges such as 
increased blocked crossings, or idling on mainline tracks for 
extended periods of time. This causes problems for workers, and 
also for communities.
    These are issues that I have seen in my district forever. 
But they are getting worse in other places. One example is in 
the Chicago neighborhoods of Mount Greenwood and Beverly. Now 
these types of issues are being seen in more districts across 
the country.
    I am pleased that the THUD appropriations bill has report 
language on blocked crossings that I asked to be included, so 
we can work on solutions to some of these issues. But solutions 
across the country require significant infrastructure 
investment.
    Another notable trend in the railroad industry is the 
adoption of PSR. All but one of the Class I railroads have 
adopted or are in the process of adopting PSR. At its essence, 
this is a fundamental shift in how railroads operate. The move 
in the industry towards PSR has been accompanied with 
significant job cuts in the past few years. Class I railroads 
and Amtrak employed 163,220 workers in April 2019, versus just 
5 years ago, when industry employed 194,790 workers, a 16-
percent reduction.
    I look forward to the testimony from the International 
Association of Machinists and our other witnesses about the 
impact of PSR on the rail workforce.
    Two other issues that we will hear about from SMART 
Transportation and BLET are a two-person crew requirement and 
cross-border trains. I am once again a supporter of the two-
person crew bill, because it is imperative that our trains 
remain safe as the industry changes. Additionally, we must 
ensure that all trains operating in the U.S. have crews that 
are well-trained and can meet FRA's robust safety standards. 
This is an issue at our southern border.
    We will also hear from the Amtrak police union over their 
concerns about Amtrak's plan to cut its police force by 20 
percent. Amtrak police are on the front line of keeping our 
surface transportation system safe on a daily basis. In 
northeastern Illinois they protect the more than 6.5 million 
Metra and Amtrak passengers that use Chicago Union Station on 
an annual basis.
    Finally, at the Railroad Tech Day in May, we got the chance 
to see the next generation of technologies that the industry 
hopes to incorporate into their operations, including joint 
inspection, virtual reality simulators, and fleet-wide 
predictive maintenance. While these technologies are exciting, 
I want to make sure that we keep in mind that technology will 
not replace the necessity for workers. Therefore, we must 
ensure that we continue to invest in our men and women in the 
rail industry. And expanding workforce development programs is 
one of my priorities as we head towards surface transportation 
reauthorization. I look forward today to hearing from our 
witnesses about how we can improve the state of the rail 
workforce, and the industry as a whole.
    [Mr. Lipinski's prepared statement follows:]

                                 
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
    Congress from the State of Illinois, and Chair, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. I want to welcome everyone to today's hearing of the 
Railroads, Pipelines, and Hazardous Materials Subcommittee where we 
will be looking at the state of the rail workforce. Railroads and the 
men and women who make them run are a key component of the American 
economy. According to the Association of American Railroads (AAR), in 
2017, major U.S. railroads supported over 1.1 million jobs, $219.5 
billion in annual economic activity, and $71.3 billion in wages, while 
creating nearly $26 billion in total tax revenues. In my home region of 
northeastern Illinois, six Class I railroads interact along with 
multiple short lines, while Metra and Amtrak run hundreds of trains 
over these same tracks. The confluence of all these railroads makes 
northeastern Illinois the rail hub of North America.
    The more than 160,000 railroad workers in this country are the 
backbone of the industry and keep our world class rail system the 
powerful economic force that it is. In northeastern Illinois, thousands 
of workers get 1300 Metra, Amtrak, and freight trains to their 
destinations on a daily basis. There is no doubt that without the men 
and women who are on the frontlines, the industry would not be the 
success it is today. Historically, in return, the railroads have 
provided good-paying jobs with good benefits for their workers. It is 
important that this continues.
    Today we will hear from a number of witnesses about the widespread 
changes that are taking place in the railroad industry and the impacts 
that these changes are having on the rail workforce. Two of the 
significant changes we have seen recently are longer trains and the 
adoption of precision scheduled railroading, or PSR. These changes in 
rail operations have raised concerns about working conditions and 
safety, as well as negative community impacts and the quality of 
service being provided.
    Freight railroads are now running consistently longer trains, 
upwards of 10,000-15,000 feet. That equates to two or three mile long 
trains, or to put it another way, 33 football fields. However, the rail 
infrastructure has largely gone unchanged. This has led to operational 
challenges such as increased blocked crossings or idling on mainline 
tracks for extended periods of time. This causes problems for workers, 
and also for communities. These are issues that I have always seen in 
my district but are getting worse. One example is in the Chicago 
neighborhoods of Mt. Greenwood and Beverly. Now these types of issues 
are being seen in more districts across the country. I am pleased that 
the THUD appropriations bill has report language on blocked crossings 
that I asked to be included so we can work on solutions to these some 
of these issues, but solutions across the country will require 
significant infrastructure investment.
    Another notable trend in the railroad industry is the adoption of 
PSR. All but one of the Class I railroads have adopted, or are in the 
process of adopting, PSR. At its essence, this is a fundamental shift 
in how railroads operate. The move in the industry toward PSR has been 
accompanied with significant job cuts in the past few years. Class I 
railroads and Amtrak employed 163,220 workers in April 2019, versus 
just five years ago when the industry employed 194,790 workers--a 16 
percent reduction. I look forward to the testimony from the Machinists 
and our other witnesses about the impact of PSR on the rail workforce.
    Two other issues that we will hear about from SMART Transportation 
and BLET are a two-person crew requirement and cross-border trains. I 
am once again a supporter of the two-person crew bill because it is 
imperative that our trains remain safe as the industry changes. 
Additionally, we must ensure that all trains operating in the U.S. have 
crews that are well trained and can meet FRA's robust safety standards. 
This is an issue at our southern border. We will also hear from the 
Amtrak police union over their concerns about Amtrak's plans to cut its 
police force by 20 percent. Amtrak police are on the front line of 
keeping our surface transportation system safe on a daily basis. In 
northeastern Illinois, they protect the more than 6.5 million Metra and 
Amtrak passengers that use Chicago Union Station on annual basis.
    Finally, at the railroad tech day in May, we got the chance to see 
the next generation of technologies that the industry hopes to 
incorporate into their operations--including drone inspection, virtual 
reality simulators, and fleet-wide predictive maintenance. While these 
technologies are exciting, I want to make sure that we keep in mind 
that technology will not replace the necessity for workers. Therefore, 
we must ensure that we continue to invest in our men and women in the 
rail industry, and expanding workforce development programs is one of 
my priorities as we head toward surface transportation reauthorization.
    I look forward today to hearing from our witnesses about how we can 
improve the state of the rail workforce and the industry as a whole. I 
now recognize the Subcommittee Ranking Member, Mr. Crawford, for an 
opening statement.
    Investing in grade separations is also critical and I was pleased 
to help secure $150 million in the Illinois State Capital Bill for the 
63rd and 65th and Harlem grade separation project.

    Mr. Lipinski. I now recognize the subcommittee ranking 
member, Mr. Crawford, for his opening statement.
    Mr. Crawford. Thank you, Mr. Chairman. The freight rail 
industry employs over 3,300 Arkansans at Class I, regional, and 
short line railroads. These employees come from varied 
backgrounds, and nearly 20 percent of our nationwide freight 
rail employees are veterans. Farmers and businesses across my 
State depend on our Nation's freight rail transport to 
transport their goods throughout the country and the world.
    Important to Arkansas are our short line railroads, which 
most often provide first- and last-mile service for farmers, 
manufacturers, and other industries. I am proud to support H.R. 
510, the BRACE Act, which would permanently extend the tax 
credit for short line railroad track maintenance. As total 
freight demand continues to grow, the critical investments made 
by the railroads and their people and in their infrastructure 
ensure a safe and efficient system on which our goods will 
travel. This investment helps us spur economic activity and 
supports nonrail jobs.
    Railroad innovation leads the way to new technology to make 
operations safer and more efficient. In turn, the rail network 
can handle increased freight demand, and help relieve 
congestion on our roads.
    I look forward to hearing about the implementation of 
Positive Train Control, a key step to improving rail safety, 
and other technologies that can prevent potential incidents.
    Thank you to all of our witnesses today for being here, and 
I yield back the balance of my time.
    [Mr. Crawford's prepared statement follows:]

                                 
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    The freight rail industry employs over 3,300 Arkansans at Class I, 
regional, and short line railroads. These employees come from varied 
backgrounds, and nearly 20 percent of nationwide freight rail employees 
are veterans.
    Farmers and businesses across my state depend on our nation's 
freight railroads to safely transport their goods throughout the 
country and the world. Important to Arkansas are our short line 
railroads, who most often provide first and last mile service for 
farmers, manufacturers, and other industries. I am proud to support 
H.R. 510, the BRACE Act, which would permanently extend the tax credit 
for short line railroad track maintenance.
    As total freight demand continues to grow, the critical investments 
made by the railroads in their people and in their infrastructure 
ensure a safe and efficient system on which our goods will travel. This 
investment helps spur economic activity and supports non-rail jobs.
    Railroad innovation leads to new technologies that make operations 
safer and more efficient. In turn, the rail network can handle 
increased freight demand and help relieve congestion on our roads.
    I look forward to hearing about the implementation of Positive 
Train Control, a key step to improving rail safety, and other 
technologies that can prevent potential incidents.

    Mr. Allred [presiding]. The Chair will now recognize the 
chairman of the full committee, Mr. DeFazio, for an opening 
statement.
    Mr. DeFazio. I thank the gentleman for his recognition, and 
thank Chairman Lipinski for calling this hearing today.
    You know, before he stepped down as executive chairman of 
BNSF, Matt Rose gave an interview with Railway Age, which I 
would recommend that anyone interested in the future of the 
industry read, and when he was asked about the value 
proposition of his railroad, Rose noted he looked at the value 
of the railroad as a three-legged stool: one leg being 
shareholders, because they provide the capital needed for 
reinvestment in the railroad; second, employees, which provide 
the services that allow us to make the return to provide to 
shareholders; and the third leg of the stool is customers.
    Unfortunately, thanks to Hunter Harrison and his 
destructive actions at CSX, we seem to be entering into a new 
era of railroading, where railroads think only less is better, 
and the three-legged stool is now down to kind of a peg leg. 
And this is not long-term sustainable or supportable.
    You know, I worry that the railroads are cementing in his 
legacy, squeezing out more and more profits for shareholders or 
the rapacious Wall Street hedge funds, at the expense of long-
term investments back into the rail network. Across nearly all 
the Class I railroads we are seeing a reduction of capital and 
maintenance investments, labor costs, and service, all for the 
sake of reaching lower and lower operating ratios. He called it 
Precision Scheduled Railroading, but what are the consequences 
to hedge fund investors wringing out every possible dime from 
these railroads?
    We will hold a next hearing, I believe, of this 
subcommittee with shippers to hear of their frustrations. It is 
not more precisely scheduled for them, it is costing them time 
and money. Just last month the STB held a hearing to examine 
Class I railroads' increased use of demurrage and accessorial 
charges to shippers. The hearing brought to light concerns that 
service has not improved for shippers with the implementation 
of PSR, but in fact they are often having to bear the financial 
burden of these operational changes to profit the people on 
Wall Street.
    And then we look at the consequences for the workforce. 
Thousands of freight railroad workers have lost their jobs. In 
just 3 years CSX has cut its workforce from 26,000 down to less 
than 20,000. Since May 2018, UP has reduced its workforce by 
3,000. These aren't just executive or administrative jobs. 
Their jobs are represented by some of the witnesses sitting 
before us in the next panel today: engineers; conductors; yard 
masters; signalmen--you know, signalmen at UP now are 
responsible for, instead of 20 miles of track, 60 miles of 
track, which, for many, is a physical impossibility--switch and 
bridge repair; maintenance workers; and car and locomotive 
maintenance workers, these are the jobs that help ensure a 
railroad can expand its service and continue to operate safely.
    On the passenger side, Amtrak is cutting jobs, too, not 
because it is beholden to hedge fund investors, but because of 
this notion that someday it will have an operating profit. 
While I appreciate the attention to sound budgetary practices, 
eliminating the workforce that provide services customers 
enjoy, and reducing the workforce that keeps riders safe, seems 
like a bad idea for the longevity of the national network.
    Last month the members of this committee were informed 
Amtrak would be reducing the size of the police department, and 
I only learned about that by talking to an employee at Union 
Station when we were taking a special train to New York to look 
at the deteriorated rail system between here and there. They 
were going to be reduced. I asked management who was on the 
train with us, and they said, ``Oh no, we are just moving 
assets around to use them more efficiently.'' Well, turned out 
not to be true. They are being reduced. Today we sent a letter 
signed by 52 other Members of Congress raising concerns.
    Last year Amtrak police responded and filed reports on more 
than 18,500 incidents, and they made 2,000 arrests, 
representing increases over the prior 1-year period of 13 
percent for incidents, 29 percent for arrests. And if you go 
online you can find a really spiffy video--very well done--by 
al-Qaida on how to derail a train. And so we are going to cut 
back on security. Great idea. I think that these cuts, both on 
the private-sector side and on the Amtrak side, are putting us 
on a very downward path.
    I will be happy to hear from the witnesses today on what 
impacts these workforce reductions are having with that. I 
yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Lipinski and Ranking Member Crawford, for 
calling today's hearing to examine the current state of the rail 
workforce.
    Before he stepped down from his position as Executive Chairman of 
BNSF, Matt Rose gave an interview with Railway Age (Dec. 2018). When he 
was asked about the value proposition of his railroad, Rose noted that 
he looked at the value of the railroad ``as a three-legged stool.'' One 
leg being shareholders--because they provide the capital needed for 
reinvestment in the railroad. The second leg of the stool is the 
employees, which ``provide the services that allow us to make the 
return to provide to the shareholders''. And the third leg of the stool 
is the customers.
    Unfortunately, it looks like we are in a new era of railroading--a 
time where railroads think less is better. That three-legged stool is 
now just a pirate's, ahem, hedge fund's peg-leg.
    I worry that the railroads are cementing railroad executive Hunter 
Harrison's legacy of squeezing out even more profits for shareholders, 
at the expense of long-term investments back into the rail network. 
Across nearly all of the Class I railroads we are seeing a reduction in 
capital and maintenance investments, labor costs, and service--all for 
the sake of reaching lower and lower operating ratios. Harrison termed 
it ``Precision Scheduled Railroading.'' But what are the consequences 
to hedge fund investors wringing out every possible dime from these 
railroads?
    Shippers continue to express frustration that these operational 
changes are not, in fact, creating a more ``precisely scheduled'' 
network, but instead cost them additional time and money. Just last 
month, the Surface Transportation Board held a hearing to examine Class 
I railroads' increased use of demurrage and accessorial charges to 
shippers. The hearing brought to light concerns that service has not 
improved for shippers with implementation of PSR, but in fact they are 
often having to bear the financial burden of these operational changes.
    And then we look at the consequences for the workforce--thousands 
of freight railroad workers have lost their jobs. In just three years, 
CSX cut its workforce from over 26,000 employees down to less than 
20,000. Since May 2018, Union Pacific Railroad has reduced its 
workforce by nearly 3,000 employees. These aren't just executive and 
administrative jobs, these are the jobs that are represented by some of 
the witnesses sitting in front of us today. Engineers; conductors; 
yardmasters; signal, switch, and bridge repair and maintenance workers; 
and car and locomotive maintenance workers. These are the jobs that 
help ensure a railroad can expand its service and continue to operate 
safely.
    On the passenger side, Amtrak is cutting jobs, too. Not because 
it's beholden to hedge fund investors, but because of this notion that 
it will one day have an operating profit. While I appreciate the 
attention to sound budgetary practices, eliminating the workforce that 
provides services customers enjoy and reducing the workforce that keeps 
riders safe seems like a bad idea for the longevity of the national 
network. Last month, members of this Committee were informed that 
Amtrak would be reducing the size of the Amtrak Police Department 
workforce by 20 percent. In the last year, Amtrak Police responded and 
filed reports on more than 18,500 incidents and made nearly 2,000 
arrests, representing increases over the prior one-year period of 13 
percent for incidents and nearly 29 percent for arrests.
    These cuts seem like a very risky slope, so I'm curious to hear 
from the witnesses today on what impacts they see these workforce 
reductions having on the rail network now and into the future. Thank 
you.

    Mr. Allred. Thank you, Chairman DeFazio. I would now like 
to welcome the witness of our first panel, the Honorable Ronald 
L. Batory, the Administrator--Federal Railroad Administrator.
    Thank you for being here today, and I look forward to your 
testimony.
    Without objection, our witness' full statement will be 
included in the record.
    Since your written testimony has been made a part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes. Go ahead.

  TESTIMONY OF HON. RONALD L. BATORY, ADMINISTRATOR, FEDERAL 
                    RAILROAD ADMINISTRATION

    Mr. Batory. Good morning, everyone, Chairman Lipinski, 
Chairman DeFazio, Ranking Member Graves, as well as Ranking 
Member Crawford and members of the committee, thank you for the 
opportunity to testify today to discuss rail safety and the 
Federal Railroad Administration's role in ensuring the safety 
and efficiency of our Nation's rail system.
    The mission of FRA is to enable the safe, reliable, and 
efficient movement of people and goods for a strong America now 
and into the future. With Secretary Elaine Chao's leadership, 
FRA executes its mission in many ways. FRA enforces critical 
safety regulations, and partners with industry to develop and 
promote both regulatory and nonregulatory solutions to safety 
issues. FRA also seeks to manage Federal investments in rail 
infrastructure in a cost-effective and efficient manner, and 
pursues research and development to advance innovative 
technologies and best practices in railroad operations and 
maintenance.
    We have seen great advances in railroad safety; both the 
train accident rate and railroad employee injury rate have 
declined. Despite these advances, rail accidents and employee 
injuries do occur. FRA considers one accident or one employee 
injury one too many. As the demand for both freight and 
passenger rail transportation in the U.S. grows, FRA recognizes 
its responsibility to ensure rail operations are the safest 
they can be, not only for the traveling public and the 
communities through which the railroads operate, but also the 
highly skilled employees who work diligently on the rail system 
every day.
    FRA addresses safety risks using a risk-based proactive 
approach, focusing resources on top safety issues, while 
continuing innovative research to further advancements in rail 
technology and investment in rail infrastructure. Last week the 
FRC announced the selection of $326 million in grant funds 
under the Consolidated Rail Infrastructure and Safety 
Improvements grant program, with significant investments 
directed towards grade crossing, tracks, signal and bridge 
improvements.
    Today I would like to highlight the top safety initiatives 
FRA prioritizes: PTC, trespassing prevention, grade crossing 
safety, and FRA's Close Call Reporting System, commonly 
referred to as C3RS.
    Railroads' successful implementation of PTC remains at the 
top of our agenda. As I have said before, implementation of PTC 
operations represents the most fundamental change in rail 
safety technology in the century. With approximately 20 months 
remaining until the statutory deadline, the Department and FRA 
will continue to provide extensive technical assistance and 
perform comprehensive oversight to both host, tenants, 
railroads, and hold each railroad accountable for the timely 
implementation of interoperable PTC systems on all lines 
subject to the statutory mandate.
    Also at the top of the list for FRA's agenda is the 
prevention of trespassing incidents on railroad property, and 
increasing grade crossing safety. Trespassing on railroad 
property is the leading cause of all rail-related deaths in the 
United States. Grade crossing incidents are the second. 
Together, over the past 10 years, they have accounted for more 
than 95 percent of all rail-related fatalities.
    One of my top objectives is to lead, promote, and 
strengthen efforts among the public, private, and Government 
stakeholders to increase awareness of grade crossing safety 
issues and trespasser prevention strategies. Preventing 
trespassing and improving grade crossing safety is critical, 
not only to save the lives of those involved, but also to help 
ensure railroad employees do not needlessly have to suffer the 
severe psychological and emotional consequences such incidents 
may cause.
    C3RS is a voluntary FRA program enabling participating 
railroads and their employees to improve safety culture in 
their organizations, and to proactively identify and address 
safety issues before accidents occur. FRA first piloted this 
C3RS program in 2007 with the train, yard, and engine craft 
employees of four railroads. Since then the program has grown 
to 15 railroads, with over 23,000 employees, involving all the 
crafts. Going forward, FRA is prioritizing the expansion of the 
C3RS program, along with other industry partnerships designed 
to ensure a transparent sharing of information among 
stakeholders and enabling the effective identification, 
analysis, and mitigation, or elimination, of risk throughout 
the rail operating environment.
    FRA has a responsibility to the public, to the railroad 
employees, and the railroads themselves to lead that industry 
to the next generation of safety improvements. FRA is committed 
to continuing to work with all stakeholders to achieve this new 
level of safety. This next generation of safety improvements 
will necessarily involve change.
    One constant will remain, however, and that is FRA's 
commitment to working with all stakeholders to achieve this new 
level of safety. FRA recognizes the unique position of railroad 
employees to ensure safety, both now and in the future. FRA 
safety inspectors are on the ground throughout the United 
States. While they are responsible for conducting periodic 
inspections for compliance with FRA safety regulations and 
conducting accident investigations, they are also prime points 
of contact for railroad employees to share any concerns, 
suggestions, or ideas related to rail safety.
    FRA has long-established processes and procedures in place 
to ensure the anonymity of any individual sharing safety 
concerns with the agency. I believe that clear and open 
communication committed to safety among all stakeholders is 
most important, including FRA, railroad employees, and railroad 
management.
    Our Nation's rail industry has becomes safer and stronger 
than ever before. Thank you.
    [Mr. Batory's prepared statement follows:]

                                
  Prepared Statement of Hon. Ronald L. Batory, Administrator, Federal 
                        Railroad Administration
    Chairman Lipinski, Ranking Member Crawford. and Members of the 
Committee . . .
    Thank you for the opportunity to testify today to discuss rail 
safety and the Federal Railroad Administration's (FRA) role in ensuring 
the safety and efficiency of our nation's rail system. The mission of 
FRA is to enable the safe, reliable, and efficient movement of people 
and goods for a strong America, now and in the future. With Secretary 
Elaine L. Chao's leadership, FRA executes its mission in many ways. FRA 
enforces critical safety regulations and partners with industry to 
develop and promote both regulatory and non-regulatory solutions to 
safety issues. FRA also seeks to manage federal investments in rail 
infrastructure in a cost-effective and efficient manner, and pursues 
research and development to advance innovative technologies and best 
practices in railroad operations and maintenance. With a cadre of 
almost 400 railroad safety inspectors across the nation, FRA not only 
conducts traditional safety inspections and investigations, but FRA 
inspectors also forge strong collaborative relationships with railroad 
employees and seek opportunities to partner with those employees to 
ensure the safest rail working environment possible.
    In recent years, we have seen great advances in railroad safety--
both the train accident rate and the railroad employee injury rate have 
declined. Despite these advances, rail accidents and employee injuries 
do occur. FRA considers one rail accident or one employee injury one 
too many. As the demand for both freight and passenger rail 
transportation in the U.S. grows, FRA recognizes its responsibility to 
ensure rail operations are the safest they can be, not only for the 
traveling public and the communities through which railroads operate, 
but also for the highly skilled employees who work diligently on the 
rail system every day.
    Safety is FRA's top priority. FRA believes safety and innovation go 
hand-in-hand. From implementation of Positive Train Control (PTC) 
technology, to proactively addressing safety risks through our 
voluntary close call reporting program, to initiatives addressing the 
persistent challenges of grade crossing safety and the prevention of 
trespassers on railroad property, FRA believes both people and 
technology play critical roles.
    FRA addresses safety risks using a risk-based, proactive approach, 
focusing resources on the top safety issues while continuing innovative 
research to further advancements in rail technology and investing in 
rail infrastructure. Last week, FRA announced the selection of $326 
million in grant funds under the Consolidated Rail Infrastructure and 
Safety Improvements grant program, with significant investments 
directed towards grade crossing, track, signal, and bridge 
improvements.
    Today, I would like to highlight the top safety issues FRA is 
prioritizing--PTC, trespassing prevention, grade crossing safety, and 
FRA's Close Call Reporting Program (commonly referred to as C3RS).
                         positive train control
    Railroads' successful implementation of PTC remains at the top of 
our agenda. As I've said before, implementation of PTC in rail 
operations represents the most fundamental change in rail safety 
technology in a century. PTC uses industry-designed emerging 
technologies to monitor speed and automatically stop trains to prevent 
specific human-error accidents. With the Secretary's leadership, we 
have prioritized grant programs for PTC and helped railroads make 
significant progress towards full PTC implementation on the required 
main lines. As of March 31, 2019, PTC systems were in operation on over 
48,000 of the nearly 58,000 route miles subject to the statutory 
mandate--with the majority of implementation occurring in the last two 
years. All 41 railroads subject to the statutory mandate complied with 
the December 31, 2018, requirements prescribed under the PTC 
Enforcement and Implementation Act of 2015. Specifically, four host 
railroads fully implemented FRA-certified and interoperable PTC systems 
on their required mainlines by December 31, 2018, and the other 37 
railroads sufficiently demonstrated they met, and in many cases 
exceeded, the six statutory criteria necessary to qualify for an 
alternative schedule and sequence to reach full implementation by 
December 31, 2020.
    With approximately 20 months remaining until the statutory 
deadline, the Department and FRA will continue to provide extensive 
technical assistance and perform comprehensive oversight, to both host 
and tenant railroads, and hold each railroad accountable for the timely 
implementation of an interoperable PTC system on all lines subject to 
the statutory mandate. Following the series of PTC symposia held 
throughout 2018, FRA has already held two of six collaboration sessions 
planned in 2019-2020. These sessions bring together stakeholders to 
share best practices and jointly address key challenges. FRA PTC field 
staff continue to prioritize technical assistance based on each of the 
37 host railroads' risks to full implementation, with a specific focus 
on testing, revenue service demonstration and interoperability. In 
support of our FRA PTC field staff, and to support railroads 
interoperability challenges, this summer FRA plans to meet with each of 
the 101 Class II and III tenant railroads required to implement PTC by 
their host railroad to offer technical assistance with respect to PTC 
system implementation.
               trespassing prevention and grade crossing
    Also at the top of FRA's agenda is the prevention of trespassing 
incidents on railroad property and increasing grade crossing safety. 
Trespassing on railroad property is the leading cause of all rail-
related deaths in the United States. Grade crossing incidents are the 
second. Together, over the past 10 years, they have accounted for more 
than 95% of all rail-related fatalities. One of my top objectives this 
year is to lead, promote, and strengthen efforts among all public, 
private, and government stakeholders to increase awareness of grade 
crossing safety issues and trespasser prevention strategies. Preventing 
trespassing and improving grade crossing safety is critical not only to 
save the lives of those involved, but also to help ensure railroad 
employees do not needlessly have to suffer the severe psychological and 
emotional consequences such incidents may cause.
Trespassing Prevention
    Last year, at Congress's direction, FRA developed a national 
strategy to prevent trespassing incidents. FRA's strategy recognizes 
that trespassing is a complex problem and solutions will necessarily 
differ based on localized circumstances. FRA identified the top 10 U.S. 
counties with the most railroad trespasser casualties in recent years.
    FRA's strategy focuses on four strategic areas: (1) data gathering 
and analysis; (2) community site visits; (3) funding; and (4) 
partnerships with affected stakeholders. Success of our national 
strategy, however, depends on meaningful input and participation by all 
stakeholders--including State and local governments, railroads, labor 
organizations, and the public--as well as the availability of funding.
    FRA intends to hold trespasser prevention summits in each of the 
top 10 counties identified. The summits will include local community 
leaders, law enforcement, the railroads operating in and through the 
county, the public, and FRA, with the goal of identifying trespassing 
hotspots within the community, developing local improvement 
recommendations for trespass mitigation and fatality prevention, 
assisting with trespasser prevention outreach campaigns, and ensuring 
all stakeholders are equipped with the necessary information on the 
availability and process for applying for various forms of FRA grants 
and other funding.
Improving Grade Crossing Safety
    Highway-rail grade crossing incidents are the second leading cause 
of rail-related deaths, accounting for approximately 30 percent of all 
rail-related fatalities and are the top cause of all railroad 
accidents. Increasing grade crossing safety will not only reduce the 
number of fatalities, but it will also improve the safety and 
efficiency of the rail transportation network. FRA expects the risk of 
highway-rail grade crossing incidents to grow as both train and highway 
traffic increases during the next decade.
    In October of last year, the Department hosted the first Highway-
Rail Grade Crossing Safety and Trespass Prevention Summit. The event 
brought together safety advocates, railroads, labor organizations, law 
enforcement, and both Canadian and U.S. transportation officials to 
exchange ideas and begin developing best practices on implementing a 
coordinated national response to the growing problem of trespassing 
incidents on railroad property and to increase grade crossing safety. 
At the conclusion of the Summit, FRA committed to hosting a series of 
listening sessions to identify technology to improve the functioning of 
grade crossing warning systems and safety, as well as barriers to 
implementation.
    This past spring, FRA hosted those listening sessions. We brought 
together railroads, labor organizations, signal equipment 
manufacturers, trade and advocacy groups, technology companies, and 
representatives from federal, state, and local governments to discuss 
ways of improving grade crossing safety through technology. 
Participants discussed demonstrated and emerging technologies that 
could be used to improve grade crossing safety and ideas for needed 
regulatory changes to help field new grade crossing technology. Ideas 
included both highly complex technological improvements and lower tech 
improvements. FRA is using all the information and ideas gathered 
through this symposium to develop a three-year plan to improve grade 
crossing safety. We will hold a follow-up symposium this fall to 
continue the dialogue with all stakeholders. We will continue to 
collaborate with our modal partners including the Federal Highway 
Administration, Federal Motor Carrier Safety Administration, and 
National Highway Traffic Safety Administration, to provide ongoing 
assistance to all stakeholders, and develop and promote new tools and 
resources to support grade crossing safety.
            confidential close call reporting system (c3rs)
    C3RS is a voluntary FRA program enabling participating railroads' 
and their employees to improve the safety culture of their 
organizations and to proactively identify and address safety issues 
before accidents occur. For properly reported and qualifying close 
calls, employees are protected from company discipline, and both 
employees and railroads are protected from FRA enforcement. Root cause 
analysis is conducted on individual close call events, and 
collectively, safety hazards are identified. Railroads are then 
empowered to develop solutions to proactively mitigate or eliminate the 
identified hazards, thus avoiding the costs and often devastating 
consequences of an accident or incident.
    FRA first piloted the C3RS program in 2007 with the train, yard, 
and engine craft employees of 4 railroads. Since then, the program has 
grown to 15 railroads with over 23,000 employees involved from all 
crafts.
    On participating railroads, several tangible safety improvements 
have resulted from the C3RS program thus far. Most notably, derailments 
caused by human factors are down 41 percent and derailments caused by 
run-through switches are down 50 percent. The program has also led to 
more qualitative benefits such as improved collaboration between labor 
and management on safety improvements, and in several instances, the 
discovery of multiple factors playing a role in a single event, leading 
to more systemic corrective actions. This level of collaboration and 
data analysis is often stifled in the traditional environment of 
railroad discipline.
    FRA is actively working to increase railroad and employee 
participation in the program and to identify alternative funding 
sources for the program. Specifically, FRA is evaluating ways to allow 
industry to provide funding for the program and how to potentially 
leverage machine learning technology to effectively automate the 
processing of close call reports in the future.
    Going forward, FRA is prioritizing the expansion of the C3RS 
program, along with other industry partnerships designed to ensure a 
transparent sharing of information among all stakeholders and enabling 
the effective identification, analysis, and mitigation or elimination 
of risks throughout the rail operating environment.
                               conclusion
    FRA has a responsibility to the public, to railroad employees, and 
to railroads themselves to lead industry to the next generation of 
safety improvements. FRA is committed to continuing to work with all 
stakeholders to achieve this new level of safety. This next generation 
of safety improvements will necessarily involve change. One constant 
that will remain, however, is FRA's commitment to working with all 
stakeholders to achieve this new level of safety. FRA recognizes the 
unique position of railroad employees in ensuring safety both now and 
in the future. FRA safety inspectors are ``on the ground'' throughout 
the United States. While they are responsible for conducting periodic 
inspections for compliance with FRA's safety regulations and conducting 
accident investigations, they are also prime points of contact for 
railroad employees to share any concerns, suggestions, or ideas related 
to railroad safety. FRA has long-established processes and procedures 
in place to ensure the anonymity of any individual sharing safety 
concerns with the agency.
    I believe that with clear and open communication and a commitment 
to safety among all stakeholders--including FRA, railroad employees, 
and railroad management--our nation's rail industry can become safer 
and stronger than ever before.

    Mr. Allred. Thank you again for your testimony today. We 
will now move on to Member questions. Each Member will be 
recognized for 5 minutes and I will begin with Chairman 
DeFazio.
    Mr. DeFazio. I thank you, Mr. Chairman.
    To the Administrator, I mean, how long can trains be? I 
have trains now running up the Willamette Valley that are 
15,000 feet long going through city centers. How long are we 
going to allow people to block emergency vehicles? These are 
mostly at-grade crossings. I mean, is there any limit to how 
long they can make these trains?
    Mr. Batory. There is no limit, as far as what you can make 
a train regulatory. There is no limit that I am aware of in 
timetables of railroads. However, railroads are very cognizant 
of what the physical plant will accommodate, and what will be 
accommodated safely in its transversing of the route between 
points A and B.
    Mr. DeFazio. Right, but what about, you know, the rest of 
the country, the people who live in these cities, who need to 
get back and forth across a track? Emergency vehicles are 
blocked, there is a hospital on the other side.
    I mean don't you think there should be a practical limit on 
the length of trains that both serves the railroads for 
efficiency, but not their optimal PSR, or whatever you want to 
call it--efficiency--but also is cognizant of the burdens 
placed on the rest of the people of the United States of 
America?
    Mr. Batory. Chairman DeFazio, ordinarily it is not unusual 
to see trains operate with----
    Mr. DeFazio. 15,000 feet long? I haven't heard of that 
before recently.
    Mr. Batory. You will see trains ordinarily in the range of 
7,000 to 11,000 feet.
    Mr. DeFazio. Right.
    Mr. Batory. There are--have been exceptions where there are 
trains that have now grown to 15,000, 16,000 feet.
    The interesting part of it is, yes, the linear length of 
the train is more, without a doubt. But the number of freight 
cars in that train have only increased by 10 cars in the last 
45 years.
    Mr. DeFazio. Yes?
    Mr. Batory. So the integrity of that train, as far as 
mechanical reliability----
    Mr. DeFazio. Right, but that is not the question.
    Mr. Batory [continuing]. Is nothing.
    Mr. DeFazio. That is not the question I raised.
    Mr. Batory. Well, as far as----
    Mr. DeFazio. The question I raised is the impacts on 
society of what they are doing----
    Mr. Batory. Well----
    Mr. DeFazio [continuing]. Let alone the issues that are 
being raised by shippers and everybody else. I remember when 
Frank Lorenzo ran Eastern Airlines. We finally drove him out of 
the business because of what he was doing. But we are seeing 
the same thing here started by a guy who is now deceased that 
is infecting the railroads, and making them subject to these 
inordinate pressures from Wall Street.
    And isn't there a point at which you are going to be 
concerned about safety by the reduction of the number of 
employees, and about the inconvenience for the rest of the 
United States of America? Because these companies are driving 
these trains as long as they can, with as few people as they 
can. I mean you don't have any concerns about this? You think 
this is all just hunky dory?
    Mr. Batory. I have had sincere commitment to safety since 
the day I was employed in the railroad industries in 1971, 
right up until the day I retired, and I still carry that 
commitment to safety.
    Mr. DeFazio. Great. And you believe all these reductions in 
workforce are warranted, and not jeopardizing safety in any 
manner?
    Mr. Batory. Train length----
    Mr. DeFazio. No, we are not talking about length any more. 
I am now talking about the number of employees who have been 
dismissed, laid off, so they can increase their bottom line.
    Mr. Batory. Well, we certainly have incurred changes, no 
doubt about it. When I hired on in 1971, we had around 700,000 
employees. We are now down to about 150,000.
    Mr. DeFazio. OK, so you are basically going to say this is 
all just fine, and we are being driven by Wall Street, and you 
are happy with that.
    Mr. Batory. No, I am not happy.
    Mr. DeFazio. OK.
    Mr. Batory. I am trying to share with you the facts.
    Mr. DeFazio. Well, the fact is I am going on what Matt Rose 
said and the concerns he raised, because I thought that he was 
doing a great job and BNSF isn't doing these things. BNSF is 
serving their shippers better because they aren't being driven 
by jackals on Wall Street, because they were bought by a 
responsible long-term investment firm.
    Mr. Batory. And, for what it is worth, Matt and I share 
similar opinions.
    Mr. DeFazio. OK. Well, then you should have some concerns 
about this PSR stuff.
    Anyway, thank you Mr. Chairman.
    Mr. Allred. Thank you, Mr. DeFazio. I now recognize Ranking 
Member Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    Let me get my question for you here. Thank you for being 
here, I appreciate that.
    How are you ensuring that all railroads meet the PTC 
deadline? Do you have any concerns that any of the railroads 
might not meet the deadline?
    Mr. Batory. I carry a concern about PTC every day that I 
have been in this position, as well as when I was an adviser to 
Secretary Chao.
    We have come a long way in the past 15 months, insofar as 
organizing the PTC initiative, as guided and facilitated by the 
FRA.
    Very quickly, we first met with all the host railroads face 
to face. That was during first quarter of last year. Then we 
held three sessions of summit sessions to prepare everybody for 
what they need to fulfill the prerequisites for PTC for 12/31/
19--or 18. Then, this year, we have held--or we will be holding 
a total of three collaboration sessions to help facilitate more 
maturity insofar as the regulatory and statutory adherence that 
the railroad industry has to comply with by the end of 2020.
    What is concerning is something that I knew when I took 
this position--is that the freight sector, for the most part, 
was very mature in developing itself. They are now, if you 
will, entering their chapter of interoperability.
    The primary concern was the commuter railroads and Amtrak. 
Amtrak has developed a lot, and so have the commuter railroads. 
But when you have a freight sector that represents--nearly 90 
percent of their to-be compliant PTC route mileage is now 
complete, and you have a commuter sector that only has 30-plus 
percent of its network complete, and they have to do 
interoperability while completing the other 70 percent with 
only 15 months left. I have a concern.
    So, as a result, with interoperability, we are currently 
meeting with a total of 76 railroads: 41 of them are 
independent short lines and regionals, the ones that--the 
others are associated with conglomerates--trying to figure out 
where they are at with PTC, both economically as well as 
physically. Then we are going into the commuter railroads, 
which we have been with independently, but we are bringing them 
together, especially the Northeast Corridor. In this case, with 
the Northeast Corridor, we have seven commuter railroads hosted 
by Amtrak, and they are all at different levels of maturity, as 
far as getting their own lines equipped with PTC. But the 
interoperability piece is paramount, because of their great 
presence on Amtrak.
    So July 12th of next month I have asked the corner offices 
from Amtrak and all the commuter agencies--not with their 
technicians--to come to Washington. Amtrak and FRA are going to 
put on two presentations as far as where we understand the 
industry is on the Northeast Corridor. Let them go back, talk 
to their staffs. And if they feel they are going to fail, the 
message that I have already given some of them, they need to go 
see their two Senators and their respective congresspersons 
now--not later, now--and tell them that they think they are at 
risk of failing. Because none of you like surprises, I don't 
think, and I don't like surprises, either.
    So I would rather flush this out earlier than later. And 
while all this is going on, we are still working with the Class 
I community, and making sure that they can get their 
interoperability behind them, because the federation that is 
required by the suppliers so that you can get very robust 
interoperability pairing going on is still being developed.
    And we have multiple issues I naturally can't share during 
this hearing, because time doesn't allow, but my hands are on 
this, my eyes are on it, I think about all the time, I am on 
the phone all the time. I spend probably 25 to 40 percent of my 
time on PTC. I am committed.
    Mr. Crawford. Thank you, I appreciate that. I yield back, 
Mr. Chairman.
    Mr. Lipinski [presiding]. I would now yield myself 5 
minutes. I, unfortunately, had to offer an amendment at another 
committee, so I missed Chairman DeFazio, but I got a briefing 
on--very quickly--about what he had raised. So I just want to 
continue, Mr. Batory.
    Do you think there are safety implications with respect to 
the implementation of PSR?
    Mr. Batory. Let me share this with you, because I meet with 
the regional leadership throughout the United States, as well 
as the individual inspectors that are assigned to those 
regions.
    One of the things that I have said to them and I will say 
to you: Do not get distracted by PSR. Our PSR is our CFR. This 
is what we do good. And the railroads are obligated to make 
sure that they comply with everything that is in this book. 
Things that are not in this book gives them the liberty to 
operate and maintain a railroad of their choosing, which is 
nothing new. Now, if you would like to--and Chairman DeFazio 
didn't have a chance to allow me to give you my opinion about 
PSR--I am more than willing to give it to you.
    Mr. Lipinski. Go right ahead. Go ahead and start.
    Mr. Batory. All right. First of all, the words are 
magnetic. It is a railroad, it schedules, it is precision. It 
attracts people. It is also a sound bite. I knew the author, I 
worked with him very closely in the late 1980s and throughout 
the late 1990s.
    Mr. Lipinski. All right, but I want to hear specifically. 
What is happening?
    Mr. Batory. Here is what--here is--all PSR is is 
``Railroading 101.'' It is lessons learned put in a book with a 
fancy cover on it that says Precision Scheduled Railroading.
    Here is the issue with it. When you have something of that 
nature, and it depends on the property in which you are 
leading, you can go in there and address that railroad with an 
ax and a saw, and you are going to have collateral damage. And 
with that collateral damage will be some draconian actions. Or, 
you can also apply everything that is in that book very 
methodically, deliberately, and you will get sustainability out 
of it.
    Mr. Lipinski. Well, my concern is, first of all, we know 
that there has been a 16-percent cut in workers. What you need 
to be doing is making sure that the safety is still there, and 
I understand that. And so that is the question. Are there any 
safety concerns with this?
    Mr. Batory. Yes----
    Mr. Lipinski. You know, maybe there is not, but that is one 
of the things that you need to be looking at, and considering, 
is making sure that we maintain a safe working situation for 
the workers and for the communities with the railroads.
    Mr. Batory. Thank you, Chairman, and I realize that. And 
with that, at least since I have been in this position, 
physical year 2017 versus 2018, the inspection reports among 
the FRA inspectors are up; observations are up; inspection days 
are up; the number of defect violations and associated fines 
are down. So that tells me, by looking at this--and the 
inspectors, they are using this [indicating Code of Federal 
Regulations] to do their job every day--that the men and the 
women that lead, maintain, and operate America's railroads are 
doing what they are supposed to do.
    I do not follow employment levels. But in preparation for 
this, I do understand that the train and engine men employment 
count is up 3 percent over last year.
    Mr. Lipinski. All right, in regard to data collection for 
block crossings, will you commit to improve the FRA's data 
collection on this?
    Mr. Batory. Yes.
    Mr. Lipinski. It sounded like you hesitated there.
    Mr. Batory. Well, as you know, we had a discussion in your 
office. And I am--have--one-third of my railroad career was in 
the Chicago area. So I am very familiar with what you are faced 
and some of your colleagues are faced throughout the United 
States. I struggled with it, at first, after I left your 
office, and I asked our staff. I said, ``Tell me what you have 
in the way of factual data.''
    So they put together 2 years of data--now, visualize this--
with 130,000 road crossings, nearly 200 million registered 
vehicles. We only came up with less than 900 complaints. Now, I 
am not saying the complaints aren't out there, but that is what 
little data we had. Your phone rings off the hook. You get 
letters.
    Mr. Lipinski. See, I have had 900 complaints in my office.
    Mr. Batory. Exactly. So that is when----
    Mr. Lipinski. In a year, easily.
    Mr. Batory. So that is when I sat in a staff meeting with 
our folks one Tuesday morning, and I said, ``What would happen 
if we created two portals in our website, and if it is approved 
we have to disseminate it and make everybody aware of it. One 
for the general public and one for law enforcement.'' But we 
have got to get some factual data concerning this subject 
matter.
    So, as a result, we filed with the Federal Register in the 
spirit of the Paper Reduction Act, trying to seek approval to 
create these two portals. I am encouraged by it. It needs to be 
done. They tell me it might be a Christmas present this year. 
OK, when we get the authority to do it. But that is the first 
step.
    And prior to doing that I also took the time to write a 
lengthy letter to all the CEOs of conglomerates of short lines 
and regionals and all the Class I's, telling them that they 
have to heighten their awareness on this subject matter. And 
this is nothing new to any of them. But keep in mind, if no one 
reports it insofar as the railroad, you don't know what you 
have going on.
    The only thing an engineer and conductor has any more is a 
telemetry device on a train that tells him how long that train 
is, linear feet-wise. And, based on their knowledge of line 
characteristics, they are supposed to know if they are blocking 
some road crossings.
    And then the other part of it is we find ourselves with 
this increase in registered vehicles over the last 25 to 30 
years----
    Mr. Lipinski. OK, I am almost 2 minutes over, so I am going 
to----
    Mr. Batory. OK.
    Mr. Lipinski. We could come back this, but I am going to 
cut myself off. So I will now recognize Mr. Perry for 5 
minutes.
    Mr. Perry. Thanks, Mr. Chairman. I actually want to 
continue the conversation, because I too have a question about 
the growing concerns of blocked grade crossings. And in keeping 
with the spirit of the conversation that is already kind of 
occurring here, what should be--Mr. Administrator, what should 
be the FRA's role in tracking the duration of closings, how 
they are reported, who reports them, and--other than the 
portal, which I think is probably a step in the right 
direction, what other things do you envision doing in this 
regard?
    Mr. Batory. At this juncture it all resides at the State 
and municipal level. There is nothing in the existing CFR that 
gives the FRA the ability to get involved with the duration of 
a crossing being blocked by a train.
    Mr. Perry. So the question is, should there be?
    Mr. Batory. I am not sure a silver bullet is the answer.
    Mr. Perry. I am not sure, either. I am just asking. I mean 
do people----
    Mr. Batory. So in that--in--I am not a big believer in 
silver bullets that correct it for everything across the 
country. I would say no.
    Mr. Perry. OK. I know that citizens in the Commonwealth 
that I represent--I am privileged to represent a portion of--
and I suspect across the country become frustrated with the--
and I can actually speak from personal experience on this--the 
lack of response on occasion from the railroad about this 
issue.
    And I am just wondering if there is another methodology 
that should be considered that maybe doesn't change it 
completely and upend it 180 degrees, but offer some 
collaborative input from folks other than the folks operating 
the rail line itself. And maybe it is the administration, maybe 
it is a location for residents and citizens, and so on and so 
forth, and folks to track the duration of it.
    And it is not only just crossings where the train might be 
sitting, but some at-grade crossings are closed for an 
inordinate amount of time for repairs, and what have you. And I 
was wondering. Do you track those for duration, as well, the 
ones that are closed for maintenance and/or other reasons?
    Mr. Batory. Insofar as tracking crossings that are closed 
for maintenance, no. The Federal Government doesn't get 
involved in that. That is between the railroad, the local 
municipality, the State, or sometimes the county. They, 
naturally, have to reach out to the local municipalities--State 
or county--to get permission to close the crossing, OK, for 
repairs. But the Federal Government does not get involved in 
that. And it works very well.
    Mr. Perry. And I am not saying that they should get 
involved in the permitting and the requests, and so on and so 
forth. But do you have any ideas, or do you know what the 
average time is, or do you keep--is there any statistics that 
are rolled up at the end of the year that kind of track that, 
so that people know what the time and duration of at-grade 
crossings being closed are?
    Mr. Batory. No, because each one is unique unto itself, 
based on the number of tracks and the number of lanes of 
traffic. So my experience has been you can have a crossing 
closed for perhaps 48 hours, you might have it closed for 2 
weeks because it is in the middle of an intersection and 
involves eight lanes of traffic and two tracks, or maybe three. 
So it depends on the uniqueness of the location.
    Mr. Perry. All right, Mr. Administrator, with the remaining 
time that I have I do want to talk to you a little bit about 
Positive Train Control and the mandate regarding workers, 
employees ensuring they have the knowledge and skills to 
perform the related tasks in regard to PTC.
    And it seems to me, from what I am reading here--and I 
just--maybe I am--maybe this is incorrect information, but we 
have a fair amount--it looks like one Class I and nine commuter 
railroads have not fully trained their employees on PTC, and 
one commuter railroad's progress was unavailable. By 
comparison, in 2018, the first-quarter data indicated that 5 
Class I's and 23 commuter railroads had not completed their 
training, including 17 commuter railroads that only trained 50 
percent or less of their workforce.
    Are you monitoring this, and do you have an update to any 
of that that will allay any of our concerns that this is still 
yet not ready for prime time, as far as training for the 
employees is concerned?
    Mr. Batory. Well, with this developing technology, training 
never stops. We are continually seeing updates insofar as 
training is concerned. And that particular report that we ask 
the railroads to submit every quarter, where it talks about 
training, it was not in the spirit to say, ``OK, I have X 
number of people, and by this date they are 100 percent 
trained, and I can walk away and forget about it.''
    It was how many people do you have trained, based on the 
maturity of the system on your property at that time, and we 
feel very comfortable with the level of training, and with 
developing technology--a lot of your training is incurred on 
the job, because we are finding things that you wouldn't find 
in an operators or a maintenance manual, because this system is 
being put in, and then, once it is put in and turned on, then 
we find issues that we have to address and then retrain people.
    Mr. Perry. So I am going over time here. I just want to 
clarify. So it seems to me that it is continuation training, as 
well, and the information that I have doesn't break out the 
difference between initial training and then continuation 
training so that employees may have had the initial training, 
but it doesn't enumerate the ongoing training, based on the 
changes in the technology, or the implementation of the 
rollout, et cetera. Is that a fair understanding?
    Mr. Batory. That is correct.
    Mr. Perry. Good, all right.
    Mr. Batory. And training is never going to end when it 
comes to----
    Mr. Perry. I understand and I concur. All right. Thank you, 
Mr. Chairman, I yield.
    Mr. Lipinski. I now recognize Mr. Carson for 5 minutes.
    Mr. Carson. Thank you, Chairman. I believe it is important 
to meet and improve our Federal efforts to support diversity in 
personnel and in Federal contracting work.
    Mr. Chairman, I would like to share a statement on the 
record from COMTO, the Conference of Minority Transportation 
Officials, and I would also like to hear from the Administrator 
about their efforts in this regard and get a brief update from 
you this morning. And we would appreciate a fuller response in 
writing.
    Secondly, on May 23rd, the FRA withdrew a Notice of 
Proposed Rulemaking published back in March 2016 that would 
have mandated that all covered trains, both passenger and 
freight, operate with at least two crewmembers. In the 2016 
NPRM, FRA states that the agency has studies showing the 
benefits of a second crewmember, and other information 
detailing the potential safety benefits of multiperson crews. 
In addition, qualitative studies show that the one-person train 
operators pose increased risks by potentially overloading the 
sole crewmember with tasks, and the PTC does not substitute for 
all the tasks performed by properly trained conductors.
    How have the findings from these studies changed since FRA 
issued the NPRM?
    Mr. Batory. Well, as far as the number of crewmembers on a 
train making it safe--and when we start getting down into the 
numbers of--whether you want to say it is three people, two 
people, one person, there are no facts that exist out there to 
substantiate oversight. So if you are going to give oversight 
to nothing, you still have nothing.
    Now, one thing I will share with you that will probably be 
enlightening to many people in this room--and it wasn't done in 
the spirit of this hearing today--I was interested in learning 
about what transpired during my career with collisions in this 
railroad industry. And I will stay with the more dramatic ones, 
the head-on collisions where two trains collide.
    And in 1978 we had a minimum of five people on a crew. Some 
States we had six and seven people on a crew. And in 1978 we 
had--and this is alarming, I am not too sure we could survive 
it today with the transparency and the media that we have--408 
head-on collisions in 1978. Today through 2018 it is still too 
many--this is regardless of speed--22. Now, that is with the 
head-ons and the rear ends. The head-ons were 65. In 2008 we 
had one, a 99-percent decrease.
    I keep going back. Let's use facts. We can sit here and 
make up all kinds of hypothetical examples about the safety of 
a train, the onboard crewmembers, and come up with all kinds of 
anecdotal opinions, but we need facts. In the railroad 
industry, rail management and rail labor has done an 
exceptionally good job--and it was during my career that they 
used the Railway Labor Act to get where they are today. Why 
throw that out? And Congress gave them that tool to use. That 
is where it belongs.
    Mr. Carson. Thank you, Chairman, I yield back.
    Mr. Lipinski. I now recognize Mr. Balderson for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman. Thank you, 
Administrator, for being here today. I appreciate the work that 
you and the FRA are doing to promote--we will stay on the 
railroad safety piece--throughout Ohio, where I represent, and 
the Nation.
    In your testimony, though, you mentioned that 95 percent of 
all rail-related fatalities are related to railroad property 
trespassing and grade crossing incidents. I want to touch a 
little bit on the findings from the FRA's national strategy to 
prevent trespassing incidents, and see if we are able to 
identify why people are trespassing onto railroad properties in 
the first place.
    And my followup to that would be do these reasons change 
from region to region?
    Mr. Batory. The trespassing situation, I think you are 
aware of, we have come out with a report recently. It is very 
alarming. I didn't even realize it until I got here in 
Washington, the severity of it, because all I saw was what I 
saw in my prior life of employment on a railroad.
    And yes, did we have trespasser incidences, and were some 
of them suicides? Yes, they were sad, and everything that you 
have to go through associated with that. But when you see it 
from a national perspective, and every week, you ask yourself 
what is going on here?
    And how much of it is suicide, how much is--we have 
identified the hotspots in the United States. The commuter 
agencies, I think, have done an outstanding job, as have the 
freight railroads, but especially the commuter agencies, 
insofar as heightening the awareness of looking out for 
trespassers. And if you think you have somebody endangered that 
perhaps might be suicidal, do something and act to try to 
preclude it from happening.
    But I was reporting it to the Secretary. I started doing it 
right after I got here in Washington because it jumped out at 
me, and I would show her every Tuesday how many grade crossing 
accidents we had in this country, and then how many 
trespassers. And even though grade crossing accidents would 
fluctuate--but they were sawtooth, but they were low--the 
trespasser just keeps growing and growing and growing.
    And we have a problem, and an issue we have to address in 
this society. And you naturally have people, unfortunately, 
that are not paying attention. OK, they are using railroad 
right-of-way as their leisure trail. They have their earbuds 
in. There is just a whole host of issues that we find in these 
things. And it is so sad to see it happen, because when you 
report to somebody and you say, all right, we had 25 or 30 
trespasser and crossing instances this past week, and 20 of 
them--15 to 20 were trespassers--and, just for talking 
purposes, from my recollection 15 to 18 of them died. You ask 
yourself why.
    And then think about this. Add up those numbers in the 20s 
and 30s. Multiply it times, you know, 52 weeks, and then divide 
it by the number of seats in an airplane and think of the 
notoriety and the action that we would give if we had two or 
three planes crash in this country. That is what we got going 
on with trespassers.
    Mr. Balderson. Thank you very much. I yield back my 
remaining time, Mr. Chairman.
    Mr. Lipinski. I yield 5 minutes to Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Mr. Administrator, I 
represent the San Gabriel Valley in California, and we have 80 
to 100 trains going through that district--the Alameda Corridor 
East. And we have problems with everything you have said: 
people crossing where they shouldn't be, and et cetera.
    They cost congestion, safety, idling cars waiting to cross, 
causing pollution. But I am concerned that trains--and the 
argument Mr. DeFazio--they are becoming too long. There was a 
train back some years ago that went to my area that was a mile 
and a half long. And I understand that only Long Beach, L.A., 
and Texas can handle that long a train for taking care of 
unloading, et cetera.
    I called the California Highway Patrol, the CPUC, 
everybody, and they bird-dogged it all the way in. But if 
something were to happen, there had been one person on there, 
anything happened on those rails, it would have taken the one 
person half an hour to go to the end of the train. That doesn't 
sound very reasonable.
    What are we doing to improve the grade crossing safety and 
invest in grade crossing separations by asking the railroads to 
contribute more to make more rail crossings available that will 
help the communities that I serve, such as quad gates and other 
such things.
    Then another thing I have--the Positive Train Control, 
which I championed a few years ago, they already have an 
extension. So how many are still not complying?
    And then the other question that--you say the highway-rail 
cross--FRA Grade Crossing Safety Summit was hosted, and I would 
like to know who was invited.
    Mr. Batory. OK, that is--in regards to your last question, 
we had the summit on grade crossing and trespassers on October 
30th of last year. We invited a cross-section of people that 
FRA----
    Mrs. Napolitano. No, but I would like to know who, because 
then I can find out if they have participated and were able to 
learn from it.
    Mr. Batory. Then I will report to your office later----
    Mrs. Napolitano. Please.
    Mr. Batory [continuing]. With that.
    Mrs. Napolitano. Please, I would appreciate it.
    Mr. Batory. OK.
    Mrs. Napolitano. Positive Train Control?
    Mr. Batory. Positive Train Control in your particular area, 
with Metrolink, they have done an exceptionally good job.
    Mrs. Napolitano. I know.
    Mr. Batory. And so--and the interoperability is maturing 
with the freight railroads and Metrolink.
    As far as these extensions, that is what is in the statute. 
As long as those railroads fulfill their prerequisites----
    Mrs. Napolitano. What are they?
    Mr. Batory [continuing]. On 12/31/18 they were given, then, 
2 more years to do implementation. That is in the statute. So, 
you know, a lot of people think that FRA just sat there giving 
out extensions. We couldn't give out extensions if they 
didn't----
    Mrs. Napolitano. No, we gave an extension.
    Mr. Batory. Yes, you did.
    Mrs. Napolitano. Congress did.
    Mr. Batory. Yes, Congress did.
    Mrs. Napolitano. And that expires, I think, last year.
    Mr. Batory. Yes, we had--everybody has to have their PTC up 
and running on 1/1/2021, basically a year and a half from now.
    Mrs. Napolitano. Well, is there any way of being able to 
get the railroads to contribute more to the rail grade 
separations that benefit them, but also the motoring public?
    Mr. Batory. I think there are two avenues. One is naturally 
working with the railroads, which I think they would be 
proponents of grade separations, OK, to minimize grade 
crossings.
    Mrs. Napolitano. No, they are proponents of the grade 
crossings, but not on----
    Mr. Batory. The highway fund, section 130 money, that the 
United States Government has, if you will, distributed over 
$4.5 billion to the States since the 1970s, when it was 
created----
    Mrs. Napolitano. I know that, sir.
    Mr. Batory. That----
    Mrs. Napolitano. I am very well aware of that.
    Mr. Batory. That is one that really needs to be addressed 
to make sure that we are putting money, if you will, in a 
smart----
    Mrs. Napolitano. The railroads benefit from it, more than 
anybody else, and yet it is only 10 percent to 3 percent--and 
sometimes nothing--towards those separations, and I think that 
is criminal. What about improving grade crossing safety?
    Mr. Batory. That is an ongoing program. It never stops. 
Training never stops. Awareness never stops. OK, we have staff 
out there at all the regions, then we have the brand, the well-
known brand, of Operation Lifesaver. We have the community 
collaboration, we have the railroad collaboration. It is 
endless.
    And we have made considerable inroads. The total number of 
trained motor vehicle accidents since 1990 are down 72 percent.
    Mrs. Napolitano. Well, yes, sir, I know that. My time is 
up.
    Thank you, Mr. Chair.
    Mr. Lipinski. The Chair now recognizes Mr. LaMalfa for 5 
minutes.
    Mr. LaMalfa. All right. Thank you, Mr. Chairman. Thank you, 
Administrator Batory, for being here. Let's talk a little bit 
more about automation in rail, automated technology. When we 
are looking into wider spread use in Canada of automated tech 
for inspecting trains, and then carry that over into what is 
called a closed loop, closed freight loops, and then, my 
understanding, there is a coal loop program, a pilot program in 
Nebraska and Wyoming, and that is being authorized. And also, 
FRA has a small--it is using this automated technology.
    Could you expound upon all that, and how useful that is, 
how practical it is, what they are doing in Canada, and what--
is there any impediments by law, or what have you, in the U.S. 
on that?
    Mr. Batory. Well, first, I can't speak in this hearing 
knowledgeably about what they are doing in Canada. OK? But we 
can certainly get back to your office on that.
    As far as technology here in the United States, I am of the 
belief that it is in the best interests of our country and the 
people that the railroads serve that we exploit technology to 
its fullest.
    With that, I have advocated both with management, railway 
supply--and I am sharing it with rail labor--that we need to 
unleash technology, exploit it, learn from it, not in the 
spirit of having a foot race with ourselves to see how fast we 
can write a reg, but learn, develop the facts. And we have--and 
I will use track as an example. We have an excellent platform 
of prescriptive rulemaking for track geometry. The railroad 
industry never even had that until the early 1970s. I grew up 
with it, and it is excellent.
    But it has taken us a long ways, as far as where we are 
today. When you start using autonomous track inspection you can 
find more track geometry defects and weaknesses than you and I 
can find looking through the windshield of a hi-rail vehicle. 
So, as a result, what would you rather have, yours and my 10 
observations, or have what an autonomous tracking inspection 
vehicle brings to the table in the way of, maybe, 100 
weaknesses and defects combined. It still takes people to go 
out there and inspect it, confirm it, and fix it. But we will 
end up with a stronger railroad.
    The same holds true with the signal side, insofar as these 
bungalows that--we call them bungalows--that you see at a 
crossing protection. And they are smart, they are introverts 
unto themselves. Some of them do communicate on a limited basis 
to other bungalows or to the headquarters of the railroad. But 
visualize if we had the ability to have self-diagnostic, 24-
hour, 365 reliability of these crossing bungalows or signal 
bungalows. It would be ideal. We would understand where our 
risk is. We would eliminate failure.
    Right now, what the reg specifies--we send people out there 
every 30 days to make an inspection.
    Mr. LaMalfa. Instead of having technology that could be 
watching it much more closely, and not be redundant when it----
    Mr. Batory. Better use of people, and reducing risk, and 
enhancing safety. I don't know what else you would want.
    Mr. LaMalfa. Yes.
    Mr. Batory. Get the most bang for your buck out of the 
person out there that is a professional doing their job day in 
and day out.
    Mr. LaMalfa. Keep the human element in there so you are not 
completely reliant on technology on its own, but a better 
combination.
    Mr. Batory. And once we develop enough facts as a result of 
exploiting technology, it will set the stage then for the 
parties to come together and say, all right, we had this 
prescriptive rulemaking. That is at the bottom of the line. 
Let's look at performance-based rulemaking, and figure out how 
to make this railroad industry even safer. This industry----
    Mr. LaMalfa. Let me jump--I am sorry, I am losing time, 
too. But let me jump to the issue of our borders, OK, 
especially when we are talking the U.S.-Mexico border. What are 
we looking at, as far as the interactions there with the 
ability to have those interties be safe and up to snuff with 
what we would ask for?
    Mr. Batory. One of the things that I mentioned earlier, as 
far as our obligation, is to make sure that anything that 
happens in the United States--applies with this book 
[indicating Code of Federal Regulations]--there is nothing in 
this book that identifies the--if you will, the citizenship of 
who can operate a train.
    Mr. LaMalfa. Is that an issue?
    Mr. Batory. So, as a result, the issue, from our 
perspective, FRA, is safety.
    Mr. LaMalfa. Yes.
    Mr. Batory. So as long as that human being on that train is 
doing everything that he is required to, regardless of where 
his citizenship is, OK, then we are doing our job. And in the 
case of Laredo--and it is a matter that is under litigation 
right now that has been initiated by the rail labor 
organizations--we have had prior to that, and we continue to 
have observation inspections continually, to make sure, OK, 
that the Laredo operation is in total compliance to the CFR.
    And we have had, I think, one or--somebody told me the 
other day I think we had two instances where we took exception.
    Mr. LaMalfa. OK. My time is over. Thank you.
    I yield back.
    Mr. Lipinski. The Chair now recognizes for 5 minutes Ms. 
Wilson.
    Ms. Wilson. Thank you, Mr. Chairman. In addition to serving 
on the Railroads, Pipelines, and Hazardous Subcommittee, I 
serve as chair of the Committee on Education and Labor's 
Subcommittee on Health, Employment, Labor, and Pensions, where 
I champion workers' rights to collective bargaining and fight 
to protect good-paying American jobs, such as those in the 
railroad industry.
    In fact, last month I chaired a hearing on legislation to 
strengthen workers' rights to organize and bargain for higher 
wages, better benefits, and safer working conditions.
    The state of the rail workforce is of tremendous concern to 
me and my constituents. Our district is home to an Amtrak 
station, several commuter railroads, including Brightline and 
Tri-Rail, and freight railroads such as CSX and Florida East 
Coast Railway. With so many trains transporting passengers and 
freight throughout our district, we are understandably 
concerned about every factor affecting safety. Despite growing 
efforts at the local and State level, Florida continues to rank 
high among the rail-related collisions and fatalities.
    As such, I am glad that we are having today's hearing, as 
we focus on the workforce and highlight important issues such 
as the shrinking workforce, the increasing adoption of 
Precision Scheduled Railroading, fatigue, crew size, and the 
implementation of Positive Train Control. And, of course, 
safety. I have a few questions.
    Administrator, the testimony and evidence before me 
suggests that FRA has adopted a culture of deregulation and 
decreased oversight at the expense of the safety and health of 
employees and passengers. Can you explain the administration's 
decision to withdraw the crew staffing rule and the data 
standards used to justify that decision?
    Mr. Batory. What I shared earlier, there are absolutely no 
facts to give oversight to. So, as a result, that is why the 
rule was withdrawn.
    We do have a history of success on how we went from five to 
seven crewmembers down to two and three. And it was utilizing a 
tool that Congress gave us. So why not continue using that tool 
going forward, when the time is right?
    And it has to be negotiated. A railroad just can't--a Class 
I railroad can't just arbitrarily say, because we took that 
rule down, ``All right, we are going to start running one-man 
crews or autonomous trains tomorrow.'' They have to sit down 
with labor and negotiate that.
    Ms. Wilson. Have you done that?
    Mr. Batory. I don't, not in my capacity. I can't negotiate. 
I work for the United States Government.
    Ms. Wilson. Well, have the appropriate people sat down and 
negotiated with labor? Because you have to justify that 
decision of the crew staffing. That is untenable, as we see it 
from this perch.
    Mr. Batory. Well, they certainly have a successful track 
record to look back on. It may not be the particular 
individuals themselves, but their predecessors certainly did a 
good job. So maybe there is some----
    Ms. Wilson. Well, that is not the way we feel. There should 
not be any reason----
    Mr. Batory. Why----
    Ms. Wilson [continuing]. To justify the decisions that have 
been made. You shouldn't have deregulated so much. That is my 
opinion.
    The next question is----
    Mr. Batory. But let me just clarify, so you know----
    Ms. Wilson. Or can you explain--let me go to the next, I 
don't want to run out of time.
    Mr. Batory. Crew size is not regulated.
    Ms. Wilson. Can you explain why the administration 
announced that it did not see a need to regulate the 
development of artificial intelligence, or autonomous 
operations in the rail industry? Have any pilot studies or 
other investigative measures been taken to justify this 
decision?
    Mr. Batory. I think it would be best if we just get back 
with you in writing on that, because there are some assumptions 
being made that the Federal Government is involved in the 
regulating of train crew size, and it never has been.
    Ms. Wilson. Mr. Administrator, you announced that there is 
no need to regulate the development of artificial intelligence 
in the rail industry.
    Mr. Batory. There is----
    Ms. Wilson. Do you remember that?
    Mr. Batory. There is no regulation to develop artificial 
intelligence or autonomous operations at this time. We are--
this is all developmental at this time, trying to get facts so 
that people can understand what needs to be regulated and what 
doesn't need to be regulated.
    Ms. Wilson. There is a need to regulate artificial 
intelligence. My time is up, but we do need regulations in 
place.
    I yield back.
    Mr. Lipinski. The Chair will now recognize Mr. Stauber for 
5 minutes.
    Mr. Stauber. Thank you very much, Mr. Chair. Before I 
question the Administrator I just want to tell you that the 
district that I represent is Minnesota's Eighth Congressional 
District, which is northeastern Minnesota. I believe there is 
four or five Class I railroads in that entire district.
    I had the opportunity to go through a crossing and observe, 
for a day, a crossing in Ranier, Minnesota, which is just east 
of International Falls, which is a heavy crossing for Canadian 
National Railway in this case. I want to talk to you about the 
workforce, because what I saw in relation to the railroads and 
the Customs and Border Patrol, what I saw was a functioning, 
well-oiled machine to make sure that there wasn't any stolen 
intellectual property coming across.
    For me it was about this is kind of how it should be done 
with the railroads working with the Customs and Border Patrol 
and the workforce. And when I was there, during their check of 
the trains coming across, I personally witnessed a carload of 
imitation, artificial Crocs shoes that came from the country of 
China, which--stealing intellectual property. That is jobs, 
that is part of the economy.
    I want to know how is it throughout this country that our 
railroads are working with our Customs and Border Patrol, and 
do you think that it can be better? What are some of the things 
that you suggest, from the industry standpoint, to make sure 
that we are protecting our intellectual property, our national 
security interests, so--you know, so it doesn't harm our 
manufacturers, our small businesses, and our country?
    Tell me what the railroad is doing to enhance the safety of 
our country, as trains come and go, on both the north and 
southern border.
    Mr. Batory. Well, I am familiar with International Falls 
and the former DWPC on up there. But most of my experience 
comes from the Midwest, with the Canadian border and also 
somewhat with--during a chapter of my life, the southern border 
with Mexico.
    But I have always admired, similar to what you shared--or 
at least my interpretation of what you shared--that the 
railroads work very closely with international border 
authority, insofar as not only the inspection of the trains, 
but when trains have to be broken up, set out cars for further 
inspection because there is doubt or concern or absence of 
proper documentation.
    We have, since right around the era of post-9/11, we now 
have the ability to do, if you will, x ray of trains.
    Mr. Stauber. Right. Well, as far as--Mr. Administrator, as 
far as the timing of the trains coming and going, is the 
workforce adequate, from a Customs and Border Patrol--are the 
timing of the trains--is it good for the industry, or is it 
backed up? Because, you know, when they are delayed, it can 
mean, you know, some financial concerns.
    So my question would be is there enough intercrossings at 
Customs and Border Patrol? Is there enough personnel available 
to make sure those trains come and go from our country in a 
reasonable time?
    Mr. Batory. As much as I would like to answer that 
question, I don't have the background on which to address what 
it is, nationwide. And I think each border point is a unique 
crossing unto itself, and the people that know best are the 
border authority officials and the railroads that work with 
them.
    Mr. Stauber. OK. In my last minutes here I want to just 
share with you. I was a former county commissioner for St. 
Louis County, Minnesota, and I am very impressed that safety is 
the priority for the workers and the public, because we are 
working--in our request to make crossings safer, we have been 
met with great cooperation.
    And I will say that the rail industry is critically 
important to this country, and I am proud of all the railroads 
that have stepped up and looked at making our crossings safer, 
and with the cooperation--with the local townships, cities, and 
et cetera, to make them safer.
    So I can't tell you how--from a county commissioner 
standpoint, how important it is to have that relation with the 
local communities to make sure those crossings are safe. And I 
know the rail workers agree with that, as well.
    And I see my time is up, and I yield back, Mr. Chair.
    Mr. Lipinski. The Chair now recognizes Mr. Lynch for 5 
minutes.
    Mr. Lynch. I thank the chairman, and I thank the 
Administrator for your willingness--I am over here.
    So, according to the Federal Transportation Bureau, the 
rail industry dropped about 30,000 rail employees over the past 
4 years. Is that consistent with your understanding? I know you 
don't track this stuff, but they are saying there have been--
there are now 31,000 fewer rail employees today than there were 
4 years ago. You think that is right, or what is your 
understanding?
    Mr. Batory. I can't give you a confirmation of that number. 
But, as a whole, railroad employment has dropped.
    Mr. Lynch. Yes. So that is the Surface Transportation 
Board.
    And your testimony earlier, when you were having the back-
and-forth with Chairman DeFazio about the length of trains, I 
am just curious. You know, if the idea is that at some point we 
are going to have one person, one person driving the train, and 
it is--some of these long trains are how many feet long? How 
many cars long?
    Mr. Batory. The ones that, if you will, that I would say 
are--began to reach the upper limits of what people are 
operating today with the type of equipment they are operating, 
I see sometimes 15,0000, 17,000 feet.
    Mr. Lynch. Wow.
    Mr. Batory. But that is not----
    Mr. Lynch. So if something goes----
    Mr. Batory. But that is an exception.
    Mr. Lynch. Yes, yes. But then, still, your earlier 
testimony was that you got some other trains that are pretty 
close to that on a regular basis. Those were exceptionally 
long, but we are not talking short trains, either, here.
    The idea is to move as many cars as possible, right? I mean 
that is the incentive, to lower cost, right?
    So my concern is this. You got one person on a train at 
some point, and something goes wrong, and that conductor has 
to--or that engineer has to leave the car and then go check 
something out at the back of the train. So they leave the car 
completely unmanned, and walk back.
    I mean you had a rule that you were considering up until 
May of this year. And that rule was to require two people to be 
on the train. It seems to make sense to me. You know, you have 
got fatigue problems, right? So not only is that one person who 
is going to be on the train overworked, and there is fatigue 
problems, but now you have got them leaving the car, and 
leaving the locomotive, and then walking back and trying to 
figure out what is wrong. Just for the safety of that single 
employee it seems reckless and irresponsible to not require two 
people on the train. It just--it is mind-boggling.
    And I know you are trying to squeeze every single dollar 
out of the--you know, the operators are trying to squeeze every 
single dollar out of these employees and every single train. 
But at some point, you know, common sense and basic concern for 
your workers--and the FRA has a role to play here. You set the 
standards, you know, you say--you know, you come up with some 
basic rules. This makes sense. This makes sense to have two 
people on a train.
    Imagine that, you know. You have got a long train that has 
tremendous impact in local communities, you know, blocking 
crossings, and you have got one poor man or woman out there 
trying to run that whole operation. That is ridiculous.
    Mr. Batory. I certainly agree with what you said about 
common sense. That is why I think that a railroad--if you will, 
rail labor and rail management--OK, there is lots of common 
sense, and they can figure out what is right and wrong. And 
then, once they figure it out, they will negotiate it.
    Mr. Lynch. So why withdraw the rule? What is the thinking?
    Mr. Batory. What was the purpose? They have the Railway 
Labor Act, and there is no facts.
    Mr. Lynch. Well, you had the rule, you withdrew it. So it 
is not like I am----
    Mr. Batory. But there is no----
    Mr. Lynch. So it is not like I am asking you to do it. This 
is something you were going to do, and then you changed your 
mind.
    Mr. Batory. Well, there is no----
    Mr. Lynch. You withdrew the rule on May 23rd, 2019. You 
withdraw the rule to require two people on a train. Why--I am 
just asking you. What is the thinking? Why? I thought you had a 
good idea.
    Mr. Batory. By withdrawing the rule, they--there is nothing 
out there to support having a rule.
    Mr. Lynch. What?
    Mr. Batory. How do you give oversight to something if you 
have nothing to give oversight to?
    Mr. Lynch. No, you had a good idea. You had a rule, you 
proposed it----
    Mr. Batory. The result is nothing----
    Mr. Lynch. So it is not a vacuum. You had a good idea, you 
had a proposal, and then you withdrew it, in spite of the 
common sense that we both agree supports that rule.
    Mr. Batory. And here is the issue, in respect of time. And 
this is what I said earlier. We can sit here all day and bring 
everybody up here, and we will come up with all kinds of 
hypothetical examples----
    Mr. Lynch. No, I am not talking about a hypothetical----
    Mr. Batory. The opinion----
    Mr. Lynch. I am talking about your rule. This is your rule. 
You said----
    Mr. Batory. There was nothing to support it.
    Mr. Lynch. Well, why did you write it, then? What do you 
mean, there is nothing to support it?
    Mr. Batory. I wasn't here.
    Mr. Lynch. You have fatigued workers----
    Mr. Batory. I didn't write the rule.
    Mr. Lynch. You have huge trains, you have huge disruption 
to these communities where you have hundreds and hundreds of 
cars on these trains. And you are absolutely right, you should 
have two people on that train. You draft the rule, May 23rd 
comes and you withdraw it. There is plenty to support the rule. 
I agree with your rule. I am just worried--I am just wondering 
why you withdrew it, that is all.
    [No response.]
    Mr. Lynch. I take that as an ``I don't know, either, 
Congressman.''
    Mr. Batory. No, I do know, but time doesn't allow me to 
share----
    Mr. Lynch. Well, you have plenty of time.
    Mr. Batory. My door is open, my phone is on, and I am 
available----
    Mr. Lynch. Well, we are here now, though. We are here now. 
This is the hearing on this.
    Mr. Batory. There is not a singular answer to the size of a 
train crew.
    Do you realize today--has anybody shared with any of you, 
OK, that we are operating train crews today----
    Mr. Lynch. Yes, you shared----
    Mr. Batory. No----
    Mr. Lynch. The FRA shared a rule with me saying there 
should be two people on a train. You shared that with me. I 
didn't dream that up. You sent it to me.
    Mr. Batory. And we----
    Mr. Lynch. And then, on May 23rd, you withdrew it. And my 
question remains why did you withdraw it?
    Mr. Batory. Because there are no facts to support it.
    Mr. Lynch. Well, why did you send it to me, then?
    Mr. Batory. You will have to ask my predecessor.
    Mr. Lynch. All right. I yield back.
    Mr. Lipinski. The Chair will now recognize Ms. Norton for 5 
minutes.
    Ms. Norton. Well, thank you, Mr. Chairman. I want to pick 
up on--and I don't want to beat this one to death--I want to 
pick up on Mr. Lynch's statement, because this notion of the 
two-man crews, or two-person crews, has been going back and 
forth in this committee for a very long time.
    Now, you said there was nothing to back it up, but the FRA 
itself--I am pointing to a 2016 study--it said--has studies 
showing the benefits of a second crewmember, and other 
information detailing potential safety benefits of multiperson 
crews. Now I am here quoting your own agency. In light of what 
your own agency found in studies, how can you justify rolling 
back the two-person crew, and perhaps putting the train into 
potential danger? I am quoting from the FRA itself, Mr. Batory.
    Mr. Batory. Well, I have never known a train to be in 
danger based on the number of people on a crew, especially with 
what I just shared with you earlier.
    Ms. Norton. Well, so why in 2016 did the FRA say it ``has 
studies showing the benefits of a second crewmember''? You can 
see the problem you are posing for us when policy is not 
stable. And all you need is a second person to take back what 
was mandated.
    You do have a problem. And not only that, let me ask you 
this. The FRA is now working to preempt State and local laws 
that seek to implement the two-person rule. Why are you doing 
that?
    Mr. Batory. Why would you want it?
    Ms. Norton. What?
    Mr. Batory. Wouldn't you rather have a level playing field 
for interstate commerce, for that--for our country, as a whole?
    Ms. Norton. So, although those State and local laws 
apparently agree with your own studies that I just quoted to 
you, that there are benefits to the two-person crew, they are 
going by your own studies. You are not going by your own 
studies. They are trying to safeguard trains when they pass 
through their States, and you are trying, you say, to put them 
in line with your pullback now of the two-person rule. For what 
reason?
    Mr. Batory. And the question is?
    Ms. Norton. Why are you now trying to get State and local 
laws----
    Mr. Batory. Because the FRA--we went back through 
everything we could find. There was nothing to substantiate the 
size of a train crew.
    Ms. Norton. OK. All right, Mr.--you know, Mr. Batory----
    Mr. Batory. Nothing.
    Ms. Norton. Except the only thing was what I quoted that 
you yourselves had found, and I quoted that, and I am--and the 
record will show the quote. So we are going back and forth. 
Remember, I didn't quote what some outside organization said, I 
quoted the FRA when I said the potential benefits of the two-
person crew.
    Let me go on, because what you have done is to give us 
testimony that makes us wonder whether we can rely on the FRA, 
when it can't even rely on its own studies. So it takes back 
rules that its own studies say it should not.
    Mr. Batory. Well, I will share this with you if you would 
just, like--when the FRA a few years ago elected to pursue this 
avenue----
    Ms. Norton. Elected to pursue what?
    Mr. Batory. This avenue of saying----
    Ms. Norton. Two-person crews?
    Mr. Batory. Two-person crew. I did share a professional 
position with the Administrator at the time, whom I have known 
for a number of years.
    Ms. Norton. And what did you tell him at that time?
    Mr. Batory. I said to him on the street corner of 3rd 
Street and M. I said, ``If you do this, just make sure you have 
the facts to support what you are advocating.''
    Ms. Norton. Well, he adhered to your advice, because----
    Mr. Batory. And there is no facts.
    Ms. Norton. He adhered to your advice because I have just 
quoted what their studies have shown.
    Mr. Chairman, I won't belabor this any longer, but I should 
have thought that the two-person crew, ever since I have been 
in Congress, has been a subject of controversy with a study, 
and I think that is the responsible thing for the FRA to have 
done, indicating why the two-person crew was necessary. Indeed, 
they also found that having one-person trains pose--and here I 
am quoting from your own studies--``pose increased risks by 
potentially overloading the sole crewmember with tasks, and 
that PTC does not substitute for all the tasks performed by 
properly trained conductors.''
    So I rest my case, Mr. Chairman, and I yield back.
    Mr. Lipinski. Thank you. The Chair will now recognize Mr. 
Malinowski for 5 minutes.
    Mr. Malinowski. Thank you. Well, I am going to belabor the 
point. Actually, I want to go back to the very beginning. I 
know this has been raised in a number of ways, but I just want 
to ask you simply. Should a 3-mile train be allowed? Yes or no.
    Mr. Batory. It can operate safely and efficiently, 
depending on the location and the integrity of the train. And 
the men and women that lead and maintain and operate this 
industry do an exceptionally good job. They don't go out there 
and just make up trains and figure out, ``Well, I wonder if we 
can block a bunch of crossings today and inhibit the public, or 
perhaps run up the risk and have a derailment today.'' They do 
a real good job of ascertaining what they need to get 
accomplished.
    Mr. Malinowski. So the answer is yes. What about a 5-mile 
train, a 10-mile train? Should there be any limit, or would you 
just leave it up to the industry?
    Mr. Batory. I have never heard of one of those being 
operated, excepting Australia. And it was out in the middle of 
nowhere. That is the only place I have ever known a train that 
big.
    Mr. Malinowski. So it has happened.
    Mr. Batory. Oh yes. There was one train that was--well, it 
was close to----
    Mr. Malinowski. All right. I think----
    Mr. Batory [continuing]. 30,000 feet.
    Mr. Malinowski. I think we have your answer. If--let's say 
you got a 3-mile train, and you have got one crewmember. How 
long would it take for that crewmember to walk from the front 
to the back of the train to try to figure out the source of a 
problem?
    Mr. Batory. Well, if he is good walker, OK, it is going to 
take--basically, for a 3-mile train, what is that, an hour to 
walk to the rear, and another walk--an hour to walk back, and 
then maybe he might have--he or she might have to do something 
in the interim if they find something.
    Mr. Malinowski. Is that a good situation? Are you happy 
with that?
    Mr. Batory. I have never incurred that type of situation.
    Mr. Malinowski. What if the train is carrying liquid 
natural gas? Should there be any length to the limit of a train 
carrying LNG? And I ask because the Department is currently 
expediting review to make it easier for LNG to be transported 
in different kinds of railcars. My State of New Jersey, almost 
certainly we are going to have large trains carrying LNG. 
Should there be any limit to the length of a train carrying 
that highly flammable explosive substance?
    Mr. Batory. I think it is best to let the science and facts 
determine that, if it is even necessary.
    Think about where we have started and where we are at 
today. We used to have trains that basically were less than 1 
mile long. Through technology and efficiency--and I told you 
the number of cars in a train have increased only 10 over the 
last 45 years, the number of cars. It is the linear length.
    So, as a result, OK, these consists of these trains are 
safe. The in-train forces are studied constantly. You actually 
get a profile that gives you the distribution of tonnage in 
your train. The people that make up the trains know where to 
put the tonnage in that consist. People are doing a good job. 
We just don't go out there and say, ``I think we will run some 
trains today and see what happens.''
    Mr. Malinowski. Yes, well, people do a good job, which is 
why we want people on trains. So thank you for making my point 
there.
    Let me get back to the LNG question, because the proposed 
rule would enable LNG to be transported in different kinds of 
railcars, in DOT 113 rail tank cars. And my understanding is 
that those would have about four times the capacity of the ISO 
cars that are now carrying LNG. Do you see any potential risk 
in vastly expanding the ability of the rail network to carry 
this substance in railcars that contain four times as much as 
is currently allowed?
    Mr. Batory. What has been shared to me at this date, no.
    Mr. Malinowski. Do you know what the blast radius is for 
one of the current cars, the ISO cars?
    Mr. Batory. Which kind of car? There are so many. I will 
tell you this. LNG has a lower pressure rate than any other 
volatile commodity out there. We are handling other commodities 
that have a much higher pressure rate.
    Mr. Malinowski. And you know what happens if it is exposed 
to the atmosphere in an accident.
    Mr. Batory. As I do the other commodities, as well.
    Mr. Malinowski. You have no concerns about----
    Mr. Batory. No, there is--because of the type of equipment, 
and the way in which we handle it. If people do their job the 
way that the regulations and the rules and recommended policies 
and practices are set forth, it will work.
    Mr. Malinowski. So you would be fine with a 3-mile-long 
train carrying liquid natural gas through New Jersey with a 
one-man crew, because people do their jobs?
    Mr. Batory. Well, I have operated one-man crews in New 
Jersey and never had any problems.
    Mr. Malinowski. Thank you. I yield back.
    Mr. Lipinski. Thank you. I yield to Chairman DeFazio for 5 
minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you, Mr. 
Administrator, for being here for a long time. But I want to 
follow up on the LNG question. I have tremendous concerns about 
this.
    Currently there are limited exemptions: Alaska Railroad, 
they can have 12 intermodal containers on any train consist. 
Crews have to have special training, emergency response 
organizations have to have special training. It has to be 
documented and provided to the FRA.
    And then, we are now seeing a proposal in Florida that is 
similar to this. They are limited in speed. And there are a 
whole bunch of conditions on this.
    I think that LNG is a unique commodity, and you might not 
be familiar with its characteristics. It is essentially liquid 
compressed, but when exposed to the atmosphere it has a 
tendency to turn into a very large cloud, which is very 
combustible over a very large area. Oil doesn't do that. 
Ethanol doesn't do that. It is volatile, it burns, but it 
doesn't create a giant cloud in the atmosphere like LNG does.
    And we now have a proposal for a special permit to 
essentially create a railroad liquid pipeline that is a 
continuous loop of 100 cars, 6 trains, in Florida through 
heavily populated areas. And, as I understand it, the Pipeline 
and Hazardous Materials Safety Administration is consulting 
with FRA on this.
    Where are we at in that process?
    Mr. Batory. I am familiar with the permits that have been 
given for LNG so far. OK, and they are basically in southern 
Florida, and I believe there is another permit in western 
Pennsylvania, if I am not mistaken.
    And from my understanding, and conversations with this 
whole LNG movement, a lot of due diligence is being given to it 
insofar as making sure that it is nothing less than what we are 
accustomed to today in the safety of handling hazardous and 
volatile materials.
    One of the things that I have been impressed by is what the 
industry has come to realize in the way of equipment to handle 
LNG as far as the tank car with the two vessels and the 
insulation in between, the stub cell that has been designed on 
both ends. A lot of smart people are doing a lot of good work, 
making sure that when LNG does get transported on the rails, it 
will be transported with the least amount of risk, if any, and 
rely on the people that do their jobs every day to do it 
safely.
    Mr. DeFazio. Is the 113 car absolutely puncture proof?
    Mr. Batory. Nothing is absolutely puncture proof in this--
nothing.
    Mr. DeFazio. All right.
    Mr. Batory. It depends on the circumstances and the 
incident at the time.
    Mr. DeFazio. OK, so given that they are not puncture-proof, 
and we just recently had some ethanol spilled out of cars that 
were basically supposed to be at least puncture-resistant, 
let's say 113s are the same, they are puncture-resistant. So, 
again, I would urge you to have your staff look at the unique 
characteristics of LNG. I mean the only thing I can think that 
is similar, in terms of potential fatalities, is chlorine, 
except that doesn't explode, it just poisons people.
    You have the potential for a massive fireball with just one 
of these cars, let alone multiple cars being punctured. And 
accidents do happen for different reasons: someone threw a 
switch when they shouldn't throw the switch, you know, things 
have happened. And I just think that we really should think 
multiple times before we start allowing a 100-car train, 6 a 
day, operating continuously in a very heavily populated State.
    One last point, which is you were involved in withdrawing 
the rule. Is that correct? On two-person crews.
    Mr. Batory. Oh, definitely.
    Mr. DeFazio. OK, but you said earlier that you had talked 
to a former Administrator--I don't think you gave a name--about 
that issue when you were working for the railroad industry. Is 
that correct?
    Mr. Batory. Yes, sir.
    Mr. DeFazio. Well, my understanding is discussing a rule 
does not meet the 2-year exemption, that you would be 
permanently recused from being involved in that issue. All 
right.
    Mr. Batory. It was----
    Mr. DeFazio. Have you consulted with counsel?
    Mr. Batory. It was long before that, OK, it was not the 
immediate prior Administrator. It was--I would have to look on 
a calendar. I am going to say it was probably 2013, 2014. The 
rule hadn't even been proposed. And I was being very candid and 
honest with you.
    But the short of it is I sit here before you. And I will 
look at anybody and say, ``Let's just do what is right, and 
rely on the people that know what to do as best.'' And they 
will figure it out. We won't. They will figure it out.
    Mr. DeFazio. Well, the problem is, as I said in my earlier 
statement is that Wall Street is setting the terms and 
pressuring executives, and they aren't concerned about safety. 
That is an external diseconomy to them. Their annual or monthly 
or quarterly profits are what is being watched by Wall Street. 
Only if there is an absolutely catastrophic accident, the bank 
stops the railroad, will they care about it. But short of that, 
they don't give a hoot. And that is my concern, that the 
pressures are being exerted in ways that are going to 
jeopardize safety.
    The questions we are asking about the Boeing 737 MAX may 
come to that same conclusion. Pressures to get market share, to 
market products, to drive up the stock price so you get a 
bonus, those are not things that lead to safety concerns.
    In any case, I guess we are going to disagree. But I think 
the industry has changed a lot very quickly since you worked 
there.
    Thank you, Mr. Chairman.
    Mr. Lipinski. Thank you, Chairman DeFazio. I would like to 
thank Administrator Batory for your testimony today. And you 
are now dismissed, and we will call up the second panel of 
witnesses. Thank you very much. The second panel will come up.
    [Pause.]
    Mr. Lipinski. I would like to welcome our second panel of 
witnesses.
    We have Mr. Dennis R. Pierce, president of the Brotherhood 
of Locomotive Engineers and Trainmen; Mr. John Previsich, 
president of SMART Transportation Division; Mr. Jerry C. Boles, 
the president of the Brotherhood of Railroad Signalmen; Mr. 
Andrew W. Sandberg, assistant to the president, directing 
general chairman, District Lodge 19 of the International 
Association of Machinists and Aerospace Workers; Mr. William 
Gonzalez, president of Amtrak Police, Fraternal Order of Police 
Labor Committee; and Mr. Ian Jefferies, the president and CEO 
of the Association of American Railroads.
    I want to thank you all for being here today. I look 
forward to your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    As with the previous panel, since your written testimony 
has been made a part of the record, the subcommittee requests 
that you limit your oral testimony to 5 minutes.
    Thank you for your testimony today. We will begin with Mr. 
Pierce.
    Mr. Pierce, you are recognized for 5 minutes.

TESTIMONY OF DENNIS R. PIERCE, NATIONAL PRESIDENT, BROTHERHOOD 
     OF LOCOMOTIVE ENGINEERS AND TRAINMEN; JOHN PREVISICH, 
    PRESIDENT, TRANSPORTATION DIVISION OF THE INTERNATIONAL 
   ASSOCIATION OF SHEET METAL, AIR, RAIL AND TRANSPORTATION 
  WORKERS; JERRY C. BOLES, PRESIDENT, BROTHERHOOD OF RAILROAD 
  SIGNALMEN; ANDREW W. SANDBERG, ASSISTANT TO THE PRESIDENT, 
  INTERNATIONAL ASSOCIATION OF MACHINISTS DISTRICT LODGE 19; 
WILLIAM GONZALEZ, PRESIDENT, AMTRAK POLICE LABOR COMMITTEE; AND 
     IAN JEFFERIES, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
               ASSOCIATION OF AMERICAN RAILROADS

    Mr. Pierce. Good morning, Chairman Lipinski, Ranking Member 
Crawford, and subcommittee members. I appreciate this 
opportunity to appear this morning, and I thank Chairman 
DeFazio for inviting me to testify, and for his and Ranking 
Member Graves's leadership of the T&I Committee.
    My name is Dennis Pierce. By occupation I am a locomotive 
engineer. I am also proud to be the national president of the 
oldest union in North America, the Brotherhood of Locomotive 
Engineers and Trainmen. I also serve as president of the 
Teamsters Rail Conference.
    We were asked what the state of the rail workforce is. I 
must, unfortunately, report to you that, while rail worker 
productivity has never been better, and Class I railroads have 
enjoyed multibillion-dollar profits for many years, employment 
levels are headed in the other direction with thousands of rail 
employees furloughed. Some of this is due to a modest downturn 
in traffic. More is undoubtedly due to deployment of certain 
technologies. But the most serious threat to the workforce, at 
least in the short term, is the industry's fascination with 
Precision Scheduled Railroading, or PSR.
    You have heard the stories already. It is asset 
maximization. This means the loss of jobs for union-represented 
employees, but there are ways that it also impacts those 
employees who remain. For our perspective, the vast majority of 
engineers and conductors are on-call employees. They must 
report to work with as little as 90 minutes' notice, and they 
rely on train lineups to protect their work starts.
    PSR has all but eliminated many of the jobs of the 
employees who manage and update train lineups, and who balance 
the crews when traffic is not even, leaving a predictable work 
start at an all-time low.
    Add that many carriers have implemented draconian 
attendance policies forcing employees to report to work, even 
when not fully rested, due to this poor predictability. Forcing 
employees to work fatigued in order to avoid discipline 
endangers both the workforce and the general public. 
Ironically, Congress mandated fatigue mitigation programs in 
2008, but FRA has yet to finalize those regulations. We would 
ask that this committee act to ensure that meaningful steps are 
taken by FRA to mitigate fatigue, as Congress commanded 11 
years ago.
    Equally concerning is FRA's refusal to address the ever-
longer trains that are a cornerstone of PSR. With the increased 
use of locomotives distributed throughout the train controlled 
via telemetry, a single engineer is responsible for controlling 
and operating trains that are several miles long. This push for 
longer trains with fewer crews has reached a breaking point.
    The limits of the telemetry that allows an engineer to 
control the rear-end device on a long train from the head end 
have been exceeded. And end-train communication losses are 
becoming commonplace. A blockage in a train's brake system and 
a communication loss to the rear end can have catastrophic 
results, yet FRA does nothing to address the situation.
    Also at the forefront of the public debate is train crew 
size. There are some that argue that technology should replace 
crewmembers. I am here to tell you that no technology is 
designed to prevent all accidents, particularly low-speed 
collisions, or most highway-rail crossing accidents. And there 
is no technology even on the horizon that can replace the 
safety benefits of having two crewmembers on a train during 
operations or in the event of a derailment or accident.
    The previous administration initiated rulemaking to require 
two crewmembers on certain freight trains, but the current 
administration discontinued that. And in a departure from the 
mentality that States should be able to regulate their own 
business, they have attempted to preempt State laws that might 
govern the same issue. We urge you to pass H.R. 1748, the Safe 
Freight Act of 2019, which has been sponsored by Congressman 
Young, and has over six dozen bipartisan cosponsors.
    Finally, I want to talk about a front-burner issue 
involving BLET members in Laredo, Texas, that threatens to 
extend well beyond that area. Beginning in 1920, American crews 
picked up and delivered all international freight traffic at 
the U.S.-Mexican border on the International Bridge. Last July 
our crews were replaced by Mexican crews employed by a Mexican 
subsidiary of an American railroad to man the operation between 
the bridge and the Laredo yard.
    This is a very complex dispute, which has been and is being 
contested in a number of forums. But for your purposes, it is 
important to understand that Mexican law preserved in NAFTA 
requires that, for rail operations in Mexico, all railway 
crewmembers must be Mexican nationals. When our crews were 
replaced, we asked the White House to intercede. We have yet to 
receive a response. We also requested that U.S. Trade 
Representative Lighthizer insist on a reciprocal provision in 
the pending USMCA. He did not do that.
    This Congress can do what the administration has not. We 
seek legislation that mirrors the protection Mexican workers 
enjoy in their country, a law that says trains originating in 
Mexico may only be operated in the United States by crews 
comprised entirely of citizens or nationals of the United 
States. I find it shameful that the Mexican Government has done 
more to protect the jobs of its workers than the Government of 
my Nation. And I ask for action.
    Despite the difficulties I have talked about, America's 
rail workforce provides the best rail transportation in the 
world. The data is in my written testimony, as are greater 
details of what I have highlighted.
    Thank you for your time and attention.
    [Mr. Pierce's prepared statement follows:]

                                 
Prepared Statement of Dennis R. Pierce, National President, Brotherhood 
                  of Locomotive Engineers and Trainmen
    Good morning, Chairman Lipinski, Ranking Member Crawford, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you this morning. I also want to thank Chairman DeFazio for 
kindly inviting me to testify today, and for his and Ranking Member 
Graves' leadership of the Transportation & Infrastructure Committee.
    My name is Dennis Pierce, and I am the National President of the 
oldest trade union in North America, the Brotherhood of Locomotive 
Engineers and Trainmen, which was founded in 1863. I also am the 
President of the Teamsters Rail Conference, of which the BLET is the 
founding Union.
    The subject of today's hearing is ``The State of the Rail 
Workforce.'' I have a number of comments and observations regarding 
this question on a national scale.
    Although the productivity of the rail workforce has never been 
better, that increased productivity does not always translate into 
reliable or safe jobs. Productivity is going ever upward, but 
employment levels are headed in the other direction, with many 
hundreds--if not several thousand--in furlough status as I sit here 
today.
    A small fraction of this likely is due to a modest downturn in 
traffic currently being experienced. A more significant portion is due 
to the deployment of technologies as ``labor-replacing'' rather than 
``labor-saving'' devices. But the most serious threat looming over the 
horizon--at least in the short term--is the industry's fascination with 
Precision Scheduled Railroading.
    I don't deny that investors should receive a reasonable return on 
their investment. And I understand that railroads have to compete in 
the marketplace for financing when they have such a need.
    But, the fact of the matter is that the Class I railroad industry 
has been enjoying multibillion-dollar profits for many years. Operating 
revenues for the seven Class I carriers totaled nearly 90 billion 
dollars last year alone.
    In spite of this profitability, PSR has become the norm, and the 
key component of PSR is termed ``asset maximization.'' Every corporate 
asset is squeezed in order to obtain every single available financial 
benefit. Through this process, hundreds of locomotives and cars already 
have been mothballed, and that number will increase into the thousands 
in the next few years. Dozens of shops and yards already have been 
closed or are slated to be shuttered.
    And where a line doesn't pass muster under the asset maximization 
test it will be sold off or leased to some short line. NS did just that 
last year with an entire operating division, and CSX recently completed 
the sale of its main line along the Florida Panhandle.
    While all this unfolds, thousands of railroad workers will join the 
furlough lines, so that the already immensely profitable Class I 
railroad industry can become even more profitable.
    Beyond the loss of employment for Union-represented employees, the 
Carriers' collective drive for profits has also impacted those who 
manage, as well as those employees who should be able to count on a 
well-managed workplace. As information, the vast majority of the 
nation's engineers and conductors working in freight service are 
considered ``on call employees.'' They must stand ready to go to work 
for up to 12 hours on duty in safety-sensitive positions with only an 
hour and half notice in many cases, 24 hours a day, 7 days a week. The 
round trips that they report for can range anywhere from 18 to 48 
hours. One would ask--How could anyone be prepared to report to work 
truly rested, able to work safely in such an environment?
    Scheduled on-duty times, or reliable train line ups that predict 
work start times, are the only way that can happen; but, unfortunately, 
the quality of many Class I train lineups has become another victim of 
the PSR mentality. In many cases, the positions of the employees who 
previously managed and updated our train lineups, as well as those who 
previously managed the balancing of our crew bases with train traffic 
flows that are not directionally even, have also been eliminated.
    As a result, train crews are routinely called to go to work, unable 
to obtain meaningful rest, all because the employer-provided prediction 
for their next work shift was completely inaccurate. Once they do 
report to work, crews are routinely left at their away-from-home 
terminals for longer than they are allowed to stay at home between 
trips. This further compounds the problems associated with this ``do 
more with less'' PSR management style in that employees who are not 
properly utilized are no more available for service than those who were 
furloughed.
    Adding insult to injury, many freight Carriers have implemented 
draconian attendance policies that force employees to report to work, 
regardless of their ability to obtain meaningful rest due to the poor 
predictability provide by the employer. Put yourself in this proverbial 
Catch-22--if I tell them I am too tired to work safely, I could be 
terminated. The days of this treatment must come to an end; forcing 
employees to work fatigued to avoid disciplinary action is a danger to 
not only the workforce, but to the general public in the cities that we 
operate trains through.
    Ironically, Congress took action to address fatigue with the 
passage of the Rail Safety Improvement Act in 2008. Unfortunately, the 
Federal Railroad Administration (``FRA''), the Federal Agency obligated 
to implement the fatigue mitigation mandated by the 2008 RSIA, refuses 
to do anything that uses the word ``regulate.'' As a result, avoidable 
fatigue continues every day, and the nation's railroads are less safe 
due to this failure to regulate as RSIA required. I am hopeful that 
this Committee can take action to see that meaningful steps are taken 
to mitigate fatigue in the rail industry. We must have an FRA that 
fulfills its obligations to the railroad workforce, as well as to the 
general public.
    Of equal concern is FRA's refusal to take even the slightest 
interest in the longer and longer trains that have become a cornerstone 
of the PSR mentality. It is obvious to most observers that the ever-
increasing use of Distributed Power (or ``DP'') locomotive consists--
where extra locomotives are placed in the middle and rear of trains and 
are controlled via telemetry from the head end--has led to longer and 
longer trains. Day in and day out, a single locomotive engineer is 
charged with the responsibility of controlling and operating these 
longer and longer trains. As a credit to the engineer's 
professionalism, the majority of these trains arrive safely at their 
destination.
    But this push for longer trains that use fewer crews has now 
reached a breaking point insofar as the technology involved. In case 
after case, the limits of the two-way telemetry technology that allows 
one engineer to communicate from the head end of the train to the rear 
end of the train are being exceeded. What is known as ``comm loss'' to 
working engineers has become common place day after day.
    Here is why this is a safety concern that FRA should take an 
interest in. When things go wrong on a moving train, they generally go 
horribly wrong. There are documented cases where blockages in the 
train's air brake system have prevented the engineer from utilizing all 
of the train's brakes from the head-end locomotive. Technology has been 
in place for over 25 years that allows the engineer to activate an 
emergency brake application from the rear end of the train forward when 
the train line is blocked, thus stopping the train safely. That 
technology is being defeated on a daily basis because the train lengths 
associated with PSR exceed the reach of that technology. The railroads 
and FRA turning a blind eye to this daily occurrence are contributing 
to a workplace that is not as safe as it could be. FRA's primary 
mission is to take the action necessary to ensure safety on the 
nation's railroads. History makes it clear that, in some cases, this 
safety mission requires regulations. And in cases where FRA would not 
regulate, history also shows us that Congress must legislate to ensure 
rail safety. That was the case with RSIA in 2008.
    Despite stellar productivity and efficiency improvements over the 
past several decades, the rail workforce nonetheless finds itself 
approaching a period of potentially serious job insecurity. There are 
two causes of this insecurity--the manner in which new technologies are 
being deployed and, as I have noted, the adoption of the ``PSR'' 
business model.
    Regarding the first cause, locomotive cabs are in the midst of a 
technological revolution. Technology systems such as ``Trip Optimizer'' 
and the ``Locomotive Engineer Assist/Display & Event Recorder''--or 
``LEADER''--have been installed for fuel conservation purposes. They 
impose a level of control over train operations that supersedes the 
judgment of the engineer. Many railroads impose disciplinary 
suspensions, or worse, upon engineers who don't subordinate their 
professional judgment to recommendations from these systems. As a 
result, engineers all too often have their attention diverted from the 
track ahead in order to monitor the control system, so that they may 
avoid potential discipline.
    We, along with the SMART Transportation Division, asked the FRA in 
early 2016 to issue an Emergency Order restricting the use of these 
systems pending a review of their impact on railroad safety, and 
possible regulatory action. FRA denied our request, and instead formed 
an Integrated Product Team within its Research & Development, Human 
Factors Division, on which we participate. However, after nearly 3\1/2\ 
years, the Agency has not moved to address this problem via a 
rulemaking. Again, the industry's safety regulator will not regulate.
    We are seeing similar problems with locomotive monitoring systems. 
As you may know, the technology in state-of-the-art locomotives can 
provide real-time data concerning a number of locomotive systems and 
operating conditions. This technology can be configured to provide text 
or email notifications to designated railroad officials whenever 
certain types of events occur, such as heavy braking or when a train 
experiences an emergency brake application.
    When an engineer experiences an unanticipated degrading of a 
train's braking capability, or even slightly miscalculates the braking 
distance needed to conservatively slow or stop the train, the tendency 
is to avoid heavy braking or initiating an emergency brake application 
that will trigger an alert . . . even if that results in a riskier 
outcome. This, too, is because of the industry's ``command and 
control'' discipline philosophy--where the only tool is a hammer and, 
consequently, every engineer looks like a nail.
    And, unfortunately, we are receiving numerous reports regarding 
Positive Train Control system communication interruptions that are 
leading to PTC system enforcements with little or no prior warning, 
also resulting in disciplinary charges. We are beginning an internal 
survey to quantify this problem, so I am not prepared to discuss this 
particular difficulty further at this time, but we will address it in 
the future when we have sufficient reliable data.
    What all these technologies--from fuel conservation systems, to 
locomotive monitoring systems, to PTC and its numerous screens of data 
display--have in common is that they require the train crew, and 
especially the engineer, to divert significant portions of their 
attention from actual operation of the train and vigilantly monitoring 
the route ahead.
    Railroads are fond of using the term ``loss of situational 
awareness'' when an incident occurs that includes a human factor cause. 
The implication when one alleges that someone lost situational 
awareness is that he or she wasn't paying adequate attention. The fact 
of the matter is that all of the new technologies have created ``task 
saturation'' or ``task overload''--there are simply too many inputs 
requiring the individual attention that each one needs.
    It is this task saturation that leads to situational awareness 
problems, when they arise. Equally concerning is the fact that the way 
these technologies have been deployed causes engineers to operate their 
trains in whatever manner will produce the least number of warnings or 
event reports, and regardless of what their experience tells them. This 
will lead to the degradation of engineers' train handling skills over 
time.
    Then, when one or more systems fail--as they inevitably do--it will 
be extremely difficult for the engineer to rely upon skills that have 
not been practiced for some time. This could be catastrophic in an 
emergency, as recent conflicts between avionics systems and flight deck 
crew control over an aircraft have shown us. For the railroad industry, 
there also is a particular concern because these types of systems are 
vulnerable to being hacked or attacked from the outside.
    The other problem is that many technologies being studied today are 
not intended to be ``labor-saving'' devices. They are being proposed as 
``labor-replacing'' devices. There is talk of replacing track 
inspection by maintenance of way employees--who also are members of the 
Teamsters Rail Conference--with fly-by aerial inspection using drones. 
There also is ongoing study of replacing physical inspection of freight 
cars with electronic scanning. In fact, one of the four largest Class I 
railroads went on record last year as being interested in pursuing 
completely autonomous train operations, and eliminating the need for 
train operation by a human.
    But the most significant public debate today is over the size of 
train crews. The industry argues that, in some cases, PTC has made the 
two-person crew redundant, and that a job should be eliminated. 
However, PTC is not designed or intended to prevent all accidents. PTC 
cannot prevent low speed collisions. Nor does it reduce the potential 
for accidents at highway/rail crossings caused by motorists who fail to 
yield to the train. In other words, PTC is not the silver bullet that 
some would have you believe. Regardless of what Carrier witnesses may 
tell this Committee, there is no technology even on the horizon that 
can replace the safe workplace resultant from having two crew members 
on the train.
    In fact, PTC significantly contributes to the task saturation 
problem I mentioned before. To be sure, the benefits of the technology 
outweigh its risks, but by any objective analysis the need for a two-
person crew--both in terms of workload management and to enhance public 
safety in the event of a derailment or mechanical breakdown--has not 
been diminished in the least by PTC deployment. Not to mention PTC will 
be implemented on only a portion of our nation's railroad tracks.
    In spite of all of this, the industry's safety regulator has again 
refused to regulate. Although the previous Administration promulgated a 
rule making that would have required two crew members on many forms of 
freight service, the current Administration has withdrawn that rule 
making. In doing so, FRA has further attempted to ``negatively 
preempt'' all State laws that make any effort to legislate crew size. 
For all of these reasons, and to ensure the safety of all rail workers, 
we strongly support H.R. 1748--The Safe Freight Act of 2019--which has 
been sponsored by Congressman Young and has over six dozen bipartisan 
cosponsors. We urge passage of this Bill by the House and the Senate, 
and that President Trump sign it into law.
    In the end, this Committee can help insure that technologies are 
not implemented in ways that make safe human performance in the 
workplace a near impossibility, and that they are ``labor-saving'' 
rather than ``labor-replacing.'' And the Committee can help insure that 
our national rail transportation system is not harmed by speculators 
seeking to swoop in, extract as much value from the railroad as 
possible, in the short term, and then run away to create another 
victim. We look forward to working with you to that end.
    Finally, I want to talk about a front-burner issue involving BLET 
members in Laredo, Texas.
    There is a bridge in Laredo--called the International Bridge--that 
is used for cross-border rail freight traffic between our Nation and 
Mexico. Since the Bridge was built in 1920, the cars carrying the 
cross-border freight were interchanged right at the border. In more 
recent times, Mexican crews turned over northbound trains to U.S. crews 
at that point, where our crews also turned over southbound trains to 
Mexican crews.
    When a northbound train enters the United States, it undergoes a 
small number of FRA-required safety inspections and tests in order to 
be authorized to move to Laredo Yard, which is less than ten miles 
away. The full range of required FRA inspections and tests are 
performed after the train arrives at Laredo Yard. The less rigorous 
inspection and testing at the border are permitted under a 12-condition 
waiver initially granted by FRA in 2008, and the majority of the 
conditions that were imposed were suggested by this Union.
    A little over a year ago, we were informed by the Kansas City 
Southern Railway, and its subsidiary The Texas Mexican Railway, that 
our Tex-Mex crews would be replaced by Mexican crews--who are employed 
by yet another KCS subsidiary--in the operation between the Bridge and 
Laredo Yard. This has been a very complex dispute, which has been and 
is being contested in a number of forums.
    I am not going to discuss today the railroads' lawsuit to enjoin 
our strike over our members being replaced by Mexican crews, except to 
say that I disagree with the judge's conclusion, because that 
litigation has been completed. I also am not going to discuss today 
either our lawsuit against the FRA--for its actions and inaction 
regarding this matter--in the D.C. Circuit Court of Appeals, or our 
arbitration case against the railroads, because both are pending 
matters.
    I will tell you that I wrote President Trump on July 10th of last 
year regarding what was happening in Laredo, but I have yet to receive 
the courtesy of a response. I also will tell you that--with the 
assistance of the Teamsters Legislative and Global Strategies 
Departments--we reached out to Trade Representative Lighthizer to 
request that the pending United States-Mexico-Canada Agreement include 
a provision reciprocal to a labor condition granted to Mexico as part 
of the original North American Free Trade Agreement; this effort has 
been similarly unsuccessful to date.
    Under Mexican law, all ``Railway crew members must be Mexican 
nationals.'' This requirement was accepted by the United States over 25 
years ago as a condition of NAFTA, and is set forth in NAFTA Annex I, 
Schedule of Mexico at I-M-63 (citing Ley Federal del Trabajo, Capitulo 
I), available at https://www.nafta-sec-alena.org/Portals/0/Documents/
en/Schedule%20of%20Mexico.pdf.
    For purposes of American railroad safety law--and specifically 
under FRA regulations governing certification of locomotive engineers 
and conductors--the only foreign nationals authorized to serve as a 
crewmember where certification is required are Canadians. See 49 C.F.R. 
Sec. Sec.  240.227, 242.127. Nevertheless, it is an absolute certainty 
that, at some point during this hearing, there will be a Mexican crew 
running a train somewhere between Laredo Yard and the International 
Bridge.
    I am bringing this issue to your attention because I hope that your 
Committee becomes involved in addressing this injustice. So I will tell 
you certain facts that you should know from the very start:
    <bullet>  You will be told that cross-border rail operations can 
create significant delays for automobile and pedestrian traffic in 
Laredo. This is true.
    <bullet>  You also will be told that this is largely because of the 
crew change at the border. This is demonstrably false; the tests and 
inspections mandated by the FRA waiver still must be performed, and 
there is an extremely low speed limit in effect when the train is 
scanned by the Customs/DHS VACIS system.
    <bullet>  You will further be told that this Union has been 
obstructionist; the truth is that we made multiple suggestions how to 
either eliminate any delay from crew change altogether, or shorten it 
from the 2-3 minutes the change typically requires.
    The main reason for the delays is not the exchange of crews but the 
border patrol, which uses an x-ray machine to inspect the train for 
contraband and human trafficking. If they see something suspicious, the 
train must be stopped and inspected further.
    This Congress has the ability to do what Trade Representative 
Lighthizer was unable to do--and what the President has not seen fit to 
do. We seek legislation that is identical to the national law in effect 
in Mexico. We seek a statute that says: ``Trains originating in Mexico 
may only be operated in the United States by crews comprised entirely 
of citizens or nationals of the United States.''
    Stepping back, now, to the systemic question, from the perspective 
of the men and women who operate America's freight, passenger and 
commuter trains--and, I believe, their brothers and sisters who work in 
the various crafts to provide the best railroad transportation in the 
world--I think the state of the rail workforce can be summarized in two 
brief statements.
    One is that the rail workforce faces serious challenges in the 
years ahead, which I've already discussed. The other is that the rail 
workforce--despite all the challenges and the uncertainty--has never 
been more productive and efficient.
    As measured in terms of productivity and efficiency, the rail 
workforce has never been better, according to statistics published by 
the AAR:
    <bullet>  Between 1980 and 2016, traffic density tripled, from 5.58 
million ton-miles per mile of road to 16.99 million ton-miles per mile 
of road.
    <bullet>  Railroads today can move one ton of freight 479 miles on 
one gallon of fuel, which is double the fuel efficiency in 1980.
    <bullet>  Further, from 1980 through 2017, rail employee 
productivity--measured by ton-miles per employee--rose 467 percent . . 
. locomotive productivity--measured by ton-miles per locomotive--rose 
93 percent . . . and average freight carried per train rose 63 percent.
    <bullet>  Lastly, the most commonly used broad measure of rail-
industry productivity--ton-miles per constant-dollar operating 
expense--was 159 percent higher in 2017 than in 1980.
    I thank you for your time and attention this morning, and am happy 
to attempt to answer any question you may have.

    Mr. Lipinski. Thank you, Mr. Pierce.
    I recognize Mr. Previsich.
    Mr. Previsich. Thank you, Chairman Lipinski, and also 
Ranking Member Crawford, for allowing us to be here today, and 
inviting us to such an important hearing. At this time, with 
recent developments, this hearing takes on more importance due 
to recent actions by FRA.
    I prepared a 5-minute-long speech today with a number of 
issues to address, some of the items that I think are important 
to the people that I represent, and also to the American 
public. But after hearing testimony from the first panel this 
morning, I have dispensed with those prepared comments on 5 
minutes, because I believe there are two issues that have risen 
that need extra attention, and I think you deserve a different 
perspective on those issues.
    And to begin, I would like to address FRA and its--
apparently, to me--abdication of its oversight responsibilities 
with respect to a number of issues. And I am going to go back a 
little bit in history.
    In 2008 Congress passed the Rail Safety Improvement Act. It 
was a very large piece of legislation, it had a lot of 
ramifications, including Positive Train Control and others. 
Since that time--we are talking over a decade later--there were 
mandates in that law requiring certain fatigue pilot projects, 
and issues that would address the welfare and working 
conditions of the Nation's railroad workers. FRA has not yet 
implemented any of those provisions. We have a list--it is 
contained in my written submission, I would ask you to review 
it--showing exactly how FRA has abandoned those conditions 
which are most important to us who work on the railroad.
    And I too am a railroad worker. I started out on the 
railroad doing the work of being both brakeman, conductor, 
locomotive engineer, and now the president of the largest rail 
labor union in North America. I know about this business, I 
know what I am talking about. And FRA's decision to abandon the 
railroad workers and the safety of the American public is 
devastating to me, personally, and to the people that I 
represent.
    In addition to the 2008 RSIA mandates that were never 
implemented, we have a number of other issues. One is the 
Mexican issue with crews coming across the border into our 
country that my colleague Mr. Pierce has already referenced. I 
would like to comment on that in a brief fashion, and that is, 
despite what you heard this morning, despite what you will hear 
from any industry representative, those crews are not certified 
to the American standard. The oversight that goes to 
certification of conductors and locomotive engineers in this 
country cannot be extended to those people.
    What we have done here is the FRA has accepted industry 
comments that--don't worry about it, we are doing the same 
thing there that we do here. FRA has no opportunity for 
oversight. They can only take the word of the railroads, and 
the railroads have proved historically that they cannot self-
regulate in the safety arena without oversight from the Federal 
Government. And I encourage all of you, all of Congress, to 
take a look at that very important issue.
    Beyond that, one of the most important things that we are 
talking about today is the two-person crew. May 23rd, this FRA 
went back on all of the information, all of the studies, and 
all of the work of the prior administration, and rescinded its 
Notice of Proposed Rulemaking, rescinded the notice that was 
going to guarantee a certain minimum level of staffing for 
trains carrying hazardous materials 3 miles long. Technology 
not yet in place to diminish or displace any of the crew 
staffing people that are already there.
    And we have heard something about collective bargaining, 
that it should be left to the Railway Labor Act. We are good at 
negotiating under the Railway Labor Act. We know how to do 
that. However, minimum safety standards cannot be negotiated to 
the degree that it needs to be overseen by the regulatory 
agency tasked with safety on the Nation's rail industry. We 
cannot replace it with collective bargaining. The conditions of 
the financial considerations contained in collective 
bargaining, the avenue for coming to a conclusion should the 
parties disagree, none of that lends itself to a satisfactory 
conclusion of rail safety. It does not belong in the collective 
bargaining arena.
    Going beyond that, I wanted to talk for a moment, a brief 
moment, about precision railroading. It is exactly what we have 
heard already today. It has nothing to do with precision 
anything. What it is is hedge fund investors moving into an 
industry that was well-operated, well-funded, and well-
maintained, and harvesting money that should be going to future 
operations, capital improvements, investing in the industry, 
and putting it into this month's bottom line, lowering their 
operating ratios by reducing staffing and operations to the 
point that customer service is impacted, railroad worker safety 
is impacted.
    We now are doing more with less. We take a 3-mile-long 
train, we put two people on there, task-saturated with all that 
they have to do in moving that train from point A to point B. 
And in addition to that, we reduce staffing levels to the point 
that those people have to come to work, whether they are sick, 
whether they are fatigued, whether they are tired. It doesn't 
matter.
    The requirements are there that, should they violate some 
recently enacted availability policy on all of the major 
railroads, they run afoul of the rules, they get disciplined, 
they get charged, and they end up coming into work when they 
are tired, when they should be home resting, either resting 
from work or recovering from illness. Instead, they are forced 
to go to work, and they don't even know when that call is going 
to come.
    We have asked the industry time and again to modify their 
operations to give us a 10-hour call. They refuse to do so. We 
propose that Congress take a look at the hours of service, make 
certain modifications. Right now we get 10 hours off after we 
get off work. That is good. We need 10 hours' notice before we 
go to work. There is no way you can be rested at 3 o'clock in 
the morning if you don't know whether you are going at 11 p.m. 
or 7 a.m. You have to know, advance notice, when you are going 
to work. That doesn't occur in the industry today, with very 
little exception. And I think it is a subject worthy of 
Congress' attention.
    I think I may have exceeded my time. Thank you very much 
again, and I appreciate this opportunity.
    [Mr. Previsich's prepared statement follows:]

                                
    Prepared Statement of John Previsich, President, Transportation 
Division of the International Association of Sheet Metal, Air, Rail and 
                         Transportation Workers
    On behalf of SMART Transportation, I want to thank Chairman 
Lipinski and Ranking Member Crawford for holding this timely and vital 
hearing, and for inviting me to join this panel. I am honored to 
represent thousands of workers throughout the industry, including on 
freight, passenger and commuter rail, as well as transit.
    In assessing the ``State of the Rail Workforce'', the short answer 
is, at best, mixed. Whether judging on safety, competitiveness, or the 
integration of new technologies, we have seen some improvement across 
the industry. However, federal regulators, Congress, and the railroads 
themselves have significant work left to do in order to improve working 
conditions and ensure safety for both the men and women operating U.S. 
railroads and the American public.
    One cannot discuss the state of the rail workforce without 
addressing safety. The safety of my members and people who live in 
communities through which railroads operate will always be my top 
priority. While the industry has made meaningful progress in this 
regard over the past 50 years, much more needs to be done. More 
importantly, the progress that has been made should never be used as an 
excuse to ignore ongoing safety problems, or worse, roll back 
regulations or undermine protocols that have delivered these safety 
improvements. Unfortunately, this is precisely what railroads and the 
Federal Railroad Administration are currently attempting to do.
    First, I want to present a realistic snapshot of the current state 
of rail safety. At every opportunity, the railroads and FRA state that 
safety in the industry is improving each year. However, the numbers 
present a different story. When normalized against drastic reductions 
in employment, number of trains being operated, trackage, and grade 
crossings, etc., the safety figures are not satisfactory. In fact, in 
recent years the numbers are getting worse. Between 2015 and 2018, 
fatalities on the railroads increased 13.9%.\1\ Between 2017 and 2018 
alone, railroad fatalities increased from 821 to 853, and employee 
deaths increased from 11 to 17 during the same period. Collisions 
increased from 80 in 2017 to 86 in 2018, an increase of 5.6%. 
Similarly, derailments increased from 1,263 in 2017 to 1,341 in 2018, 
an increase of 6.2%.
---------------------------------------------------------------------------
    \1\ Data is based upon official statistics of the Federal Railroad 
Administration's Office of Safety Analysis.
---------------------------------------------------------------------------
    These are troubling trends and help illustrate the need for 
Congress and the Administration to be vigilant in pursuing policies 
that will improve safety, increase oversight, and codify existing 
industry standards that have a proven track record of success. 
Furthermore, as new technologies such as positive train control (PTC) 
are introduced and implemented across the rail network, Congress and 
regulators must recognize these are not panaceas, but rather must be 
part of a larger safety policy agenda.
    We believe the following issues to be worthy of your consideration:
                  1. sensible crew staffing standards
    Without question, one of the biggest threats to railroad safety is 
the push to decrease the number of personnel onboard trains from two 
crew members down to one or none. Today, freight trains are operated 
safely because they have a minimum of two crew members: a federally 
certified conductor and a federally certified locomotive engineer. This 
has been standard practice for decades, and for good reason. Both 
conductors and engineers have a long list of responsibilities and must 
work together as a team to ensure safety, efficiency and compliance 
with federal regulations while operating freight trains that are over 
two miles long and often carrying hazardous materials.
    Unfortunately, driven by hedge-fund investors, the railroad lobby 
has aggressively fought efforts to mandate two-person crews across the 
industry. Now the FRA has proven to be a willing partner. On May 23rd, 
2019, FRA announced it is withdrawing its proposed ``crew staffing 
rule'', first introduced in 2016, that would have codified the existing 
industry standard of a minimum two-person crew. That proposed rule, 
developed under the previous administration, would have maintained 
existing crew staffing, but contained provisions for waiver processes 
to allow for single person operations provided they are implemented in 
a safe manner. While not perfect, this rule carefully weighed 
challenges to safe rail operations while also factoring in emerging 
technologies. The current administration simply discarded this 
proposal, and to make matters worse, also decided to attempt a 
preemption of state laws dealing with crew size minimums. Six states 
currently have laws on the books regulating crew size, and similar 
legislation is being considered in an additional 22 states. Yet with 
this decision, FRA is attempting to deny the rights of states to set 
safety standards appropriate to protect their communities, while 
abdicating their congressionally-mandated obligation to oversee safe 
railroad operations.
    Proponents of the FRA's action and the FRA itself have offered 
several misleading or outright false justifications for the decision. 
For instance, the FRA noted in its announcement that there is no data 
to prove that one person or autonomous trains are less safe than trains 
that have two crew members. This may be true, but only because single 
person and autonomous train operations in America are virtually non-
existent. Standard, two-person crew operations are the norm because 
they work well, and they work safely. FRA's decision opens the door for 
the industry to experiment with different crew-staffing models with no 
evidence that they can maintain safety standards while doing so. This 
puts rail workers and our communities at risk.
    Those in favor of one (or none)-crew train operations lack an 
understanding of the teamwork necessary for a crew to safely transport 
and deliver trains to their destinations. Even while operating under 
routine conditions, the conductor and engineer are continually 
interacting with one another, executing incoming directives from remote 
dispatching centers, monitoring track work, speed restrictions, train 
inspections and many more responsibilities too numerous to list here.
    During an emergency, their teamwork is critical. As first 
responders, a member of the crew (typically the conductor) will 
dismount from the locomotives to assess the situation and address any 
life-threatening issues. The engineer will remain on board the 
locomotive, providing communication to dispatchers and other trains in 
the area, moving the train as deemed necessary by the conductor's 
assessment of the situation and providing security for the locomotives 
and train.
    Emergencies on a railroad come in many variations. From derailments 
caused by faulty equipment or track to encounters with pedestrians and 
grade crossing collisions, railroad incidents are frequent and far too 
often result in death or severe injury to the employees and the public. 
As Mike Rankin, a freight rail conductor and SMART-TD member with 30 
years of experience will tell you, a two-person crew saves lives. Mike 
was the conductor on a train that, in 2004 near Streator, Illinois, hit 
a car driven by three teenagers who ignored flashing flights and drove 
around the gates at a railway crossing. Two teenagers lost their lives 
that night. One survived. If it wasn't for Mike and his colleague--the 
train's engineer--working together, it is probable no one would have 
survived that night.
    Here is Mike's story in his own words:

        After the collision, the engineer secured the train, while I 
        looked for survivors. Once I got to the wreckage, I found what 
        can only be described as grisly. All three teenagers had been 
        ejected from the car. It was clear that two had perished. I 
        knew there was nothing I could do to help them.

        I found the third passenger face down in a ditch. He was alive, 
        but barely. Not long after I found him, firefighters pulled up 
        to the scene. They told me an ambulance was just a few minutes 
        away, but we soon realized the ambulance was on the wrong side 
        of the tracks, cut off by the train from the teenager who 
        desperately needed help.

        I radioed to the engineer about the situation. We agreed there 
        was only one solution: we needed to create space between the 
        cars of the train, so the ambulance could drive through--a 
        maneuver that requires two people to complete. I uncoupled the 
        train cars and the engineer pulled the front of the train 
        forward, creating room for the ambulance to reach the crash 
        victim. There's no way a single crew member could have secured 
        the train, briefed emergency personnel, uncoupled train cars 
        and moved the front of the train forward all on his or her own.

        Our train that night was 7,000 feet--nearly a mile and a half--
        long. If we hadn't been able to separate cars at that exact 
        moment, the ambulance would have had to go miles out of its way 
        to get to the crash victim. That would have taken far too long 
        in a situation where time was not on our side.

        I tell this story not because I want praise for what the 
        engineer and I did that night, but to explain why two qualified 
        crew members are needed on a freight train. Conductors and 
        engineers don't just operate trains. In emergency situations, 
        we're first on the scene. Our presence and teamwork can mean 
        the difference between life and death.

    Supporters of FRA's action have noted that minimum crew sizes 
should be negotiated between railroads and their unions. This is simply 
an absurd assertion. While the industry can, and often does, negotiate 
crew size in the collective bargaining arena, such negotiations are 
most often in the context of work rules, adequate staffing to provide 
necessary time off and other non-safety related issues. Setting, 
maintaining and enforcing minimum safety standards is a core government 
responsibility, and should not be left to the collective bargaining 
table. It simply isn't reasonable to rely on the industry to negotiate 
safety when financial considerations are typically the driving force in 
negotiations.
    The recent actions by FRA have shaken my faith in the agency's 
commitment to protect rail workers and the public as a safety overseer 
of the industry. For this reason, we are calling on Congress to step in 
and enact H.R. 1748, the Safe Freight Act. This bipartisan legislation, 
led by Rep. Don Young in the House, has 58 cosponsors and would mandate 
two-person crew operations. By passing this important legislation, 
Congress would do what FRA has been unwilling to do: place the safety 
of workers and the general public above corporate profiteering. We urge 
this committee and the full House to immediately move this bill 
forward.
                 2. oversight of autonomous operations
    FRA, in its announcement on May 23rd, in addition to rescinding its 
Notice of Proposed Rulemaking regarding crew size also made an 
astonishing declaration that it saw no need to regulate the development 
of artificial intelligence or autonomous operations in the rail 
industry. This is astonishing because every other mode of 
transportation in America is subject to regulatory oversight on the 
implementation of autonomous operations. Whether it be automobiles, 
trucking, airplanes or ships, all modes of transport are subject to 
regulatory oversight on this subject.
    When one considers the magnitude of two-mile long trains moving 
hazardous materials through densely packed urban areas it is 
inconceivable that the industry will be allowed to self-regulate the 
application of artificial intelligence to such operations. We ask 
Congress to take immediate action to ensure that the development of 
artificial intelligence in the rail industry is subject to regulatory 
oversight to ensure the safety of my members and the American public.
   3. fatigue--fra must enforce its previously mandated directive to 
            address fatigue issues on the nation's railroads
    Chronic fatigue remains one of the most pressing and well-
documented safety problems in the rail industry. In order to maintain 
around-the-clock operations, rail work inherently involves demanding 
and irregular work schedules. However, the unique nature of the job is 
not an excuse for irresponsible industry practices that consistently 
require rail workers to report to work when fatigued. Unpredictable 
work schedules, lack of notice, and long shifts can all be addressed by 
Congress with sensible reforms to the Hours of Service (HOS) Act.
    The current HOS law mandates that covered rail employees may not 
work more than 12 consecutive hours and must receive 10 hours of 
undisturbed rest immediately following their last shift. Congress 
should require that railroad operating employees be given 10 hours' 
notice before their shift, to ensure these workers are properly rested 
and prepared to return to work. It is essential that rail workers have 
early and reliable information about the date and time they are 
required to report for duty. Moreover, rail workers' rest time should 
not be interrupted by communications from their employers. Congress 
must also ensure that its previous efforts to reduce fatigue among 
operating employees are implemented. Congress, in the Rail Safety 
Improvement Act of 2008, directed FRA to address the issue in several 
ways, including the development of standards and pilot projects to 
address fatigue of operating crews. Some 11 years later, FRA has not 
yet complied with this directive. FRA must complete its unmet and 
overdue RSIA mandates and promulgate a risk reduction program, which 
will include a fatigue management plan, and conduct pilot projects 
concerning the impact that shift scheduling has on a tired workforce.
                  4. hours of service for yardmasters
    HOS laws must also be extended to include yardmasters. They, like 
locomotive engineers, conductors, signalmen, and dispatchers, have key 
safety- sensitive duties and obligations and are charged with managing 
nearly all activity of multiple rail yards simultaneously. In addition, 
rail carriers often move yardmasters into and out of HOS covered 
positions in an effort to circumvent rest requirements, resulting in a 
fatigued safety-sensitive workforce. These abuses and manipulations 
must end so that yardmasters can receive the rest they need to do their 
jobs.
                   5. precision scheduled railroading
    Efforts to irresponsibly reduce crew size are consistent with 
another troubling trend among railroad operations: operating changes 
often referred to as ``Precision Scheduled Railroading''. This name is 
misleading, since the goal is not better scheduling or more precision, 
but rather increased quarterly stock market returns.
    AAR claims that they are investing $25 billion annually in capital 
investments. We question this number and challenge the railroad 
industry to substantiate the alleged capital investments. In fact, PSR 
efforts on all the major railroads are focusing on reduced investments 
and reduced service. These industry-wide cutbacks are not due to a loss 
of traffic or lack of profits, as first quarter 2019 net income and 
traffic have seen an increase compared to 2018. Railroads claim PSR is 
an approach to operation efficiency that focuses on cutting costs and 
greater asset utilization, but in reality, it is a broader trend to 
reduce operating ratios and boost profits. Essentially, it is an 
attempt to increase quarterly profit returns by making the railroad a 
leaner operation and cutting costs wherever possible. And to the 
delight of activist investors, carriers through the implementation of 
PSR have reduced operating ratios from the eighties to low sixties/high 
fifties. However, given the short-term, stock market-driven goals that 
drive PSR, these attempts at efficiency often come at the expense of 
workers, safety, and customers.
    From the Rail Labor perspective, the near and long-term effects of 
PSR have resulted in significant negative impacts to its membership. 
Rail workers have seen a decimated headcount, idle locomotives and 
equipment, shuttered shops and facilities, reduced maintenance, and 
curtailed service. Carriers have been able to do this by consolidating 
service locations and refusing to provide access/service to certain 
routes or rural customers where the rail carrier is their only freight 
transportation option. This business calculation has been 
transformational and has shifted the freight rail industry from a 
customer service-focused enterprise to a schedule-centric service with 
limited and specific intervals.
    Carriers are certainly benefitting from a short-term financial boon 
as a result of PSR implementation. However, we have serious concerns 
about sustainability of this business model and the long-term effects 
on safety for the rail workforce. Our members face continued reduction 
in headcount, decaying physical infrastructure (due to deferred 
equipment maintenance), unsafe working conditions, and intrusive and 
intimidating management practices that cause a chilling effect in the 
workplace.
    We also believe that the cost-cutting measures put in place through 
PSR are jeopardizing the safety of rail workers and the public. By 
cutting overhead and reducing its workforce, rail management is 
expecting our members to complete more work with fewer people. Workers 
are also required to acquiesce to management's frequent requests to 
bypass train maintenance work or inspections in order to get rail cars 
out of the yards. Our members are reporting that the rush to get trains 
into service has resulted in increased equipment breakdowns, on-track 
maintenance delays, and even derailments. The consequences of cutting 
corners on maintenance, inspections and other critical safety functions 
become even more dire given the industry-wide increase in the length/
weight of trains. Quite simply, given the size of these trains, the 
margins for error are smaller and the potential to do harm is much 
greater.
    In an industry already plagued by fatigue problems, PSR has also 
resulted in an increased reliance on overtime and excessive work 
schedules. Workplace injuries have increased as the reduced workforce 
attempts to complete work at a breakneck speed. Rail workers faces 
disciplinary action or retaliation from local and mid-level management 
for refusal to accept overtime or sign off on incomplete work. 
``Availability'' policies have been implemented by the railroads to 
discourage employees from taking time off due to illness or fatigue, 
resulting far too often in trains being operated by employees who 
should be home recovering from sickness or a 7 days per week, 12 hours 
per day work requirement. Together with mass layoffs, this workplace 
environment has done serious damage to employee morale.
                          6. extra long trains
    One aspect of Precision Scheduled Railroading is the increased 
reliance on extra-long trains, many of which exceed two miles in 
length. This creates many safety problems, mechanical and logistical, 
such as the inability to maintain adequate brake pipe pressure, which 
is needed to safely slow and stop trains. As trains lengthen, 
incidences of them breaking apart are far more frequent, and a 
crewmember cannot observe and monitor an entire two-mile-long train by 
looking out of the window. A conductor is required to walk a long 
train, often on uneven terrain and during all weather conditions. A 
train's two-way telemetry device and distributed locomotives often lose 
contact with the lead locomotive. One such incident caused a runaway 
train on the Union Pacific last October killing two crewmembers. And 
yes, the track had PTC active at the time. When a train is too long and 
there is a loss of communication with the rear of the train the 
locomotive engineer cannot activate the brakes on the rear of the 
train.
    Most importantly, when a long train is disabled and blocks a 
crossing, it is far more difficult to uncouple the train to open the 
crossing. Such trains constantly block crossings and cause communities 
to endure incredible safety problems related to, among many others, 
hindering the movement of emergency responders. The complications and 
safety hazards caused by extra-long trains can no longer be ignored by 
Congress and federal regulators. Reasonable regulations are needed to 
ensure that excessive train lengths are not jeopardizing safety or 
needlessly disrupting communities.
                7. mexican trains operating in the u.s.
    Beginning in July of last year, the FRA began allowing a Mexican 
subsidiary of Kansas City Southern Ry. (KCSR) to operate trains into 
the United States using crews from Mexico. This action reversed decades 
of precedent, in which Mexican-domiciled crews aboard trains at the 
Southern border switched to U.S. crews before they continued into the 
United States. This practice was integral to rail safety. Until very 
recently, Mexico lacked any kind of rail regulatory body. Mexico-based 
engineers and conductors clearly did not meet U.S. certification and 
qualifications standards, and would not be in compliance, or even be 
able to comply with, non-negotiable hours of service or drug and 
alcohol testing requirements.
    Despite this, and with absolutely no public input or oversight, FRA 
unilaterally determined that KCSR could suddenly guarantee compliance 
with U.S. rail safety regulations. We reject this position. The FRA and 
KCSR have unequivocally failed to demonstrate that these operations can 
be carried out safely, which threatens both rail workers and the border 
communities these trains are operating through today.
    We have been told that we should just accept the railroad's word 
that they are following all laws and regulations, as FRA currently is 
unable to perform any kind of inspection or oversight of Mexican rail 
operations. That is simply not adequate. Further, even if the railroad 
could demonstrate nominal compliance with rail safety law and 
regulation, existing loopholes like the one that allows these crews to 
operate 10 miles into the country without being subject to drug and 
alcohol testing casts further doubt on their ability to operate safely.
    We thank Chairman DeFazio and the twenty-six members of the House 
for their leadership in signing a bipartisan letter to Secretary Chao 
calling for action to put a halt to this scheme. We have seen no 
response to that letter, and FRA continues to abdicate its safety 
mission on this subject.
    FRA's actions are yet another example of this Administration 
agreeing to the rail industry's wishes at the expense of safety and 
railroad jobs in this country. We call on Congress to take action to 
ensure that railroad operations at our southern border are conducted 
safely.
                              8. assaults
    Unfortunately, assaults on workers have become a common occurrence 
for the men and women who operate our national transportation network. 
Passenger rail workers have not been immune to this problem. For 
example, in 2017 an Amtrak employee was shot on a platform in 
Naperville, IL. Whether they work on transit systems, Amtrak or 
commuter rail systems, front line workers need assurances that they can 
perform their jobs without risk of being violently assaulted.
    To help solve this problem, we are calling on policy makers to 
require passenger carriers and commuter rail operators to develop clear 
and concise protocols for how the railroads and workers can prevent and 
respond to violent situations. Protocols should include de-escalation 
and self-defense training for front line workers. When an assault takes 
place, rail operators must have a plan in place to alert law 
enforcement, isolate the offender, and protect fellow workers and 
passengers. Trains should not be allowed to continue until the incident 
has been resolved by law enforcement. Furthermore, should a victim of 
assault want to pursue criminal charges, their employer should give 
them the opportunity to do so without any detrimental effect to their 
employment status. These protocols should be jointly developed by 
employers and their unions and submitted for approval to the FRA.
                       9. positive train control
    As noted above, there are several emerging technologies that, when 
implemented correctly and along with other policies such as mandating 
two-person crew operations, can improve railroad safety. PTC is the 
most prominent example. While we, as train operators, have been 
supportive of implementing PTC, we are deeply concerned that Congress 
and regulators view PTC as the end-all, cure-all to the rail safety 
problems in this country. This is certainly not the case. Even when PTC 
is fully implemented, it will cover less than 40% of our nation's 
mainline track and has several operational limitations in terms of 
preventing rail accidents and derailments. PTC prevents some head-on 
collisions and overspeed situations. However, it does not prevent rear-
end collisions. It cannot cut a road crossing, spot a terrorist, back 
up a train, make an air test, nor can it secure a train, or safely 
perform a host of other things two qualified crewmembers can and do 
accomplish every day.
    Furthermore, a complex technology such as PTC needs to carefully 
integrate into current rail operations to ensure a smooth 
implementation. To date, our operating crews have reported terrible in-
cab distractions as a result of PTC. These distractions are so 
prevalent that we have petitioned FRA to issue an emergency order to 
stop and evaluate the use of PTC, along with the so-called Trip 
Optimizer and Leader programs, which are auto pilot software 
technologies. Instead of simply slowing or stopping a train, PTC forces 
the already task-saturated members of the train crew to constantly 
interact with a computer screen, then document any variances that are 
outside the computer-driven parameters. These types of complications 
are inevitable when instituting technology that drastically changes 
rail operations. But these complications show that well-trained and 
staffed crews are necessary to realizing the full safety benefits of 
this technology.
          10. electronically controlled pneumatic (ecp) brakes
    SMART TD supports the use of ECP brakes because they are capable of 
slowing and stopping trains twice as fast as conventional brakes. 
Requiring the use of ECP brakes is one of the greatest safety 
advancements we can make in the railroad industry. Because of the 
railroads influence at FRA, the agency has refused to require ECP 
brakes on certain trains.
    In closing, I once again thank you for the opportunity to testify 
before your Committee. For the safety of our members and the American 
public, we urge you to promptly enact the safety improvements that we 
have suggested.

    Mr. Lipinski. Thank you, Mr. Previsich.
    The Chair now recognizes Mr. Boles.
    Mr. Boles. Thank you, Mr. Chairman and the ranking member, 
for the invitation to testify. Good morning, honorable members 
of the subcommittee. My name is Jerry Boles, I am the president 
of the Brotherhood of Railroad Signalmen.
    Our members are primarily responsible for the maintenance 
and installation of signal systems across the Nation. It is 
imperative to understand that the issues reflected in my 
testimony affect not only our members, but also the general 
public.
    One of the most important topics affecting these groups is 
Positive Train Control. PTC is a much needed and overdue 
reality. As we move forward it is critical that those who 
install, monitor, and maintain PTC are properly trained on how 
the system works, and how to troubleshoot issues.
    Recently our organization conducted a survey wherein a 
portion of our membership was asked about their involvement 
with PTC. Of the members who responded, only 21 percent 
believed training to be sufficient. We believe this process can 
be improved if our members are allowed to be significantly 
involved with the development of PTC training.
    Training and education of our members is paramount to the 
safety of the public. This cannot be allowed to take a back 
seat to any cost-benefit analysis.
    We have fought to improve safety for our members and the 
public through multiple measures and efforts. We work with 
other rail labor organizations, the FRA, the NTSB, and the 
railroads to ensure that our craft remains a driving force on 
safety issues. Our membership fears all of these things and 
more are at risk with the implementation of Precision Scheduled 
Railroading, or PSR, as it has become known throughout the 
industry.
    We have heard from our members that maintenance positions 
are being abolished and reestablished with larger territories. 
These new territories lead to increased testing requirements on 
each individual, which gives them less time for regular 
preventive maintenance, and heightens the potential for 
equipment failures and signaling issues. These incidents often 
occur after-hours, increasing their already extensive duties, 
and while they must still conform to the current Federal hours 
of service laws.
    Even more troubling, my office has heard numerous reports 
that many of these incidents are being deferred by the 
railroads until normal working hours, in an effort to avoid 
overtime cost. While this may save money, we believe it 
compounds safety issues. Not only do these employees have to 
cover their regular required duties, they must now diagnose and 
repair the incidents that were deferred from the night or the 
weekend before, all in an effort to cut costs.
    It is easy to see how this formula could eventually result 
in a catastrophe. This is a practice we cannot condone. For us, 
many battles were fought to achieve routine, periodic testing. 
Not only on signal systems, but also on highway-rail grade 
crossings. Now these required tests are under attack again, as 
talks of deregulation escalate throughout the industry.
    Many people have given their lives prior to the 
implementation of these regulations. We do not want to return 
to a time that puts the public and our members in more danger. 
We don't have to look very far to see where self-regulation 
exists. Look only at the airline industry. The outcome was 
evident.
    If left to self-regulate, the PSR operating model will do 
what is cheapest, and not what is safest, or in the best 
interests of the public or our members. It will lead to risk 
calculation that decides which solutions are financially 
justified. It will lead to elimination of manpower, and the 
understaffing of projects as long as it keeps costs down and 
dividends up. These actions could easily end in tragedy.
    It is our position that this was the case in Cayce, South 
Carolina, when technological or supervisory safeguards were not 
put in place during a signal cut-over. Further, we believe when 
PSR dictates policy, overtime and personnel costs take 
precedence over sound safety decisions, and practices which 
often lead to dangerous shortcuts.
    As we move forward, we cannot allow terms like Precision 
Scheduled Railroading to distract us from the numerous safety 
issues confronting the industry. Stock prices and dividends 
should never undermine the safety of our Nation's railroads. We 
cannot allow infrastructure to crumble while profits soar, and 
workforce reductions continue to overburden those who are 
responsible for the safety of the public.
    This is the state of the rail workforce, from our 
perspective. I thank you for the opportunity to testify on 
behalf of our membership today, and certainly appreciate the 
opportunity to provide our perspectives to you. Thank you.
    [Mr. Boles's prepared statement follows:]

                                 
    Prepared Statement of Jerry C. Boles, President, Brotherhood of 
                           Railroad Signalmen
    Good morning honorable members of the Railroads, Pipelines, and 
Hazardous Materials Subcommittee. My name is Jerry Boles, President of 
the Brotherhood of Railroad Signalmen. It is my privilege to testify on 
``The State of the Rail Workforce'', from the perspective of the 
members of the Brotherhood of Railroad Signalmen. Our Organization is 
grateful for the opportunity to provide the viewpoints of our members; 
we are primarily responsible for the installation and maintenance of 
signal systems across the nation. Your decisions and actions directly 
impact their daily lives and working environment.
    It is imperative to understand that the issues reflected in my 
testimony affect not only our members but also the general public. One 
of the most important topics affecting these groups is Positive Train 
Control. As we are all aware, PTC is a much-needed and long-overdue 
reality in this country. As we move forward with these systems, it is 
critical that those who install, monitor, and maintain PTC are properly 
trained on how the system works and how to trouble shoot issues. 
Recently, our Organization conducted a survey, wherein a portion of our 
membership was asked about their involvement with PTC. The survey, 
results enclosed, asked a segment of our membership if they were 
involved in the maintenance or installation of the PTC system on their 
railroad. The survey questioned if they were trained on PTC and if they 
believe the training was sufficient.
    Of the five largest Class I railroads (BNSF Railway, Canadian 
National, CSX Transportation, Norfolk Southern, and Union Pacific), 
roughly 73 percent of the member responses indicated that they received 
some PTC training, but more telling, of those who received training 
only 21 percent believed it to be sufficient. Further, of those 
responses, roughly 77 percent of the employees surveyed were involved 
in the maintenance of PTC systems, and their responses indicated that 
only 21 percent of the group believed the training to be sufficient. 
Additionally, the data indicates that roughly 72 percent of the 
employees who responded were involved with the installation of PTC and 
only 24 percent of this group believed the training to be sufficient. 
If you look at the same data gathered for the surveyed members employed 
by smaller railroads, roughly 67 percent of the employee responses 
indicated they had received some form of PTC training but only 20 
percent indicated that the training was sufficient; roughly 48 percent 
of those members were involved in the maintenance of PTC systems but 
only 16 percent of that group answered that the training was 
sufficient. Nearly 48 percent of the employees surveyed from smaller 
railroads indicated that they were involved in the installation of PTC 
or PTC systems, and of that group only 15 percent believed the training 
to be sufficient. Similarly, for the employees of Class I railroads who 
participated in the survey, some were trained on PTC maintenance and/or 
installation but very few perceived this training to be sufficient. We 
believe this process can be improved if our organization is allowed to 
be significantly involved with the development and implementation of 
PTC training. This is an issue that must be addressed! Our members are 
responsible for public safety, their co-workers, the environment 
surrounding the railroads, and the valuable infrastructure of the 
railroads themselves. This information should not be overlooked or 
underestimated. Training and education of our members is paramount to 
the safety of the public; it cannot be allowed to take a back seat to 
any cost/benefit analysis.
    As railroading has evolved, safety has always been the highest 
priority for the BRS. We have consistently fought to improve safety for 
our members and the public, through measures such as Roadway Worker 
Rules, Highway-Rail Grade Crossing regulations, and the Rail Safety 
Improvement Act of 2008 guaranteeing the installation of Positive Train 
Control. These are just some of the innovations we are proud, as rail 
labor, to have accomplished. We continually work with all rail labor 
organizations, the FRA, the NTSB, railroads, and many other groups to 
ensure that our craft remains a driving force in safety.
    Unfortunately, our membership fears all of these things and more 
are at risk with the implementation of Precision Scheduled Railroading, 
or PSR as it has become known throughout the industry. It is important 
when discussing the concerns of our members, with regard to PSR, that 
we cover the daily issues of our signal workforce. We have heard from 
our members across the country that maintenance positions are being 
abolished and re-established with larger territories. These larger 
territories lead to increased testing requirements on each individual, 
less time for regular preventative maintenance, and heightened 
potential for equipment failures and signaling issues. These incidents 
often occur after hours, requiring our members to come in to work 
outside regularly assigned hours to trouble shoot and repair various 
problems. They must perform the above while conforming to the current 
Federal Hours of Service laws.
    Under PSR, my office has heard numerous reports that many of these 
incidents are being deferred by the railroads until normal working 
hours, in an effort to avoid overtime costs. It is very easy to see the 
problem with this strategy, while it may save money and could possibly 
drive stock prices up on a short-term scale, we believe it compounds 
the issues previously mentioned. Not only do these maintenance 
employees have to cover their required routine periodic testing, 
support projects, and try and keep up with the regular maintenance of 
the equipment on their territories, they now must diagnose and repair 
the incidents that were deferred from the night or the weekend before . 
. . all in an effort to cut cost. It is easy to see how this formula 
could eventually result in catastrophe, but in some eyes the reward of 
lower costs and higher revenues outweigh the risks. Simply put, this is 
a practice we cannot condone.
    When we ask our membership what PSR means to them, the answer is 
almost always the same--workforce reductions--followed by the 
lengthening of their maintenance territories and more work with fewer 
people. This thought has occurred at every railroad that has adopted 
this operating plan. These reductions are clearly reflected in our 
membership numbers, which have dropped almost seven percent since 2016. 
While we do not have access to membership numbers from the other 
railroad unions, I would speculate we are not alone in these workforce 
reductions. This practice is the exact opposite of what common sense 
should lead us to believe. With the installation of Positive Train 
Control, many of the railroads throughout the country have added new 
assets and made territories more complex, this should lead to the 
addition of jobs, not workforce reduction!
    This operating plan has led to many other troubling issues 
throughout the rail industry, including calls for fewer regulations. It 
is well known that many people have given their lives prior to the 
implementation of these regulations. Do we really want to return to a 
time that would put the public and our members at greater risk? We do 
not have to look very far to see issues where self-regulation exists, 
simply look to the airline industry and its recent problems. For us, 
many battles were fought to achieve routine periodic testing of 
Highway-Rail Grade Crossings throughout the industry, and now these 
necessary tests are under attack again as talks of de-regulation 
escalate throughout the industry. The outcome is evident, if left to 
self-regulate, the PSR operating model will do what is cheapest, not 
what is safest or in the best interest of the public and our members. 
It will lead to risk calculation that decides what solutions are 
financially justified and which are not. It will lead to unnecessary 
reductions in labor to raise revenues and stock prices with little 
thought about the impact these actions will have on the safety of our 
members, their workload, and the public. It will lead to the 
elimination of manpower and the understaffing of projects, so long as 
it keeps costs down and dividends up. Usually these actions will be 
without consequence, but sometimes they end in tragedy. It is our 
position that this was the case in Cayce, South Carolina, when 
technological or supervisory safeguards were not put in place during a 
signal cutover. Further, we believe when PSR dictates policy, overtime 
and personnel costs take precedence over sound safety decisions and 
practices which often lead to dangerous shortcuts.
    As we move forward, we cannot allow terms like ``Precision 
Scheduled Railroading'' to distract us from the numerous safety issues 
confronting the industry. Stock prices and dividends should never 
undermine the safety of our nation's railroads. Together, BRS, the 
railroads, and our government cannot allow infrastructure to crumble 
while profits soar and workforce reduction continue to overburden the 
very workers who are responsible for the safety of the public. We are 
not the only ones who feel this way, as PSR spreads throughout the 
industry facilities begin closing and the workforces dwindles with 
little to no concern of how these cuts affect the workers and their 
communities. To help emphasize this point, we have attached a letter 
from United States Senators Ron Wyden and Jeffrey Merkley addressed to 
a major US railroad outlining their concerns over recent workforce 
reductions and layoffs because of PSR practices. This letter documents 
concerns for the local economy, agricultural producers, shippers, the 
workforce, and their families. We whole heartedly echo these sentiments 
and concerns across the entire rail industry.
    In our members eyes this is ``the State of the Rail Workforce'', 
and this is what it means to them when they encounter ``Precision 
Scheduled Railroading'' in the workplace.
    I thank you for the opportunity to testify on behalf of our 
membership today and truly appreciate the opportunity to provide their 
perspectives to you.
          2019 BRS Membership Survey--PTC Training \<dagger>\
---------------------------------------------------------------------------
    \<dagger>\ March 4, 2019--BRS survey results for members involved 
in PTC installation and/or maintenance
    PTC Survey Questions:
    1. Please indicate your involvement with PTC: (check all that 
apply) [Installation] [Maintenance] [No Involvement]
    2. Have you received training on PTC equipment?
    3. If yes, was the training sufficient for you to properly perform 
your job duties pertaining to PTC?

------------------------------------------------------------------------
 Involved in PTC Maintenance or Installation = True        Training
------------------------------------------------------------------------
                Carrier                  Responses     Yes    Sufficient
------------------------------------------------------------------------
BNSF Railway Company..................          467     79%          32%
------------------------------------------------------------------------
Union Pacific Railroad................          365     70%          16%
------------------------------------------------------------------------
CSX Transportation....................          361     65%          20%
------------------------------------------------------------------------
Norfolk Southern......................          314     70%          12%
------------------------------------------------------------------------
Canadian National.....................           91     80%          26%
------------------------------------------------------------------------
Kansas City Southern..................           17     82%          29%
------------------------------------------------------------------------
Belt Railway of Chicago...............           10     60%          30%
------------------------------------------------------------------------
Idaho & Sedalia.......................            3     67%          33%
------------------------------------------------------------------------
Indiana Harbor Belt...................            3      0%           0%
------------------------------------------------------------------------
Terminal Railroad Association of St.              3     33%           0%
 Louis................................
------------------------------------------------------------------------
Consolidated Rail Shared Assets.......            2     50%           0%
------------------------------------------------------------------------
Duluth, Winnipeg & Pacific............            2    100%          50%
------------------------------------------------------------------------



------------------------------------------------------------------------
         Involved in PTC Maintenance = True                Training
------------------------------------------------------------------------
                Carrier                  Responses     Yes    Sufficient
------------------------------------------------------------------------
BNSF Railway Company..................          318     79%          29%
------------------------------------------------------------------------
Union Pacific Railroad................          282     79%          17%
------------------------------------------------------------------------
CSX Transportation....................          249     66%          20%
------------------------------------------------------------------------
Norfolk Southern......................          213     69%          13%
------------------------------------------------------------------------
Canadian National.....................           63     92%          25%
------------------------------------------------------------------------
Kansas City Southern..................           12     92%          33%
------------------------------------------------------------------------
Belt Railway of Chicago...............            7     43%          29%
------------------------------------------------------------------------
Consolidated Rail Shared Assets.......            2     50%           0%
------------------------------------------------------------------------
Duluth, Winnipeg & Pacific............            2    100%          50%
------------------------------------------------------------------------
Terminal Railroad Association of St.              2     50%           0%
 Louis................................
------------------------------------------------------------------------
Indiana Harbor Belt...................            1      0%           0%
------------------------------------------------------------------------
Idaho & Sedalia.......................            0
------------------------------------------------------------------------



------------------------------------------------------------------------
        Involved in PTC Installation = True                Training
------------------------------------------------------------------------
                Carrier                  Responses     Yes    Sufficient
------------------------------------------------------------------------
BNSF Railway Company..................          302     82%          38%
------------------------------------------------------------------------
CSX Transportation....................          242     64%          23%
------------------------------------------------------------------------
Norfolk Southern......................          222     73%          14%
------------------------------------------------------------------------
Union Pacific Railroad................          208     64%          16%
------------------------------------------------------------------------
Canadian National.....................           63     75%          27%
------------------------------------------------------------------------
Kansas City Southern..................           10     70%          40%
------------------------------------------------------------------------
Belt Railway of Chicago...............            7     71%          29%
------------------------------------------------------------------------
Idaho & Sedalia.......................            3     67%          33%
------------------------------------------------------------------------
Terminal Railroad Association of St.              3     33%           0%
 Louis................................
------------------------------------------------------------------------
Indiana Harbor Belt...................            2      0%           0%
------------------------------------------------------------------------
Consolidated Rail Shared Assets.......            1    100%           0%
------------------------------------------------------------------------
Duluth, Winnipeg & Pacific............            0
------------------------------------------------------------------------


    Mr. Lipinski. Thank you, Mr. Boles.
    The Chair now recognizes Mr. Sandberg.
    Mr. Sandberg. Good morning, Chairman Lipinski, Ranking 
Member Crawford, members of the committee, and thank you for 
the opportunity to testify today. My name is Andrew Sandberg, I 
have 14 years' experience in the railroad industry. I currently 
serve as the assistant to the president of the International 
Association of Machinists District Lodge 19, the railroad 
district. We represent 11,000 machinists at railroads across 
the country.
    Primarily, we maintain, repair, and overhaul locomotives 
and track maintenance equipment. I am speaking to you today 
about a massive operational change currently upending the 
railroad industry, threatening jobs, health, and safety of our 
members. That change is called Precision Scheduled Railroading, 
or PSR, for short.
    PSR is not safe or effective, as it is currently being 
implemented, and we believe that Congress and the FRA should 
exercise their oversight to investigate this. To be clear, our 
union supports efforts to efficiently operate the Nation's 
railroads. We want the carriers to be profitable, as the 
profits lead to good raises and benefits for our members. 
However, we are concerned that the current PSR schemes are 
detrimental to the long-term outlook of the rail industry, 
putting short-term gains ahead of long-term success, 
furloughing thousands, while degrading safety.
    In practice, PSR includes running longer trains on the 
strictest of schedules, pressuring customers to alter their 
operations to meet the railroad's schedule, forcing employees 
to meet strict deadlines at all costs, and reducing head counts 
to meet Wall Street's expectations to the point that each 
operation cannot function without forcing our members to work 
overtime.
    A few weeks ago we coordinated with the Transportation 
Communications Union to conduct a survey of our members, and 
allow them to tell us how Precision Scheduled Railroading is 
affecting them. The responses are eye-opening. Our members 
report being overworked, stressed, and scared. They talk of 
drastic cuts to their shops, and those remaining are being 
asked to perform double or triple the work, compared to before. 
They speak of increased safety violations, of managers 
threatening job cuts if deadlines are not met, of being forced 
to ignore basic safety procedures.
    A carman from Union Pacific--and I quote--``The current 
culture at UP is one of production first, safety last. It isn't 
just the safety of employees at stake; it is also the safety of 
communities our trains move through. UP has reduced the 
employment levels to a number that cannot sustain thorough 
safety inspections . . . Everyone is scared to do their job 
right. If you try to, you get told they will shut your location 
down, just like they did Hinkle, Oregon . . . With the PSR 
atmosphere, it is just a matter of time before lives are 
lost.''
    This carman was referring to a recent layoff of almost 200 
workers at the Hinkle Rail Yard, which included approximately 
75 machinists. Likewise, a machinist from CSX reports being 
rushed to perform train inspections: ``Right now, it's pretty 
much `do what you are told, look the other way' . . . Managers 
telling employees, `you get hurt, you will not have a job here 
any more.' ''
    These are just a couple of the the 160 responses we 
received thus far. For additional responses, please review our 
full testimony.
    As part of the survey we asked our members to rate overall 
safety on a scale of 1 to 10 before and after PSR 
implementation. Before PSR, rail safety received an average 
score of 6.9. After PSR implementation, rail safety received an 
average score of 2.6.
    Finally, I suspect that industry representatives will point 
to data that cites how safety trends are improving. 
Unfortunately, the data they reference are incomplete. The data 
sets are incomplete because it is clear to us, judging by the 
survey responses, that not all safety incidents are being 
reported. Indeed, our members and union officers report an 
atmosphere of hostility towards reporting any safety 
violations, whatsoever.
    As one of my colleagues stated to me after attending a 
local lodge meeting last week, ``The way these guys talk is as 
if the FRA is nonexistent.'' We must do better.
    Thank you for allowing me to testify today. I look forward 
to answering your questions.
    [Mr. Sandberg's prepared statement follows:]

                                 
 Prepared Statement of Andrew W. Sandberg, Assistant to the President, 
       International Association of Machinists District Lodge 19
    Good morning Chairman Lipinski, Ranking Member Crawford, members of 
the committee, and thank you for the opportunity to testify today.
    My name is Andrew Sandberg. I have 14 years of experience on the 
railroad and am currently serving as Assistant to the President of the 
International Association of Machinists District Lodge 19, the 
``railroad district.''
    District 19 represents 11,000 active machinists across the country, 
at every Class 1, commuter railroad, Amtrak, and others. Our members 
primarily maintain and repair locomotives and track maintenance 
equipment both in shops and on the line of road. We also perform 
complete overhauls of locomotives and many assemblies and sub-
assemblies used in all aspects of railroading.
    Our union's primary focus is to keep our members safe on the job, 
and ensure they receive fair wages and benefits for the work they 
perform. That is why I am speaking with you today. A massive 
operational change is currently upending the railroad industry--
threatening the jobs, health, and safety of our members. It is also 
significantly impacting the massive freight network they help operate. 
That operational change is called ``Precision Scheduled Railroading''--
or PSR, for short.
    PSR, as currently being implemented, is not safe or effective, and 
Congress should exercise its oversight to investigate. Rail Labor would 
like to participate in that investigation.
    Our union supports efforts to efficiently operate our nation's 
railroads. We want our employers to be profitable--as profits leads to 
raises and quality benefits for our members. However, we are concerned 
that current PSR schemes are detrimental to the long-term outlook of 
the rail industry, putting short-term gains ahead of long-term 
success--furloughing thousands, while degrading safety.
    PSR schemes are designed to increase short-term profits for 
shareholders, at any cost. Indeed, what was once scorned by industry 
professionals and executives, is now being forced on the industry by 
rent-seeking Wall Street investors. In practice, PSR includes:
    1.  Running trains on the strictest of schedules.
    2.  Running longer trains--sometimes in excess of 3 miles.
    3.  Pressuring customers to alter their operations to meet the 
railroad's schedule.
    4.  Pressuring employees to meet new strict deadlines--at all 
costs.
    5.  Reducing headcounts as a variable to meet Wall Street's 
expectations.
    As a union representing railroad workers, our main concerns are 
with the last two points I mentioned: meeting strict deadlines at all 
costs, and reducing headcounts to deliver savings benefits to 
shareholders.
    A few weeks ago, District Lodge 19 coordinated with the 
Transportation Communications Union to conduct a survey of our members, 
allowing them to tell us--anonymously if they prefer--how PSR is 
affecting them.
    The responses are eye-opening.
    Our members report being overworked, stressed, and scared.
    They talk of drastic cuts to their shops, where those remaining are 
being asked to perform double or triple the work compared to the pre-
PSR era.
    They speak of increasing safety violations, of managers threatening 
job cuts if deadlines aren't met, of being forced to ignore basic 
safety procedures.
    To quote a carman from Union Pacific:

        ``The current culture at U.P. is one of production first, 
        safety last. It isn't just the safety of employees at stake; it 
        is also the safety of communities our trains move through.

        UP has reduced the employment levels to a number that cannot 
        sustain thorough safety inspections . . .

        Everyone is scared to do their job right. If you try, you get 
        told they will shut your location down, just like they did 
        Hinkle, Oregon . . . With the PSR atmosphere, it is just a 
        matter of time before lives are lost.''

    This carman was referring to the recent layoff of almost 200 
workers at the Hinkle rail yard, which included nearly 75 machinists.
    Likewise, a machinist from CSX reports how he is being rushed when 
it comes to inspection of trains and equipment:

        ``Right now, it's pretty much `do what you are told, look the 
        other way' . . . Managers telling employees `You get hurt, you 
        will not have a job here anymore.' ''

    These are just a couple of the over-160 responses we've received. 
For additional substantive written responses, please review the full 
table of selected survey responses attached.
    As part of the survey, we asked our members to rate overall safety, 
on a scale of 1-10, before and after PSR implementation.
    Before PSR, rail safety received an average score of 6.9. After PSR 
implementation, overall rail safety received an average score of 2.6.
    Finally, I suspect industry representatives will point to data that 
cites how safety trends are improving. Unfortunately, the data sets 
they reference are incomplete.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Judging by the responses our union has received in the survey, as 
well as local lodge meetings our representatives have attended, the 
atmosphere on the railroad is increasingly one of hostility towards 
reporting any safety violations whatsoever. As one of my colleagues 
stated to me after attending a four-hour local lodge meeting last week: 
``the way these guys talk, it's as if the FRA is nonexistent.''
    In addition, if safety trends are looked at by employer--instead of 
industry-wide--you will find further evidence that railroads engaging 
in PSR schemes have higher rates of reportable safety incidents.
    To bolster this claim, I submit the attached safety performance 
summary from Union Pacific for March, 2019 where reportable personal 
injuries are up nearly 50%, depending on the month.
    A Jacksonville Business Journal from 2018--aptly titled ``As CSX 
workforce shrinks, accidents pile up and morale plummets''--stated the 
following:

         . . . The company's increasing rate of accidents comes despite 
        the fact that the rate of train accidents for all Class I 
        railroads nationwide is decreasing. Since 2013, the national 
        rate has decreased about 6 percent, while CSX's rate has 
        increased 59 percent . . .

    As a labor union, we do not have the resources nor the access to 
data and logs that our members' employers might have. All we have is 
what our members tell us. And, as you will read from our members' 
responses, these safety incidents appear to be increasing, and the 
culture of safety on the railroads is eroding.
    Congress and the Federal Railroad Administration must apply greater 
scrutiny to these Precision Scheduled Railroading practices: a business 
model loathed by workers, railroads, customers, and communities--all to 
enrich rent-seeking Wall Street investors, no matter the cost or 
disruption to the lives of our members, and the commercial 
transportation market they'll destroy in the process.
    Thank you for the opportunity to testify.
    The following attachments are submitted as part of the full written 
testimony [the attachments are retained in the committee files]:
    <bullet>  Selected responses to ``Worker Impacts of Precision 
Scheduled Railroading'' survey--June, 2019 (ongoing)
    <bullet>  ``March 2019 Safety Performance Summary,'' Union Pacific 
Railroad
    <bullet>  Robinson, Will. ``As CSX Workforce Shrinks, Accidents 
Pile up and Morale Plummets.'' Jacksonville Business Journal, February 
14, 2018. https://www.bizjournals.com/jacksonville/news/2018/02/14/as-
csx-workforce-shrinks-accidents-pile-up-and.html.

    Mr. Lipinski. Thank you, Mr. Sandberg.
    I will recognize Mr. Gonzalez.
    Mr. Gonzalez. Good afternoon, Chairman Lipinski, Ranking 
Member Crawford, and members of the committee. Thank you for 
holding this important hearing, and for inviting me here today 
to discuss the proposed 20-percent national reduction to the 
Amtrak Police Department. I am truly honored for this 
opportunity to speak on the important subject of great concern 
for the American public and its transportation infrastructure. 
More specifically, the millions of Americans that ride on 
Amtrak trains every year, as well as the thousands of dedicated 
Amtrak employees.
    I, as well as my fellow officers, believe this to be a 
matter that has the potential to substantially impact our 
Nation's security and safety. My name is William Gonzalez, I am 
the president of the Amtrak Labor Committee, and the Labor 
Committee is the duly ecognized union for the 400-plus brave 
and distinguished members of the Amtrak Police Department.
    Amtrak police are responsible for protecting over 300 daily 
trains, covering 21,000 route miles in 46 States. The Amtrak 
system is critical to our Nation's economy and mobility. 
Despite Amtrak's substantial network and recent ridership 
records, the current police force is currently comprised of 
only approximately 440 positions, which includes the 
commander's.
    When you deduct the management, the total working police 
force is comprised of approximately 424 actual patrolmen, which 
is down from the 492 patrol officers Amtrak employed as 
recently as 2015: about a 14-percent loss over only 4 years. 
The matter most concerning to us, which is the matter bringing 
us before you today, is Amtrak CEO Richard Anderson's proposal 
to further reduce the number of sworn police officers by 
another 20 percent or, more specifically, reduce the department 
by 85 sworn officers and 15 civilian employees.
    This news prompted multiple questions by the committee, 
which, as of today, go entirely unanswered by Amtrak. This 
reduction will result in police force staffing levels not seen 
since before 9/11. The reduction in associated hours totals 
approximately 208,000 per year of lost police protection.
    If cost cutting was a legitimate concern of department 
management, why did it needlessly purchase brandnew 9mm 
handguns this year, when it had already purchased new .40 
caliber handguns no more than 3 years ago? The department also 
wastefully purchased new body cameras for the police department 
that has only been required to use force on an average of .9 
percent of arrests within the past 4 years, along with 
expensive nonlethal weapons such as tasers, that have only been 
used less than a handful of times. Those monies would have been 
much better spent on repairing and updating a flawed and 
malfunctioning radio system, which would substantially 
facilitate interofficer and department communications. Amtrak, 
as a corporation, has, simply put, been more concerned with 
appearances than practical law enforcement and the safety of 
its passengers.
    Some recent facts. On March 20th of 2019, Union Station in 
Chicago was without radio reception for 5 hours. This issue has 
been ongoing for years. Eight days later, in Sunnyside, New 
York, a shooting occurred that the one officer assigned was 
able to respond to quickly, but there were not enough vehicles 
at Penn Station for other officers from Amtrak to respond in a 
timely manner, which required assistance from the NYPD, who are 
not familiar with the yard.
    On April 16, 2019, 18 pounds of fentanyl were seized in New 
Mexico off an Amtrak train.
    And May 20, 2019, in New York, Amtrak police and DEA seized 
two kilograms of heroin and two kilograms of fentanyl.
    In 2015 Amtrak Police Chief Polly Hanson commissioned an 
independent workforce study completed by Strategic Policy 
Partnership. The summary of the report stated--and I quote--
``It is also important to note that APD is currently lacking 
across all regions in actual strength, according to the 
analysis of the most recent figures available to the project 
team. This underscores the importance of streamlining the 
hiring processes.''
    Amtrak's plan will shut down police field offices on the 
Northeast Corridor, and possibly around the country. This plan 
will leave stations, trains, and facilities with less than 
skeleton staffing. The Amtrak community will be left at risk, 
while placing officers in harmful situations.
    CEO Richard Anderson's police reduction also concerns us 
for our members' sake, as well. The numbers shown to us on May 
1, 2019, reduces most of Amtrak's police divisions. However, 
some will be reduced by almost 50 percent in order to reach 
Anderson's projected goals. Chief Trugman assured the Labor 
Committee there would be zero layoffs and furloughs. Amtrak's 
plan is to reduce police force through attrition and a buyout. 
We don't believe these numbers are attainable.
    Also concerning, if the attrition plan is unsuccessful, 
will there be enough transferable positions? How do they plan 
to reach their reduction goals? We continue to patiently wait 
for these answers from Amtrak with no response.
    Also a major concern is will Amtrak claim that there isn't 
enough in their budget for the police department, and just make 
the department disappear?
    In closing, reducing this police force for any reason is 
perplexing. We believe Amtrak has a duty to protect its over 30 
million passengers and the communities it serves, as well as 
the communities it travels through. It is essential that Amtrak 
provides a sufficient police force to ensure these 
responsibilities to the American public.
    Again, on behalf of the Amtrak Labor Committee I would like 
to thank the committee staffers and members of this committee. 
And thank you for your service to our Nation.
    [Mr. Gonzalez's prepared statement follows:]

                                
Prepared Statement of William Gonzalez, President, Amtrak Police Labor 
                               Committee
    Good morning, Chairman Lipinski, Ranking Member Crawford and 
Members of the Committee, thank you for holding this important hearing 
and for inviting me here today to discuss the proposed twenty percent 
national reduction to the Amtrak Police Department. I am humbled and 
truly honored for this opportunity to speak on this important subject 
of great concern for the American public and its transportation 
infrastructure, most specifically the millions of Americans that ride 
on Amtrak trains every year, as well as the thousands of dedicated 
Amtrak employees. Indeed, I, as well as my fellow officers, believe 
this to be a matter that has the potential to substantially impact on 
our nation's security and safety.
    My name is William Gonzalez, and I am the President of the Amtrak 
Police Labor Committee. The Labor Committee is the duly recognized 
union for the 400 plus brave and distinguished members of the Amtrak 
Police Department. The Amtrak Police Labor Committee is an organization 
of sworn law enforcement officers, elected to represent its members, 
which includes communication officers, better known to the public as 
dispatchers, as well as the security guards who, among other things, 
are responsible for securing Amtrak's rail yards. We are the voice for 
the men and women who dedicate their lives to protect and serve 
Amtrak's passengers, employees and infrastructure, better known to us 
as the Amtrak community. We are committed to improving the working 
conditions for our officers, as well as the safety and security of 
those we serve. We strive to accomplish this through education, 
legislation, information, community involvement, employee 
representation and most importantly, good and practical law enforcement 
strategy and techniques. No one knows the dangers and the difficulties 
faced by today's Amtrak officers better than another law enforcement 
officer, and no one knows Amtrak's officers better than the Labor 
Committee.
    The Amtrak Police Department is comprised of six divisions spread 
out across the country, New England, New York, Mid Atlantic North, Mid 
Atlantic South, Central, and Western.
    Daily the men and women of the Amtrak Police manage to accomplish a 
lot with only very little, and usually with a smile. Policing in the 
Amtrak community is unique and incomparable to any other police force 
in these United States and perhaps even the world. We wear many hats of 
myriad shapes and sizes. Amtrak Police Officers sometimes act as 
customer service agents helping passengers with questions and concerns. 
Sometimes we are called upon to perform similarly to municipal and 
transit police, enforcing traffic laws, and making a multitude of 
arrests on and off trains, in rail yards and right of ways. Our 
officers respond to and investigate felony and misdemeanor crimes and 
handle fatalities on a frequent basis. Other times the Department acts 
as a force protection, comparable to departments like the US capitol 
police, FBI uniform and Secret Service Uniform, to mention a few. We 
have officers who serve on anti-terrorism teams, as well as others who 
serve on a multitude of Federal task force, including the FBI's joint 
terrorism task force and DEA task force, among others. We also have one 
of the nation's largest K9 divisions per capita, with a concentration 
on explosive detection and narcotic K9s. The Amtrak police truly 
accomplish what no other police force would be able to do. With our 
multi-jurisdictional commissions and vast knowledge of the railroad, 
our officers are able to keep Amtrak running on time and in a safe and 
efficient manner. As officers we consider our multi-faceted usefulness 
to be one of our most defining characteristics as a police department.
    On May 1, 2019, the Amtrak Police Labor Committee (FOP) was 
informed by Chief Neil Trugman that CEO Richard Anderson wanted a 20% 
reduction of our police force. Chief Trugman explained that the 454 APD 
personnel which is a mix of officers and civilians needed to be reduced 
to 369, with no budget information given. The Department is currently 
authorized 460 sworn positions by Amtrak. This is already down from the 
492 sworn positions in 2015, a 7% reduction. Today the Police 
Department is securing Amtrak with 424 assigned police officers not 454 
that was relayed to us on May 1. From 2015 to 2022 the Amtrak Police 
Department will be down 25% under Richard Anderson's current plan. This 
is all driven by Richard Anderson's Project Zero initiative. He, along 
with other Amtrak officials, stands to collect large bonuses with the 
current cuts at Amtrak. With Amtrak receiving tax payer's dollars, the 
CEO stands to profit by risking the safety and security of the 
traveling public.
    If cost-cutting were the legitimate concern of departmental 
management, why did it needlessly purchase brand new 9mm handguns this 
year when it had already purchased new .40 caliber handguns no more 
than three years ago. The department also wastefully purchased new body 
cameras for a police department that has only been required to use 
force on an average of 0.9% of arrests within the past four years, 
along with expensive, non-lethal weapons such as tasers that have only 
been used less than a handful of times. Those monies would have been 
much better spent on hiring more officers and repairing and updating 
our flawed and malfunctioning radio system, which would substantially 
facilitate inter-officer and departmental communications. Amtrak as a 
corporation has, simply put, been more concerned with appearances than 
practical law enforcement and the safety of its passengers.
    The Police Department's vehicles were cut by 20% in 2018 limiting 
the ability of officers to respond to outlying stations and incidents 
on the railroad right of way. An example of how the vehicle cuts are 
affecting the police, on March 28, 2019 at Sunnyside NY an employee 
involved shooting occurred and the one officer assigned to work 192 
acres was lucky enough to have been reporting early to work was able to 
respond quickly and take over the scene, but there were not enough 
vehicles for other officers to arrive from NY Penn Station which is 5.6 
miles away and with New York City traffic the response time is 30-45 
minutes. The officer required assistance from the NYPD, who are not 
familiar with the yard.
    Some more recent facts, on March 20, 2019 Union Station in Chicago 
was without radio reception for five (5) hours, this issue has been 
ongoing for years. On April 13, 2019 the radio system in Chicago again 
failed for an hour and a half (1.5).
    The narcotics issues on Amtrak trains has been an issue for years. 
On April 16, 2019, 18 pounds of FENTANYL were seized in New Mexico off 
an Amtrak train and May 20, 2019 in NY, APD and DEA seized 2 kilograms 
of heroin and 2 kilograms of FENTANYL. These are just two example 
dates, Amtrak Police seize hundreds of pounds of narcotics monthly.
    In 2015, former Amtrak Police Chief Polly Hanson commissioned an 
independent workforce study completed by Strategic Policy Partnership, 
LLC. During this period Amtrak Police Staffing levels were at 492 
personnel. The summary of the one hundred and twenty one page report 
states, and I quote ``it is also important to note that APD is 
currently lacking across all regions in actual strength, according to 
the analysis of the most recent figures available to the project team. 
This underscores the importance of streamlining hiring processes'' end 
quote.
    The study goes onto say, and I again quote ``All divisions appear 
to be lacking sufficient staffing in either Police Officers or 
Sergeants presently, and the majority are lacking Sergeants in terms of 
authorized strength.'' end quote. Since this study was completed 
several years ago, ridership has increased, trains have been added to 
schedules and police staffing has nonetheless been reduced. That being 
said, and our nature as police officers for fact finding, the Labor 
Committee hired former Amtrak Police Chief Ron Frazier and current 
President of Countermeasures Assessment and Security Experts, LLC to 
expedite a current workforce study.
    Amtrak's plan will shut down Police Field offices on the Northeast 
corridor and possibly around the country. This plan will leave 
stations, trains and facilities with less than skeleton staffing. The 
Amtrak community will be left at risk while placing officers in harmful 
situations.
    This body appropriates billions of dollars annually to ensure the 
safety and security of our nation's airports. Yet the funding received 
by Amtrak to help support and facilitate its security pales in 
comparison yet sees as much if not more foot traffic than this nation's 
busiest airports. On a daily basis New York Penn station sees more 
passengers than LaGuardia, JFK, and Newark airport combined. Airport 
security is strong and well funded, however train stations deal with 
felony and misdemeanor crimes, increasing mental health issues, and 
threats of terror.
    Al Qaeda's Inspire magazine released a well edited how-to video on 
derailing passenger trains. Passenger rail remains a level two threat 
assessment according to the FBI, majorly concerning when our CEO is 
looking for pre-9/11 staffing levels.
    CEO Richard Anderson's Police reduction also concerns us for our 
members sake as well. The numbers shown to us on May 1, 2019 reduce all 
of Amtrak's Police divisions. However, some will be reduced by almost 
50% in order to reach Anderson's projected goals. Chief Trugman assured 
the labor committee there would be zero layoffs or furloughs. Amtrak 
plans to reduce the police force through attrition and a buyout plan. 
We don't believe these numbers are attainable. Talking with our members 
we've learned the majority of officers taking the buyout are officers 
who were going to retire inevitably.
    The second step will be to offer Officers the ability to transfer, 
again our officers took these jobs with the belief they would retire 
from the same geo-location they hired on at. Member discussions have 
shown few if any will transfer.
    Also concerning, if the attrition plan is unsuccessful will there 
be enough of transferable positions? With this, we don't believe the 
reduction goal will be reached. This labor committee has asked for 
answers. How do they plan to reach their reduction goals, we continue 
to patiently wait for those answers from Amtrak. Also, a major concern 
is, will Amtrak claim that there isn't a budget for the police 
department and make jobs disappear?
    ln closing, reducing this police force for any reason is 
perplexing. We believe Amtrak has a duty to protect its over 30 million 
passengers and the communities it serves as well as the communities it 
travels through. It is essential that Amtrak provides a sufficient 
police force to ensure these responsibilities to the American public.
    Again on behalf of the Amtrak Labor Committee I'd like to thank the 
committee staffers, members of this committee, Ranking Member Crawford, 
and Chairman Lipinski for inviting us here today and allowing us to 
present our concerns. We are undoubtedly humbled and thank you for your 
service to our nation. At this time, I would be happy to answer any 
questions.

    Mr. Lipinski. Thank you, Mr. Gonzalez.
    And finally, the Chair will recognize Mr. Jefferies.
    Mr. Jefferies. Chairman Lipinski, Ranking Member Crawford, 
members of the committee, thank you for the opportunity to be 
here today representing the best freight rail system in the 
world.
    Every day, freight railroads and their 165,000 dedicated 
employees safely and efficiently move our Nation's economy. 
America's freight railroads operate almost exclusively on 
infrastructure that they own, build, and maintain. Railroading 
is an incredibly capital-intensive industry, but railroads are 
up to the task, as they spent an average of $480 million in 
private dollars on their network in recent years. In 2019, 
railroads will plow another $25 billion in private capital back 
into their network. The result is a freight rail industry that 
is in the best shape of its 150-year history.
    Railroads are proud of their highly skilled, well-trained 
employee base, and are united with them in their unwavering 
dedication to operating the Nation's rail system at the highest 
level of safety. The industry attracts employees who build 
lifelong careers from a diverse range of backgrounds, from high 
school graduates to those holding graduate degrees.
    We also place a strong focus on hiring those with military 
service, which has accounted for approximately 20 percent of 
new hires in recent years. Eighty-five percent of Class I 
railroad employees and 60 percent of smaller railroads are 
represented by more than a dozen labor unions, many of which 
are represented here today, and are governed by the Railway 
Labor Act, or the RLA.
    RLA, first passed in 1926, has been a remarkably successful 
framework in negotiating agreements. Over the past 45 years 
there have only been 10 days of service disruptions arising 
from national rail bargaining. The last such day was in 1992.
    As a whole, the approximately 145,000 represented freight 
railroad employees are among the most highly compensated among 
American industries. In 2017 railroad employees earned an 
average of $125,400 in annual wages and benefits, far 
surpassing the national average of $76,500 in other domestic 
industries.
    Rail healthcare benefits also surpass coverage provided by 
other industries, with freight railroads providing 
approximately 90 percent of an employee's healthcare costs. 
Like every industry, the overall number of rail employees tends 
to ebb and flow over time. For railroads, this is based on a 
variety of factors, but most largely dependent on current and 
anticipated rail traffic demand.
    Freight railroads and their employees have a safety culture 
that is second to none, and the industry is constantly looking 
for new ways to further their strong safety performance. The 
evidence of this dedication is clear: the train accident rate 
in 2018 was down 36 percent from the year 2000, and the 
employee injury rate in 2018 was the second lowest in history, 
down 48 percent from that of 2000.
    By all measures, recent years have been the safest in the 
industry's long history. Railroads today have lower employee 
injury rates than most other major industries, including 
trucking, airlines, agriculture, and construction. But 
railroads want to be safer, and continue to research and 
implement new safety-enhancing technologies and solutions.
    Members of this committee are well acquainted with Positive 
Train Control. And after meeting all of the 2018 mandates, 
Class I railroads currently have 89 percent of required PTC 
route miles in operation, and will be fully implemented next 
year.
    Railroads are also deploying a host of new inspection and 
detection technologies across their networks that allow for 
significantly more advanced assessments of rail, track, and 
locomotive health. To drive safety to new levels, railroads 
must be allowed to innovate and be provided flexibility for 
demonstrating newer, more effective ways of meeting current 
regulatory requirements.
    In sum, as America's economy grows, the need to move more 
freight will grow, too. Railroads and their employees must work 
together to innovate and evolve to maximize and maintain 
competitiveness to meet these growing demands. Indeed, today's 
railroads look and operate differently than they did 50 years 
ago. They are dramatically safer, cleaner, and more efficient.
    In turn, the railroads of tomorrow will look and operate 
differently than they do today. Railroads will continue to rely 
on the skills and dedication of their employees for years to 
come. And together, we will continue these positive safety 
trends to new heights into the future.
    Thank you for your time.
    [Mr. Jefferies's prepared statement follows:]

                                 
  Prepared Statement of Ian Jefferies, President and Chief Executive 
               Officer, Association of American Railroads
                              introduction
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to be here today.
    From one end of the country to the other, America is connected by 
the best freight rail system in the world. The seven large ``Class I'' 
railroads, working with more than 600 smaller railroads, approximately 
165,000 railroad employees, and tens of thousands of rail customers, 
deliver economic growth, support job creation, and provide crucial 
environmental benefits such as reduced highway gridlock and cleaner 
air.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    America's freight railroads are overwhelmingly privately owned and 
operate almost exclusively on infrastructure that they own, build, 
maintain, and pay for themselves. Since 1980, freight railroads have 
plowed more than $685 billion--of their own funds, not taxpayer funds--
on capital expenditures, technology, and maintenance expenses related 
to locomotives, freight cars, tracks, bridges, tunnels and other 
infrastructure and equipment. That's more than 40 cents out of every 
revenue dollar, invested back into a rail network that keeps our 
economy moving safely. For context, the average U.S. manufacturer 
historically spends about three percent of revenue on capital 
expenditures. The comparable figure for U.S. freight railroads in 
recent years has been about 19 percent, or six times higher. And 
importantly, these investments have improved rail safety, since a 
railroad that is in good physical condition is a railroad that is 
safer. In fact, for many of these investments, improving safety is the 
primary reason the investments were made.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Railroads are also the environmentally responsible way to move 
freight. In 2018, railroads moved a ton of freight an average of 473 
miles per gallon of diesel fuel. That's roughly equivalent to moving a 
ton from Chicago, IL to Omaha, NE, or from Little Rock, AR to Austin, 
TX on a single gallon. On average, railroads are approximately four 
times more fuel efficient than trucks. That means moving freight by 
rail helps our environment by reducing energy consumption and 
greenhouse gases. Moreover, because a single train can carry the 
freight of several hundred trucks, railroads cut highway gridlock and 
reduce the high costs of highway construction and maintenance.
                   transporting what our nation needs
    From the food on our tables to the cars we drive to the shoes on 
our children's feet, freight railroads carry the things America needs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Railroads carry enormous amounts of corn, wheat, soybeans, and 
other grains; fertilizers, plastic resins, and a vast array of other 
chemicals; cement, sand, and crushed stone to build our highways; 
lumber and drywall to build our homes; autos and auto parts; animal 
feed, canned goods, corn syrup, flour, frozen chickens, beer, and 
countless other food products; steel and other metal products; coal, 
crude oil and other petroleum products; paper products; iron ore and 
scrap metal for steelmaking; and much more.
    Rail intermodal is the movement of shipping containers and truck 
trailers by rail. It's been the fastest growing major rail traffic 
segment over the past 25 years and set a new annual volume record in 
2018. Just about everything you find on a retailer's shelves may have 
traveled on an intermodal train. Around half of rail intermodal 
consists of imports or exports.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    the right track for the economy
    America's freight railroads connect producers and consumers across 
the country and the world, expanding existing markets and opening new 
ones.
    An October 2018 study from Towson University's Regional Economic 
Studies Institute found that, in 2017 alone, the operations and capital 
investment of America's major freight railroads supported approximately 
1.1 million jobs (nearly eight jobs for every railroad job), $219 
billion in economic output, and $71 billion in wages. Railroads also 
generated nearly $26 billion in tax revenues. In addition, millions of 
Americans work in industries that are more competitive in the tough 
global economy thanks to the affordability and productivity of 
America's freight railroads.
    Without railroads, American firms and consumers would be unable to 
participate in the global economy anywhere near as fully as they do 
today. The AAR estimates that international trade accounts for 
approximately 35 percent of U.S. rail revenue, 27 percent of U.S. rail 
tonnage, and 42 percent of the carloads and intermodal units that U.S. 
railroads carry.
    The affordability of freight rail saves rail customers (and, 
ultimately, American consumers) billions of dollars each year and 
enhances the global competitiveness of U.S. products. Average rail 
rates (measured by inflation-adjusted revenue per ton-mile) were 44 
percent lower in 2018 than in 1981. This means the average rail shipper 
can move close to twice as much freight for about the same price it 
paid more than 35 years ago.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    railroad employees: safe, professional, productive, and highly 
                              compensated
    Railroads appreciate the skill and professionalism of their 
employees, and railroads are committed to working with them to help 
ensure that the future of railroads remains bright. Rail management and 
rail employees are united in their conviction that a safe and healthy 
working environment creates a safe and efficient railroad, which is 
indispensable to America's economic well-being.
    As one of the country's oldest industries, nearly every facet of 
the rail industry management-employee interface is governed by unique 
legal and regulatory schemes that have been developed over the last 130 
years. More than a dozen labor unions have rail industry employees as 
members. Approximately 85 percent of the employees of Class I railroads 
and around 60 percent of employees of non-Class I railroads belong to a 
labor union and therefore are subject to collective bargaining.
    Collective bargaining between freight railroads and their employees 
is governed by the Railway Labor Act (RLA), which was first passed in 
1926 and amended occasionally since then. Under the RLA, collective 
bargaining agreements are amendable rather than expire. Without 
contract expiration dates, the negotiators don't work against a fixed 
deadline. Rather, they proceed through a structured and regulated 
process, which may include compulsory mediation and other third-party 
resources, designed to bring the parties to agreement without service 
disruptions.
    Under the RLA, national freight rail bargaining has been remarkably 
successful in reaching contract settlements without crippling strikes 
or lockouts. Over the past 45 years, there have been only ten days of 
service disruptions arising from national rail bargaining; the last 
such day was in 1992.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As a whole, the approximately 145,000 represented freight railroad 
employees are among America's most highly compensated workers. Railroad 
employees' healthcare, retirement, and compensation packages rank in 
the top five percent of American industries. In 2017 (the most recent 
year for which comparable data are available), the average U.S. Class I 
freight railroad employee earned wages of $87,100 and fringe benefits 
of $38,300, for total average compensation of $125,400. By contrast, 
the average wage per full-time equivalent U.S. employee in domestic 
industries in 2017 was $62,100, just 71 percent of the rail average, 
while average total compensation was $76,500, or just 61 percent of the 
rail average. Rail healthcare benefits far surpass coverage provided by 
other U.S. industries, with freight rail employees paying only modest 
monthly contributions for a plan that, on average, covers over 90 
percent of a member's healthcare costs. The richness of these 
healthcare benefits is evident in the plan's Platinum level status, the 
highest-ranked tier under the Affordable Care Act.
    In addition, Class I railroads can be statutorily required to 
provide their workers who are displaced by mergers, consolidations, or 
certain other operational changes with up to six years of labor 
protection, including continued wages and benefits at pre-transaction 
levels. No other major U.S. industry is subject to this kind of 
government mandate.
    Employees of freight railroads--as well as employees of Amtrak, 
commuter railroads, and rail-related organizations such as rail labor 
unions and the AAR--are the only sizable group of private sector 
workers in the United States not covered by Social Security. Rather, 
they are covered by the Railroad Retirement System, which is 
administered by the Railroad Retirement Board (an independent federal 
agency) and provides retirement, disability, sickness, and survivor 
benefits to railroad workers and their families.
    A detailed discussion of the ways that Railroad Retirement differs 
from Social Security is beyond the scope of this testimony, but one of 
the key differences is that Railroad Retirement's assets are invested 
in a diversified portfolio of equities and debt, in addition to 
government securities, in the same manner as those of private sector 
retirement plans. Should the investments lose money or the trust funds 
fail to keep pace with benefit distributions, railroad companies and 
employees--not taxpayers--are responsible for ensuring the solvency of 
the railroad retirement system. And beyond this investment risk, 
railroads currently pay--over and above the equivalent social security 
payroll tax--an additional 13.1 percent in payroll tax on each 
employee's first $98,700 in annual earnings.
    Railroads do not have insurance-based Workman's Compensation 
because their system was developed long before modern workman's 
compensation was established; instead, railroads operate under a nearly 
110-year old statute called the Federal Employee Liability Act (FELA). 
FELA is a tort-based system that requires employees to litigate injury 
claims against railroads under a comparative fault system.
    Finally, railroads know well that having a diverse workforce 
promotes greater innovation and productivity by leveraging the 
strengths of different talents, skills, and perceptions. As the 
railroads continue to invest, innovate, and evolve, they will also 
continue to expand their efforts to make working in the industry 
appealing to men and women of every background and range of personal 
characteristics. The industry attracts employees from a wide range of 
backgrounds, including those who are high school graduates and those 
holding graduate degrees. Railroads provide the opportunity to build 
lifelong careers in traditional railroading fields such as engineering 
and dispatching, but also new and innovative fields like information 
technology and cybersecurity. And many of the nation's freight 
railroads have special military recruiting programs to assist veterans 
in their railroad job search. Railroads provide career opportunities 
that allow veterans to smoothly transition from military service to 
private employment.
    Because of high wages and benefits, technical training, and 
professional growth opportunities, freight rail employees often stay in 
the industry for most or all of their professional careers. Many rail 
employees have family railroad legacies that stretch back generations.
    Like firms in every other industry, railroads must manage their 
resources--including their most important resources, their employees--
based on business needs. The number of rail employees tends to ebb and 
flow based on current and expected future rail traffic levels, 
technological developments, and other factors.
                         safety is the priority
    Freight railroad employees have a safety culuture that is second to 
none and their commitment to continuous safety improvment will not 
waiver. That's why railroads, in cooperation with policymakers, their 
employees, suppliers, and customers, are constantly looking for new 
technologies, operational enhancements, improved training, and other 
ways to further improve their safety record.
    This strong culture of safety that defines the industry is so 
ingrained across the workforce that it's part of the regular routine. 
Daily safety briefings, peer-to-peer safety programs and training 
programs at state-of-the-art technical training centers, featuring 
simulators and virtual reality, are just some of the ways that 
railroads practice putting safety--of employees and operations--first.
    The evidence of this dedication is clear and is working. The train 
accident rate in 2018 was down 36 percent from 2000; the grade crossing 
collision rate in 2018 was down 36 percent from 2000; and the employee 
injury rate in 2018 was down 48 percent from 2000 and was the second 
lowest in history. Indeed, by all these measures, recent years have 
been the safest in history. Railroads today have lower employee injury 
rates than most other major industries, including trucking, airlines, 
agriculture, mining, manufacturing, and construction.
    Virtually every aspect of rail operations is subject to safety 
oversight by the Federal Railroad Administration (FRA). For example, 
stringent FRA regulations cover track and equipment inspections, 
employee certification, operating speeds, and signals. FRA safety 
inspectors (and in some states, state inspectors) evaluate rail 
facilities and operations. Railroads are also subject to oversight by 
the Occupational Safety and Health Administration, the Pipeline and 
Hazardous Materials Safety Administration, and the Department of 
Homeland Security.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While railroads are safer today than ever before, they want to be 
even safer. That's why they are constantly researching, developing, and 
implementing new safety-enhancing technologies. Just a few of the many 
examples of new safety-enhancing technologies developed in recent years 
or now being developed include:
    <bullet>  Sophisticated detectors along tracks that identify 
defects on passing rail cars, including overheated bearings and damaged 
wheels, dragging hoses, deteriorating bearings, cracked wheels, and 
excessively high and wide loads, before failure or other damage occurs.
    <bullet>  Ground-penetrating radar and terrain conductivity sensors 
are being developed that will help identify problems below the ground 
(such as excessive water penetration and deteriorated ballast) that 
hinder track stability.
    <bullet>  Remote monitoring capabilities that ascertain the 
structural health of bridges.
    <bullet>  Advanced track geometry cars that use sophisticated 
electronic and optical instruments to inspect track alignment, gauge, 
curvature, and other track conditions.
    Members of this committee are well acquainted with railroad efforts 
to implement positive train control (PTC) so that further safety gains 
can be achieved.\1\ The seven Class I freight railroads all met 
statutory requirements by having 100 percent of their required PTC-
related hardware installed, 100 percent of their PTC-related spectrum 
in place, and 100 percent of their required employee training completed 
by the end of 2018. In aggregate, Class I railroads had 89 percent of 
required PTC route-miles in operation as of April 2019. Each Class I 
railroad expects to be operating trains in PTC mode on all their PTC 
routes no later than 2020, as required by statute. In the meantime, 
railroads are continuing to test and validate their PTC systems 
thoroughly to ensure they are interoperable and work as they should.
---------------------------------------------------------------------------
    \1\ For a detailed discussion of PTC, see the testimony of my 
predecessor, Edward Hamberger, to this committee on September 13, 2018.
---------------------------------------------------------------------------
    PTC is the latest in a long line of new technologies that railroads 
have adopted to improve the safety, efficiency, and reliability of 
their operations. Just as the industry transitioned from steam to 
diesel locomotives or from cabooses to end of train devices, 
technological innovation often brings with it the need to evolve 
operating procedures and models. Railroads must have the incentives and 
flexibility to invest and innovate in new technologies that improve 
safety, increase efficiencies and allow the rail industry to remain 
competitive.
                               conclusion
    America's railroads move vast amounts of just about everything, 
connecting businesses with each other across the country and with 
markets overseas over a nationwide network of close to 140,000 miles. 
As America's economy grows, the need to move more freight will grow 
too. In fact, recent forecasts found that total U.S. fright shipments 
will rise from an estimated 17.8 billion tons in 2017 to 24.1 billion 
tons in 2040--a 35 percent increase. Railroads are the best way to meet 
this demand as they save their customers billions of dollars each year 
in shipping costs while providing high-paying jobs; reducing energy 
consumption and greenhouse gas emissions; and relieving highway 
congestion.
    For America's railroads, pursuing safe operations is not an option, 
it's a business imperative. Most importantly, it's the right thing to 
do. Railroads are not just faceless corporations from somewhere far 
away--rather, your neighbors are our neighbors. No matter where you 
live, chances are good that current or former rail industry employees 
live close by. Railroads know they have an obligation to operate safely 
for their benefit and for the benefit of all members of the communities 
they serve.
    As I pointed out earlier in my testimony, railroads are different 
than most industries by dint of history, and their essential role in 
the U.S. economy. But they are not immune to economic forces--such as 
market shifts away from coal, the competiveness of trucks and 
volatility in international trade and the economy. Now more than in 
previous history, the success of railroads' role in the supply chain 
will depend on the industry's ability to remain competitive and grow. 
As railroads strive to meet the transportation needs of our nation in 
the years ahead, they will continue to invest, innovate, and evolve. 
They will also continue to rely on the skills and professionalism of 
the rail workforce. Railroads will work cooperatively with their 
employees to ensure that America's freight rail industry retains its 
world-best status.

    Mr. Lipinski. Thank you, Mr. Jefferies. I will now move on 
to questions, and I will begin by recognizing myself for 5 
minutes.
    Mr. Gonzalez, I just want to mention that Chairman DeFazio 
and I have led a letter that has gone to Amtrak CEO Richard 
Anderson, asking a number of questions about the reduction in 
the police force. It seems like something that, as we are more 
focused, and Congress has taken action in recent years to be 
more focused on safety, especially at our train stations, that 
seems to be going counter to that. So we look forward to the 
answers from Amtrak, and we are going to continue to follow up 
with Amtrak on the cuts that they are proposing. But thank you 
for your service.
    I wish that Administrator Batory was still here to be a 
part of this discussion. Obviously, safety is what is most 
important here, the safety of the workers, safety of 
communities that rail traffic flows through.
    We have heard about issues, obviously. I am looking for 
what Congress can do. We have the two-person crew bill that we 
have right now. We also heard about FRA having not completed 
the rulemaking on a number of things that they have been 
required by Congress to do.
    But I wanted to ask what, specifically--especially when it 
comes to PSR--we have heard stories here about what is being 
asked of freight rail employees, workers, and what should 
Congress be doing to step in to ensure safety?
    We have heard concerns that there is a fear of reporting 
anything.
    Let me start with Mr. Pierce, and if you could be brief, I 
mean, what would you do? What do you want? What would you like 
to see Congress do to try to do a better job to ensure safety, 
besides what, you know, we have already talked about in your 
statement. Anything?
    Mr. Pierce. Thank you, Chairman. I think it is noteworthy 
that the Administrator picked up the Code of Federal 
Regulations book and waved it at the committee. It appears that 
he has forgotten where those regulations came from. They came 
from the FRA, either of its own promulgation or under a mandate 
by Congress.
    So your question is relevant. Congress does play a role in 
this. We think the Safe Freight Act is a step in the right 
direction. If FRA will not get involved in the safe operation 
of long trains that affect all of our communities, and the 
ability to safely operate that equipment, like--as I said, when 
they exceed the technology that is in place today, FRA should 
take an interest. Congress should take an interest.
    So I think there are steps that you can take that would 
direct FRA, as the safety regulator in our industry, to 
actually do what its mandate is, and regulate.
    Mr. Lipinski. Mr. Previsich?
    Mr. Previsich. Yes, thank you. The Safe Freight Act is very 
important. It has been in progress for quite some time now. It 
stagnates. People have worked against it, things have worked 
against it. But now we have what I believe is a watershed 
moment with the May 23rd directive from FRA, which not only 
withdrew their Notice of Proposed Rulemaking, it also did a 
couple of other things that have just as much significance.
    To begin, we have already heard some that it is an attempt 
to preempt State laws, where the States have stepped in and 
believe that they should regulate at a higher level than no 
regulation at all. And by not regulating, FRA has declared that 
that means that no regulation is either needed or permitted at 
the State level. Congress needs to take a look at that.
    In addition, another very serious communication that was 
buried in that May 23rd notice was the decision to not oversee 
artificial intelligence or autonomous operations. Every mode of 
transportation in the country has oversight over the 
development and implementation of these systems, because they 
are so safety critical.
    Anyone with reasonable sense can see that trains with 
hazardous materials moving down the track with reduced crews, 
with some software version of artificial intelligence similar 
to the Boeing 737 MAX, needs oversight. It needs oversight in 
the development, the implementation, and ongoing modifications 
inherent in moving to more automation.
    And more automation means more task saturation for the 
people on the train. It is one thing to drive a train the way 
that all of us have driven them for a number of years. Now the 
systems are becoming so complex. The interaction required for 
Positive Train Control, for example, did not ease the burden on 
the operating crew, it increased the burden on the operating 
crew.
    Congress I would like to see step in and address simply 
those issues. There are other issues, and you can read them in 
my written submission. But those issues, as a result of the May 
23rd notice to withdraw the rulemaking, all need to be 
addressed. And it needs to be addressed timely. Letting the 
Safe Freight Act sit while there was a rulemaking in place was 
one thing. Withdrawing the rulemaking emphasizes the importance 
of moving forward on these issues by Congress, because FRA has 
exhibited----
    Mr. Lipinski. Thank you.
    Mr. Previsich [continuing]. They are not going to do that. 
Thank you.
    Mr. Lipinski. Mr. Boles, anything you want to add?
    Mr. Boles. I would like to say I think my organization 
thinks a little different in relation to safety, but I would 
emphasize that the regulations in place for roadway worker and 
highway-rail grade crossings, it is essential that we keep 
those in place.
    I don't know if you heard Mr. Batory talk about the safety 
enhancements at rail grade crossings, and the bungalows that--
well, that is true, to a degree. We are getting better 
equipment out there. But it should be used to enhance safety, 
not replace the workers that are doing the required tests and 
visual inspections of these crossings. It is detrimental to the 
traveling public, and, you know, we believe that, without these 
regulations, we are going back to a time that we don't want to 
be.
    Mr. Lipinski. Thank you. Mr. Sandberg, anything you want to 
add?
    Mr. Sandberg. Yes, I would just like to maybe just hit it 
again.
    Mr. Batory mentioned that if--you know, PSR would be 
essentially safe, if the law was followed. And that is what we 
think that Congress can do, is get the FRA to enforce the law, 
enforce what their regulations are. And part of the--what is 
happening with our membership is they are working--one person 
is working on a shift by themselves, being required to do the 
work of a number of people, sometimes three or four people. And 
this is what is causing them to have issues at work, being 
forced, like I said, 12 or 16 hours a day to work. Plus, you 
know, to do work that is not familiar to them, that they have 
never been trained on, but they are now required to do it, 
because the workers that used to do it are now furloughed.
    Mr. Lipinski. Thank you. I am way over time here, so with 
that I will yield back, and I will yield to Mr. Crawford.
    Since I took 8\1/2\ minutes, if you want that much time, 
you can have it.
    Mr. Crawford. I probably won't use 8 minutes, but we will 
get started, anyway.
    Mr. Jefferies, if you would, can you outline what some of 
the railroad's capital expenditure priorities are?
    Mr. Jefferies. Sure. So when it comes to investment back 
into the network, maintenance is always first, because you have 
got to maintain what you have to make sure it is operating at 
the highest level. And I am certainly proud to say that the 
network is in phenomenal shape, the best in its history, as I 
mentioned in my opening statement. And then you are looking at 
CapEx expansion, et cetera.
    Another place railroads are devoting significant 
resources--and I mentioned in my written statement--safety 
advancing technologies. We are deploying a suite of detection 
units, inspection units, that are significantly more sensitive 
than traditional ways of doing things. They have the ability to 
look inside a track, for example, to identify areas of 
potential fatigue before they become problems. And we believe 
that makes sense.
    And when we are talking about the regulatory scheme, we are 
really talking about regulatory modernization. If there are 
new, more sensitive, more safety advancing methodologies of 
achieving regulatory mandates, those should be encouraged, and 
railroads should be given the opportunity to demonstrate those.
    Mr. Crawford. I am going to get back to technology here in 
just a minute. I wonder if you could comment on what some of 
the factors are that influence railroad staffing numbers.
    Mr. Jefferies. Sure. Thank you for that. You know, by and 
large, you look historically throughout railroads, it is driven 
by traffic demand. You chart traffic demand against overarching 
bargained employee employment, it charts pretty closely 
together.
    Now, are there going to be areas where that diverges? 
Absolutely. Have some railroads furloughed employees this year 
for one reason or another? Yes, there are accounts of that. We 
also have railroads that are looking to expand their employee 
base this year. But, by and large, it is driven by demand over 
the long term, and will continue to be so.
    Mr. Crawford. Let me get back to technology a little bit. 
Obviously, there have been developments, and they tend to occur 
at an exponential rate, as technology improves, technology 
improves. In recent decades--and we have seen a lot of 
tremendous gains throughout the whole economy, not just in the 
rail industry--let me ask you this. Can you provide some 
examples of how technology is being used in the rail industry, 
and the impact that it is having?
    Mr. Jefferies. Absolutely. So, it is obviously penetrating 
every industry, not only the rail industry, but every industry 
throughout our economy. And there are enormous opportunities 
there, also, issues that need to be managed.
    Positive Train Control is a huge issue that has been on the 
front burner for some years now, and I am proud to say that the 
industry has achieved almost full operation across its required 
network.
    But again, to hit on other technologies out there, track 
inspection, continuous rail monitoring, locomotive inspection, 
we are able to gather enormous amounts of data as we are 
operating right now through our various inspection tools and 
detection tools to generate an overarching picture of the 
health of the railroad that, in turn, can be used using 
predictive analytics to identify potential trends as they 
arise.
    And again, identifying problems before they become 
problems. And again, that is going to result in a higher level 
of safety throughout the network.
    Mr. Crawford. Thank you, I appreciate that. We had a 
hearing here, oh, it is a week or two ago, and a topic came up 
that I think might be of interest to you, Mr. Boles, Mr. 
Sandberg, maybe other members on the panel, as well.
    Obviously, as union representatives, I know your primary 
focus is to protect the well-being of your members. But I am 
just wondering how you feel about Chinese state-owned 
enterprises operating in the United States, particularly one 
that has won four transit contracts in major U.S. cities. It 
has been known to manufacture faulty cars, including many that 
were delivered to Singapore, two or four original cars 
delivered in Boston. So not just overseas, but here in the 
United States.
    Aside from the quality concerns, the smart car technologies 
could be used to spy on those operating the cars and passengers 
riding on the cars. Are you or your membership concerned about 
either product quality or the ability of Chinese state-owned 
enterprises to engage in what really amounts to espionage and 
monitoring coming and going of passengers, and even in freight 
rail? Either one of you two want to take a crack at that?
    Mr. Sandberg. Yes, I will do the best I can with the 
question. That is not really what we were here today to answer.
    But the fact is that these Chinese companies, or this one 
Chinese company in particular, has won a lot of bids to make 
railcars, to make subway cars for the United States to use. And 
whether or not they--I mean I think that there could be. There 
is a possibility there for some type of--I think what you are 
asking is can they spy on us like that, using those cars, 
something from them, right? Especially if something like that 
was to be used in this area.
    Mr. Crawford. Certainly I think that is----
    Mr. Sandberg. That is definitely a possibility.
    Mr. Crawford. Oh, that is definitely a possibility. And 
that is really kind of ancillary to the question of--I guess my 
primary question is to you, as an advocate for your membership. 
Are you concerned about a state-owned entity of China 
introducing substandard products into the United States market? 
How does that impact your workers, your members, your 
colleagues, you, and I am asking you that as a representative 
of the people that you work with, number one. But then, as an 
American citizen, do you have some concerns about, not only 
that, but their ability to act in an illicit manner to 
essentially spy on a U.S. industry, the comings and goings of 
passengers--and ultimately, I think their goal is to capture a 
significant market of freight rail, and then monitor our 
freight movement.
    Does that concern you, as an American? Does it concern you 
as a representative of workers who are turning out a quality 
product?
    Mr. Sandberg. It does concern us, but it is more so on the 
manufacturing side.
    Mr. Crawford. Sure.
    Mr. Sandberg. That would concern us. And we do have people 
that manufacture cars, and it makes it very difficult for them 
to produce the railcars at a profit.
    Mr. Crawford. Right. And then, of course, you guys working 
in the jobs that you do, you talk about safety. If there are 
substandard products out there, Mr. Boles, any concerns about 
that?
    Mr. Boles. Well, certainly, as a labor union we support, 
you know, Buy American, Made in America. I mean certainly we 
want that any chance we get. But, yes, substandard work always 
concerns us. We believe that we put out a quality product. We 
don't necessarily manufacture things, but, you know, other 
people should be held to that standard, too.
    Mr. Crawford. I would agree with that. I appreciate that, 
gentlemen, thank you for being here, and I yield back.
    Mr. Lipinski. Thank you. The Chair will now recognize Mr. 
Malinowski for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    I am going to start with a question for you, Mr. Previsich. 
In your testimony you noted that Positive Train Control, for 
all of its benefits, cannot cut a road crossing, spot a 
terrorist, back up a train, make an air test, nor can it secure 
a train. And I think you hit there on something very important, 
not just with respect to what we are discussing here in the 
railroad industry, but one of the fundamental issues that we 
are going to be facing as a country, as an economy in the years 
ahead, and it is a complicated one: To what extent do we allow 
machines to replace people?
    And I hope we can agree that, just because something can be 
automated, doesn't mean that it should be. Some cases we should 
go there, some cases maybe not. So I wanted to ask you if you 
wanted to elaborate a little bit more on that theme, on the 
importance of having human beings on board a train to do what 
technology either cannot do or should not do.
    Mr. Previsich. Yes, thank you. And I do concur with your 
comments on maybe we should, as a society, take a look at is it 
desirable. Just because we can, does that mean we want to? And 
I will use autonomous operations as an example.
    For years now, years, we have been working on autonomous 
cars. They are always going to be here next year, you are going 
to see them driving around on the roads. That was 3, 4, 5 years 
ago that we first started hearing about that. It is not yet 
implemented today. That autonomous automobile cannot tell the 
difference between the box on the side of the road or a baby on 
the side of the road.
    And with respect to train operations, there is a feel for 
operating a train that comes from years of experience that 
can't be duplicated. Even though there may be technology that 
comes to the forefront that will start a train at point A, take 
it down the track, and stop at point B, that is good, but there 
are a lot of things that happened during that trip, the 
intervening time between point A and point B. A well-rested 
operating crew is observing thousands of things. They are 
handling multitudes of tasks, obligations.
    And in addition to that, no one has ever successfully 
explained to me how a train blocking a crossing with the 
ambulance on one side and the hospital on the other can either 
cut itself in two so that the ambulance can get through, or 
even with one person, how they managed to do that.
    Just because technology may permit something to happen 
doesn't mean that we, as a society, need for it to happen.
    Mr. Malinowski. Thank you. You heard my question to Mr. 
Batory about the 3-mile train, and how long it would take a 
single operator to walk all the way back. What did you think of 
his answer, that if he is a good walker, maybe in 2 hours he 
could go back and forth, and that is just fine. Is that fine?
    Mr. Previsich. It is even more complicated than that. It 
may take 2 hours to walk from one end to the other, but that 
doesn't account for whatever reason is evident for you making 
that walk. It doesn't account for doing it in Minnesota in the 
wintertime, in Arizona in the summertime. It doesn't account 
for the fact that maybe some work needs to be done partway down 
the train, if not at the very end of the train. And that work 
being--let's cut the crossing, for example. Well, one person 
can't do that. The engineer is up on the head of the train, 
waiting to take direction from his team member, the conductor, 
who is actually onsite, doing the work at the location in the 
train that it needs to be done.
    It is unreasonable and unworkable to suggest that we are 
not going to block crossings, that breakdowns and occurrences 
are never going to happen, and that, if they do, either one 
person or autonomy can handle the situation out there.
    Operating a train 3 miles long through communities with 
hazardous materials is a big deal. Yesterday we saw a 
derailment in Nevada. Someone had the idea that maybe they 
should put a munitions train onto a regular train that had 
hazardous materials in it, and put empties in the middle. Now, 
if you know anything about railroading, you don't do that. They 
did that.
    It is something that, again, the demands of operating a 2-
mile-long train--3-mile-long train is ridiculous, but a 2-mile-
long train or less, those demands require two people on the 
crew, and that is--yes, I have been doing this for a long time. 
I can testify in front of any forum that it is essential that 
we do crews that can adequately operate the train in a safe 
manner, that the employees are not at risk, and that the public 
is not at risk.
    Mr. Malinowski. Thank you, Mr. Chairman. If I could have 
just a moment to ask one question on the--yes, thank you.
    I wanted to ask you, Mr. Jefferies, on the LNG issues, 
because my understanding is that you support allowing LNG to 
move on these 113 cars. I asked this question to Mr. Batory, 
and to say that he did a miserable job justifying it would be 
an understatement. So I am going to give you a chance.
    Mr. Jefferies. In 2017 the AAR filed to Pipeline and 
Hazardous Materials Safety Administration, PHMSA, to have LNG 
be added to the list of authorized materials that it is allowed 
to transport. We haven't gotten any action from PHMSA since 
that date, but we certainly support that proposal, and would be 
happy to come in and brief you on the basis for that.
    Mr. Malinowski. You heard Chairman DeFazio's comments and 
my question. You have no safety concerns about 100-car trains 
carrying this substance in cars that can contain 4 times as 
much as is currently allowed?
    Mr. Jefferies. Railroads are going to operate any trains 
they operate at the highest level of safety. And we stand by 
our proposal in our filing in 2017 of PHMSA.
    May I respond to your prior question?
    Mr. Malinowski. Of course.
    Mr. Jefferies. So I think, you know, there is a lot of talk 
about 2- and 3-mile-long trains. If you look at the data, the 
average train length in this country right now is 6,000 feet. 
It has hovered around that since 2010.
    Of course, there are longer trains out there, no one is 
denying that. I think all the railroads have been public about 
trains upwards of 15,000 feet in certain limited circumstances. 
And not to say trains, you know, may not grow beyond 6,000 
feet, but I think that there is a lot of data that is thrown 
around, or a lot of points that are thrown around there that 
aren't backed up by data. And I think it is important to make 
that point.
    But regardless of train length, the railroad is going to 
operate to the highest level of safety on infrastructure that 
can manage that. And----
    Mr. Malinowski. Regardless of train length? So, I mean, 
that is just sort of a blanket statement. It is easy to say, no 
matter what the length of the train, no matter what we do, we 
will always operate at the highest level of safety, and yet you 
are suggesting there is no relationship between the objective 
fact of how long a train is, or how many people are on the 
train manning it and ensuring safety. You expect us to be 
satisfied by that blanket assertion.
    Mr. Jefferies. I am saying railroads are going to operate 
to the highest level of safety, regardless of train length, and 
they are going to operate train lengths that are appropriate 
for their infrastructure, and----
    Mr. Malinowski. We are trying to determine what is the 
appropriate length.
    Mr. Jefferies. I am not in that--I am not the one who makes 
that decision.
    Mr. Malinowski. Well----
    Mr. Jefferies. But----
    Mr. Malinowski. Maybe we are. So we will take it from 
there. Thank you.
    Mr. Jefferies. And to your point on number of folks in the 
cab, our point is that it doesn't make sense to mandate current 
operating practice in perpetuity. Having two individuals 
physically located inside the cab of a locomotive at all times, 
there--this FRA is on record stating there is no safety basis. 
The prior FRA, in its preamble to its rule, said they have no 
data to show that two is safer than one. NTSB sat in this 
hearing room in 2016 and said they had no data to show that two 
is safer than one. So that is not our data, and we have trains 
operating all over this country right now. Most Amtrak trains, 
commuter trains, and short line trains often operate with one 
in the cab. Our point is it doesn't make sense to mandate 
current operating practice in perpetuity.
    Mr. Malinowski. Well, it strikes me as common sense, but we 
will continue the conversation. Thank you.
    Mr. Lipinski. The Chair now recognizes Mr. Babin for 5 
minutes.
    Dr. Babin. Thank you, Mr. Chairman. I want to thank 
everybody for being here, I appreciate your expert witness 
testimony.
    My first question is for Mr. Jefferies. I am the cochairman 
of the House Border Security Caucus, and I think addressing the 
national security, public health, and humanitarian crisis at 
our southern border is--if not the--one of the most pressing 
challenges that our homeland faces today by a mile.
    I also recognize that having complete operational control 
of our ports of entry, including our cross-border rail lines, 
is just as important as a physical barrier to secure our 
borders and, by extension, our very sovereignty.
    The challenges faced down at the Laredo, Texas, rail border 
crossing seem unique, since the rail border crossing is on a 
single track bridge over the Rio Grande River. But I assume 
that it cannot be the only challenging border crossing rail in 
our country on the southern border. Ensuring that this port of 
entry and others works efficiently is critical to our economy. 
And, as a Texan, I know that better than most.
    But ensuring that we know exactly who is going back and 
forth, why they are doing it, how long they will be here, and 
that they don't pose a threat to American citizens is 
absolutely essential for our national security. What are your 
thoughts on how we can improve on both?
    Mr. Jefferies. Sure, absolutely. Thank you for that 
question.
    So you are right, that the situation on the border, on the 
southern border in Laredo, is unique on the southern border. 
There are, I believe, six ports of entry at the northern border 
that have had similar situations for about 20, 25 years, during 
which a Canadian crew brings a train across the border, and 
then does a crew change once inside the border.
    What we are talking about on the southern border is 27 
Mexican crewmembers who have been vetted by DHS, they are 
subject to FRA regulation, they are subject to drug testing. 
And prior to this agreement being put into place, crew changes 
were required to take place on the bridge over the Rio Grande. 
Under the new agreement, the Mexican crews take the train about 
9 miles--after performing a brake test on the bridge, take the 
train about 9 miles in to the yard in Laredo, switch out there, 
and switch into a southbound train, which is allowed to proceed 
back into Mexico.
    It has opened up not only capacity on the network, it has 
freed up up to 14 block crossings in the town. It is our 
understanding the community is supportive of this. And I should 
also point out that U.S. jobs have actually been added to in 
the rail yard because of this, because of the increase in 
velocity that has occurred.
    Dr. Babin. OK, great. Thank you. Thank you so much.
    My next question is for each panelist. Answer yes or no. In 
your opinion, have you or your association ever negotiated 
anything that was unsafe?
    Mr. Pierce?
    Mr. Pierce. No.
    Dr. Babin. OK, Mr. Previsich?
    Mr. Previsich. I am sorry, would you repeat the question?
    Dr. Babin. Have you or your association ever negotiated 
anything that was unsafe?
    Mr. Previsich. Yes.
    Dr. Babin. The answer is yes?
    Mr. Previsich. Yes, sir.
    Dr. Babin. OK. Mr. Boles?
    Mr. Boles. No.
    Dr. Babin. Mr. Sandberg?
    Mr. Sandberg. I am not sure, but I would guess that we 
probably have.
    Dr. Babin. That you have? OK.
    Mr. Gonzalez?
    Mr. Gonzalez. No.
    Dr. Babin. OK, Mr. Jefferies?
    Mr. Jefferies. No.
    Dr. Babin. OK. Thank you all very much. And I yield back, 
Mr. Chairman.
    Mr. Lipinski. Thank you, and now the Chair will now yield 5 
minutes to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. This is really not my 
question, but Mr. Jefferies--I have to correct the record. He 
said that one person--that the FRA found that one person was as 
safe as two, the one-person crew was as safe as a two-person 
crew. What I had earlier quoted from, the 2016 NPRM FRA, that 
the agency had studies showing the benefits of a second 
crewmember and other information detailing the potential safety 
benefits of multiperson crews.
    In addition, qualitative--the sole crewmember with tasks, 
and that PTC does not substitute for all the tasks performed by 
properly trained conductors. I just want to put that in the 
record, because I think it contradicts what you said. That is 
really----
    Mr. Jefferies. May I respond to that?
    Ms. Norton. You may, but quickly.
    Mr. Jefferies. I will just say----
    Ms. Norton. That is not really my question, I just----
    Mr. Jefferies. I will just say the FRA did rely on 
qualitative studies, but also said that it had no data to 
support that two was safer than one in the preamble to----
    Ms. Norton. Well, I don't want to argue with you, but I 
don't think that the FRA comes out with that kind of a 
definitive with having ``no data.''
    In other words, no data, that is your opinion. I don't 
think the FRA would say it had no data.
    Here is my question. I am going to have to ask Mr. 
Jefferies to respond for Amtrak, since we don't have Amtrak 
here. But he does represent the association. And it is really a 
question for you and for Mr. Gonzalez. I was really troubled 
about Mr. Gonzalez's testimony, because he said that Amtrak had 
needlessly purchased new 9mm handguns this year, when it had 
already purchased .40 caliber handguns just 3 years ago.
    In light of the cost cutting measures that Amtrak is 
experiencing, I wonder if you think, Mr. Jefferies, the 
purchase of handguns so soon after having purchased them 
reflects the priority of the industry.
    Mr. Jefferies. Congresswoman, I have to admit I am not 
educated on the handgun purchase issue. I would be happy to get 
my associates at Amtrak to come in and brief your staff on 
that. I just don't have a good reading on that.
    Ms. Norton. Well, better than that, I would like you to 
submit an answer to my question from your association member, 
Amtrak, so that we can----
    Mr. Jefferies. Absolutely.
    Ms. Norton [continuing]. Put it in the record.
    Mr. Jefferies. I will be glad to, thank you.
    Ms. Norton. I will have to ask Mr. Gonzalez further about 
that.
    How often, in your experience, does the police force 
typically upgrade equipment like handguns? Was that unusual, as 
far as you were concerned?
    Mr. Gonzalez. I know when I got hired in 2010 they had 
issued me an older weapon. And a couple of years after that, 
that is when they upgraded us for some--the most recent----
    Ms. Norton. So they put priority----
    Mr. Gonzalez [continuing]. The 40----
    Ms. Norton. They put priority on purchasing handguns?
    Mr. Gonzalez. I mean not really, as far as I know. I know 
these new 9mm weapons were a surprise to us. And that was one 
of our questions was why are you spending so much money on new 
weapons, when we just recently purchased----
    Ms. Norton. And----
    Mr. Gonzalez. Every officer received their own weapon, so--
--
    Ms. Norton. Yes----
    Mr. Gonzalez. It was a----
    Ms. Norton. Received their own weapon. So, you know, boy.
    Mr. Gonzalez. Yes.
    Ms. Norton. Are there increased safety concerns that 
require the use of weapons at Amtrak? I need to know, because 
this is----
    Mr. Gonzalez. I mean we have never--I mean----
    Ms. Norton [continuing]. Where Amtrak starts.
    Mr. Gonzalez. Sorry, but I think, as far as the police 
department as a whole, I don't know how many shootings we have 
had for them to upgrade or--downgrade for us, because a .40 
caliber weapon has a little bit more power than a 9mm, and they 
decided to go with that.
    Ms. Norton. Mr. Jefferies, in the absence of Amtrak, I 
would also like you to submit again to the chairman an 
understanding of this frequent upgrading of handguns, why that 
is necessary. I mean, I know nothing about handguns, Mr. 
Gonzalez doesn't indicate he does. But when we are looking at 
safety officers, for example, just their presence increases 
safety. So somebody is over at Amtrak who is fascinated with 
handguns.
    I have a question, another question, for you, Mr. 
Jefferies. Impressively, the freight shipments are increasing, 
according to my information, from over 17 million tons in 2017, 
to 24 million tons by 2040. And we have had a lot of discussion 
here about workforce versus technology.
    And I want you to--I want to go on record just saying I am 
not a Luddite. I think there is no question that our country 
and this Congress has to prepare for the day when technology 
and machines, just like we had to prepare for the day when we 
would not be using as much manpower in the future. So I don't 
want to say that that shouldn't happen.
    I do understand and appreciate the concern for safety that 
we have heard here from others on the panel, but I must ask. Do 
you see the workforce increasing, when we see this 
extraordinary increase, 17 billion tons to 24 billion tons, in, 
you know, a little over 10 years? Do you see the workforce 
increasing, as well, or do you see employees being replaced by 
technology with this very substantial increase in business?
    Mr. Jefferies. I absolutely see a major workforce role, as 
we move forward. I mean you pointed it out: we are going to 
have a huge increase in demand for freight movements in this 
country that we are going to be able to need to meet. And it is 
incumbent upon all of us at this table to work together to 
figure out the best ways to do that. And it may require 
changing roles at the end of the day. I can't say. But I can 
say that, you know, this is something we should all be working 
towards together about how to best meet that demand and serve 
the economy.
    Ms. Norton. Well, is the association working with the 
concerns we have heard here about safety and technology? We are 
very interested in the uses of technology.
    And, as I indicated, we don't think anything could be done, 
even if we wanted to. You can't stop technology. I mean I drive 
a hybrid, I would like to drive an automatic car, too.
    So I don't--but I want to know how the industry can address 
the concerns of the workers, so that you don't have this 
constant concern that it is simply a replacement of a person 
for technology. There go the jobs, and there is nothing we can 
do about it. And to what extent are ongoing discussions going 
on, so that there is agreement?
    And I should pose that, as well, to others on the panel, so 
that there begins to be an agreement, instead of constant 
controversy as technology becomes real.
    Mr. Jefferies. So I think that is actually one really 
positive thing about this industry, is that we are a fully 
collectively bargained industry, largely.
    Ms. Norton. Yes.
    Mr. Jefferies. And that we are all at the table together. 
You know, it is going to require all of us to be at the table 
together. And in fact, we are required to all be at the table 
together to work through issues like what you pointed out, as 
far as the shape and look of the workforce of the future. So--
--
    Ms. Norton. Can I ask you--have you all been bargaining 
collectively about technology with some satisfaction, so that 
you believe that this will happen in conjunction with how the 
workers understand why it is happening, and without simply 
offloading of workers for technology?
    Yes, sir.
    Mr. Previsich. We have a history of bargaining with respect 
to technological improvements, and have gone along with 
industry movements for 40 years, 50 years, now. As things get 
better, from going steam locomotive to diesel locomotive, 
things such as that, we are with you. We are not Luddites. We 
get it.
    The challenge is that, along the way, we don't want safety 
to be compromised by lack of regulatory oversight. There is a 
minimum standard that needs to be maintained. The industry, in 
and of itself, cannot be relied upon to do that. There needs to 
be some regulatory oversight responsibility to help us get to 
the right place. We can't do it on our own.
    Ms. Norton. Well, I--it is the best argument I have ever 
heard for collective bargaining, that if, in fact, workers sit 
down with industry, and can engage in collective bargaining, 
then I would feel that we are not the last chance for safety, 
that the last chance, as always, relies with fruitful 
collective bargaining.
    And thank you very much, Mr. Chairman.
    Mr. Lipinski. The Chair now recognizes Mr. Lynch for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman, for holding this 
hearing. I really appreciate it. Great topic. I want to thank 
all the panelists for your cooperation in helping the committee 
with its work.
    President Pierce, I just want to start--I want to go back 
to the situation on the Mexican border. It is my understanding 
from your testimony--and I think it was elaborated on by Mr. 
Jefferies--so on the southern border Mexican trainmen can come 
over the border, and then they change up. Is that right, about 
10 miles over?
    Mr. Pierce. They operate a train across the bridge into the 
Laredo yard, which was approximately, I think, 9\1/2\ or 10 
miles into the States. They then, if there is a train 
available, get on an outbound-train going into Mexico, and 
operate it back across the bridge going south, work that we 
used to perform.
    Mr. Lynch. Yes. So you used to perform that work?
    Mr. Pierce. Until July of 2018. Since 1920, yes.
    Mr. Lynch. Yes. So what about U.S. train employees? Are we 
allowed to go into Mexico?
    Mr. Pierce. No, the original NAFTA language had what is 
called an annex in it that prohibited American citizens from 
operating trains in Mexico. It has been in place since NAFTA 
was adopted. It is also included in what has been called NAFTA 
2, going forward, at the request of the Mexican Government.
    Mr. Lynch. And we didn't ask for a reciprocal from--Mr. 
Lighthizer and our team, did we not ask for reciprocal 
language, so that U.S. workers would be treated the same way?
    Mr. Pierce. Despite our efforts, both with the White House 
and the Ambassador of Trade, no. It is not included in the 
current language. That is why we have asked that Congress 
consider adding it when it comes to your desk.
    Mr. Lynch. I know that the--and I would be happy to sponsor 
that amendment, by the way, and that legislation to straighten 
that out.
    So I know you are an international union, you have got the 
Canadian flag on your logo. So you have got--on the Canadian 
border, what is the situation there? You got members on both 
sides, right? You have got----
    Mr. Pierce. Members----
    Mr. Lynch [continuing]. Members of the union that are in 
Canada, and members of the union here in the United States, is 
that right?
    Mr. Pierce. Yes, there is an affiliate of the Teamsters 
called the Teamsters Rail Conference Canada that represent the 
rail employees north of the border. They are a sister 
organization to us. They were previously part of our 
organization. All of the border crossings on the Canadian side, 
if there are any cross-border activities, are negotiated. They 
were not imposed. The parties have come to terms on how those 
trains would be interchanged on the Canadian border.
    There was one case where Canadian Pacific attempted to run 
American crews into Canada 100 miles. That case was arbitrated, 
and the Canadians won, and that operation was stopped. It is 
back at the border, as it originally was.
    Mr. Lynch. I see, OK.
    Mr. Jefferies, in my district we have had a flurry of 
derailments. We have got a commuter rail operator up there that 
has had some--a run of bad luck, I guess. And I want to ask you 
about PSR, and about the impact that that might have on capital 
expenditures, or capital investments on the part of some of our 
operators.
    We have got an older system, I think, in Massachusetts, in 
the Boston area. And we have got a lot of bridges that are 
deficient. And we are going to try to address that in this 
transportation bill coming up.
    But what is the--is there an impact, is there a drawing off 
of resources? And I know that these carriers are all trying to 
save a buck. And, obviously, they want to--and, by the way, a 
6,000-foot train, that would be a over 1 mile, right? So you 
would be operating a train over 1 mile long, and that is sort 
of the average. That seems like a long way for--I am just 
trying to think----
    Mr. Jefferies. I would say that has been the average for 
almost 10 years now.
    Mr. Lynch. Yes, that is a long way for one person, right, 
to get out, walk to the end, walk back. I mean that is a hike. 
Meanwhile, you got every crossing closed off while you are 
doing that. And, God forbid, if it was natural gas tankers 
stacked up for 1 mile, that is--I don't know, maybe I am just--
look, I am new on this committee, but that seems like a pretty 
dangerous situation. I am not so sure that I agree with Mr. 
Batory, that that is just the way things should be. It just 
doesn't seem right.
    But let's go back to the other question on investment, 
capital investment on rail. What impact do you think PSR has 
had on that, on capital expenditures and capital investments?
    Mr. Jefferies. So I can tell you in recent years Class I's 
have averaged about $25 billion back into their networks. They 
are doing that again this year. It is about $480 million a 
week, private capital back into the networks. I have not heard 
that, you know--historically, I think railroads average around 
17 percent revenue back into their networks, which is orders of 
magnitude higher than comparative industries.
    Look, railroading is a capital-intensive industry. It 
doesn't matter what kind of operating plan you are running. And 
each railroad is operating the plan they think works best for 
it. But the fact of the matter is that there is a lot of 
maintenance and a lot of capital intensive requirements out 
there. And those aren't going away.
    So I think it is safe to say that that commitment to 
investment is going to stay.
    Mr. Lynch. Yes. Let me just ask you this last question, and 
I am closing, and I appreciate your indulgence, Mr. Chairman.
    So train traffic and volume has dropped, I think, 23 weeks 
in a row.
    Mr. Jefferies. Yes.
    Mr. Lynch. And meanwhile, we are dealing with all kinds of 
truck traffic, and highways are all clogged up. Do you have any 
idea what is causing that slack, I guess, in rail traffic? 
Because volume is down about maybe 8\1/2\, 10 percent.
    Mr. Jefferies. So I think if you look at some of the 
weather events that have occurred throughout the country, 
throughout the winter, throughout the spring, the Midwest has 
suffered a number of severe events. Those are going to impact 
the ability of freight to move.
    I will say that the railroads and their employees do a 
phenomenal job of getting their systems back up and running. 
But that has certainly impacted ag movements.
    Trade issues certainly don't help, uncertainty about trade. 
You know, 42 percent of our goods, our international movements, 
are based on international movements. So we want free, fair, 
positive trade deals, and want goods to flow. So, you know, it 
is a contributing factor out there, but, you know, the freight 
will come back, and----
    Mr. Lynch. We hope so.
    Mr. Jefferies [continuing]. We will be there to move it.
    Mr. Lynch. All right. Thank you for your indulgence, Mr. 
Chairman. I yield back, thank you.
    Mr. Lipinski. Thank you, Mr. Lynch. I would like to thank 
all the witnesses for your testimony today.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    And before I conclude, I just wanted to say these are 
important issues, as we have heard here, and our freight 
railroad system is the envy of the world. We need to make sure 
that it remains that way, and, most importantly, remains safe. 
And so that is what we are here for, that is what Congress, 
this committee, is committed to doing. And we are going to 
continue to look at these issues and act where we believe it is 
necessary for us to step in to help maintain that safety.
    So again, thank you for your testimony. With that, the 
subcommittee stands adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you Chairman Lipinski and Ranking Member Crawford for holding 
this hearing.
    The freight rail industry has a profound impact on our nation's 
commerce and economy, delivering on average 5 million tons of goods 
each day, and hauling approximately 35 percent of all U.S. exports. 
This vital freight link keeps us globally competitive.
    The Class 1 railroads support nearly 1.5 million jobs and $220 
billion in economic output, generating nearly $33 billion in tax 
revenue.
    Railroad jobs are good jobs, averaging $124,000 per year in 
compensation and benefits. The jobs are as varied as the industries 
rail supports, ranging from engineering and law enforcement to 
operations and information technology.
    The majority of the freight rail network is owned and maintained by 
the railroads. They invest an average of more than $25 billion, 
annually on capital expenditures to keep the trains rolling safely.
    This private investment also fuels innovation and new technologies 
that directly enhance safety. Innovations such as smart sensors and 
advanced analytics enable railroads to proactively inspect and repair 
the rail network before problems arise. Railroads also are implementing 
Positive Train Control technology, which will help to prevent certain 
types of accidents.
    According to 2018 Federal Railroad Administration (FRA) data, since 
2009, the train accident rate is down 10 percent, the track-caused 
accident rate is down 26 percent, and the employee injury rate is down 
16 percent.
    More can be done, and we should not stifle innovation that will 
lead to a safer and more efficient freight rail network.
    Thank you to our witnesses for coming today, and thank you again 
for holding this hearing.
    I yield back the balance of my time.

                                 
Statement of A. Bradley Mims, President and CEO, Conference of Minority 
  Transportation Officials (COMTO), Submitted for the Record by Hon. 
                                 Carson
    The Conference of Minority Transportation Officials (COMTO) is an 
organization established to ensure opportunities and maximum 
participation in the transportation industry for minority individuals, 
veterans, people with disabilities and certified MWDBE businesses 
through leadership training, professional development, scholarship and 
internship funding, political advocacy, partnership building and 
networking opportunities.
    Our members are individuals, students, transportation agencies, 
corporations, academic institutions, industry non-profits and 
Historically Underutilized Businesses (HUBs). We are the presidents and 
chief executive officers who determine the direction of major 
transportation systems and the mechanics and operators who ensure the 
safe passage of millions of transportation riders every day.
    Our membership includes significant representation from the 
railroad industry and the construction sector, and our primary focus is 
workforce development and specifically, inclusionary workforce 
development.
    Studies conducted by the Federal Railroad Administration, the 
Associated General Contractors and others, confirm that there is a 
national shortage of skilled labor and qualified workers in the rail 
and construction industries.
    As solutions and initiatives are developed to address these the 
issues of recruitment, training and retention, we believe it is 
essential that all industry partners have a role in shaping the 
workforce development models in which the country will invest and that 
minority shareholders--whose communities are uniquely at risk and whose 
futures are disproportionately at stake--have a voice at the table.
         workforce development initiatives/business development
    The rescission of the local hiring preference program will 
disproportionately impact minority businesses and communities. The 
MBDA, the EEOC the Office of Federal Contract Compliance, as well 
workforce development and training programs are all under assault. 
These essential programs must be preserved.
    COMTO strongly supports efforts to promote diversity and inclusion 
in the workforce as well as continued authorization and expansion of 
the Workforce Innovation and Opportunity Act (WIOA), as well as the 
MBDA, the EEOC and compliance oversight agencies. The WIOA program 
includes employment and training services for adults, dislocated 
workers, and youth through Department of Labor formula grants to 
states, allowing job seekers access to employment, education, training, 
and support services to succeed in the labor market and to match 
employers with the skilled workers they need to compete in the global 
economy, particularly as new technologies and industries emerge.
                        local hiring preferences
    In 2015, the U.S. Department of Transportation launched the Ladders 
of Opportunity Program, which enabled recipients of FTA and FHWA 
grantees, including states and local agencies, to utilize local labor 
hiring preferences and economic-based labor hiring practices (i.e., 
low-income), to evaluate competitive bid submissions. In January 2017, 
the FHWA announced its intent to extend the contracting initiative 
program through 2022.
    COMTO is troubled by the current Administration's decision to 
terminate the local hiring preference and the Ladders of Opportunity 
programs, which promoted workforce development, economic development 
and empowerment both for local governments and the neighborhoods where 
public transportation projects are located.
    One of the reasons cited for the rescission, according to the U.S. 
Department of Transportation's order, was ``the demonstrated minimal 
interest from intended participants under the two experimental programs 
and the inability to evaluate cost effectiveness based upon objective 
criteria under the . . . programs.''
    COMTO does not believe adequate time or attention was given to this 
evaluation to have reached this conclusion, and we urge Congress to act 
to restore the Local Hiring Preference and the Ladders of Opportunity 
Program, which account for jobs and business opportunities for the 
minority community.
federal railroad administration disadvantaged business enterprise (dbe) 
                                program
    Since the mid-nineties, the U.S. DOT has established a single DBE 
goal, encompassing firms owned by both women and minority group 
members.
    A participation goal of at least 10% for business certified by 
state unified programs is required for projects funded through the 
FHWA, the FAA and the FTA. With a budget of close to $7 billion, the 
FRA is the only major federal DOT agency omitted from the DBE program.
    COMTO strongly endorses an FRA program to allow DBEs to 
competitively participate in federally funded railroad projects. We 
urge Congress to require the U.S. DOT to resume and expedite the 
requisite disparity study and institute a DBE participation plan for 
that agency. This would mean millions of dollars for minority 
businesses and hundreds of jobs for communities.
    Thank you for your time and attention, and I look forward to 
discussing these and other issues at greater length with the committee 
members in the near future.
                                 
 Letter of May 22, 2019, from U.S. Senators Ron Wyden and Jeff Merkley 
to Union Pacific Corporation, Submitted on Behalf of the Brotherhood of 
      Railroad Signalmen, Submitted for the Record by Hon. DeFazio
                                                      May 22, 2019.
Mr. Lance M. Fritz
Chairman, President and CEO
Union Pacific Corporation, 1400 Douglas Street, Omaha, NE 68179

    Dear Mr. Fritz,
    We write to express our serious concerns with Union Pacific 
Railroad's (UPRR) recent layoffs of nearly 200 people and facility 
disinvestments. These UPRR decisions to reduce jobs at Hinkle Yard, and 
close the Hinkle Supply Warehouse and Mechanical Locomotive Shop in 
Hermiston, Oregon will devastate this rural community by hamstringing 
the economic opportunities and stability of the entire region. And they 
could create potential safety risks for the remaining employees.
    Since 1951, Hinkle Locomotive and Service Repair Facility has 
served the locomotive scheduled maintenance service and repair needs of 
UPRR's Pacific Northwest corridor. While we understand that affected 
employees among the potentially 195 positions to be eliminated have the 
right to bid and bump to other rail yards, the potential outmigration 
of much needed family-wage jobs in rural Eastern Oregon will do serious 
long-term damage to the local economy and local tax base.
    Earlier layoffs have already hurt rural agricultural producers and 
other shippers. Those shippers rely heavily on the UPRR to move goods 
to market, and they have reported to us difficulties reaching Union 
Pacific staff to resolve problems, or even reach a customer service 
representative.
    There are other likely troubling impacts from these UPRR decisions. 
Its failure to work with Oregon shippers could drive more 
transportation to already congested freeways and undermine Oregon's 
transportation infrastructure investments. And given that interstate 
loads of hazardous materials continue to travel through rural Oregon 
communities often during dangerous weather conditions, closing the 
Hinkle Mechanical Locomotive Shop would reduce oversight and inspection 
and increase safety risks.
    In order to better understand the impacts of these workforce and 
facility disinvestments, we ask that UPRR answer the following 
questions:
    <bullet>  How many workers of each classification have been laid 
off or forced to relocate, by Oregon county or facility? Please include 
train service, car and locomotive repair and maintenance, signal and 
track.
    <bullet>  How many of these workers were hired in the last three 
years?
    <bullet>  What investments has UPRR made in Oregon facilities in 
the last seven years? Have any of these investments been made at the 
Hinkle Yard?
    <bullet>  In the months since layoffs first started in October, has 
the Federal Rail Administration reviewed workers' safety concerns at 
Hinkle and other Oregon facilities?
    As UPRR adopts the Precision Scheduled Railroading model to reduce 
operating ratios, cutting rural workforce and facilities, there are 
many cautionary tales where this strategy has not performed well over 
the long term. We are deeply concerned about rural Oregon economies and 
your company's actions as it appears to risk destabilizing already 
fragile communities. While the company has substantial resources to 
reinvest and modify operations over time, many of these workers and 
their families are not so fortunate.
    We will look forward to your response to our questions and 
concerns.
        Sincerely,
                                                 Ron Wyden,
                                             United States Senator.
                                        Jeffrey A. Merkley,
                                             United States Senator.
                                 
  Report, ``Amtrak Policing Challenges 2019-2022,'' Prepared for the 
Amtrak Police Labor Committee, June 17, 2019, Submitted for the Record 
                            by Hon. DeFazio

AMTRAK POLICING CHALLENGES 2019-2022

Prepared for the Amtrak Police Labor Committee June 17, 2019
                                abstract
    This report describes the actual and potential impacts of a planned 
20% reduction-in-force of the Amtrak Police Department by 2022.

Prepared by: Countermeasures Assessment & Security Experts, LLC. Ernest 
R. Frazier, Sr., Esq. (Chief of Amtrak Police Department Ret.); Vincent 
A. Shipman and James W. Scutt, Project Officers.
                              introduction
    In May 2019, as part of a corporation wide cost cutting initiative, 
Amtrak management mandated that a 20% reduction in police department 
staffing take place prior to the close of FY2021. This staffing 
allocation would return the APD to pre-911 levels, representing a loss 
of more than 100 police positions. The reduction in associated hours 
totals approximately 208,000 per year of lost police protection.
    It is the position of the Amtrak Police Labor Committee that the 
performance of an independent risk-based, comprehensive police staffing 
and deployment study is required prior to any reduction in force that 
has the net effect of removing close to 25% of the police protection 
from the Amtrak system.\1\ This report concurs that the setting of 
arbitrary cuts without the benefit of in-depth analysis to determine 
operational impacts creates an unacceptable public safety risk for 
Amtrak's passengers, employees and other system users and stakeholders. 
Moreover, that based on this these actions, the safety and security of 
the Amtrak system may be compromised for years to come.
---------------------------------------------------------------------------
    \1\ There are on-going cuts at Amtrak that result in an even larger 
percentage of loss when compared to 2001, 2004 and 2015 staffing 
levels.
---------------------------------------------------------------------------
              passenger rail policing challenges post 9-11
    The role of the Amtrak Police changed forever when post 911 the APD 
became the front line of homeland security defense for the protection 
of the public who use or interface with the nation's intercity rail 
transportation system. Stated best in Federal Transit Administration 
publication, Security Design Considerations Guidelines (2004), a 
paradigm shift in prioritization occurred for personnel assigned to 
protect the nation's rail and transit passengers. Section 5.2.7 of the 
guideline summarizes that ``security force roles have (shifted) from 
crime prevention and safety to ensuring the security of the transit 
system and riders against attack.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Today's Amtrak Police have five primary protection accountabilities 
that must be continuously performed against a backdrop of operating 
factors that includes a 50% plus increase in ridership.\2\ Amtrak 
Police are responsible to provide greater and more failsafe public 
safety coverage to:
---------------------------------------------------------------------------
    \2\ According to the U.S Department of Transportation, ridership 
increased significantly from 2000 through 2015. The increase represents 
an approximate 47% or 10 million additional riders into the system. 
Ridership in 2017 and 2018 continued to rise, topping out at a record 
31,738,575, resulting in total revenues of $3.38 billion. Source: 
Amtrak Police Department Workforce Planning Process, submitted by 
Strategic Policy Partnership, LLC, December 2015
---------------------------------------------------------------------------
    <bullet>  Deter and prevent mass causality events such as terrorist 
attacks, active shooter events and relate crimes.
    <bullet>  Control crime and disorder in the Amtrak system, 
including violent and property crimes, as well as quality of life 
issues.
    <bullet>  Protect Amtrak property from theft, loss or damage.
    <bullet>  Maintain the trust and confidence of the public and 
Amtrak patrons, and employees in the system safety and security.
    <bullet>  Respond to situations such as medical emergencies, 
derailments, accidents, fire alarms, etc.
   linkage between amtrak policing, community policing and railroad 
                               operations
    Policing at Amtrak is unique and incomparable to any other police 
force in the United States and perhaps even the world.\3\ The 
overarching accountability of Amtrak police officers is to provide 
security blanket coverage at train stations and on-board Amtrak trains. 
Ask any train traveler and you will likely get confirmation that seeing 
an Amtrak Police Officer on duty in uniform is a major factor that 
influences their perception of safety. But Amtrak Police are also 
directly accountable to enforce both state and federal laws for crimes 
committed on or against Amtrak. Their authority has been legislatively 
enacted by the Congress of the United States.\4\ Often, they are called 
upon to perform similarly to municipal and transit police, enforcing 
criminal and traffic laws, and making a multitude of arrests on and off 
trains, in rail yards, and right of ways. Amtrak police officers today, 
also share the weight with other federal, state, and local police 
agencies, of protecting the homeland against terrorist attack and 
communities nationwide against the scourge of drugs or human 
trafficking. There are APD officers interspersed throughout the United 
States on counter-terrorism teams, including the FBI's joint terrorism 
task force, DEA interdiction teams, and other state and regional task 
forces. The APD maintains and makes available through mutual aid, one 
of the nation's largest K9 divisions per capita, with a concentration 
on explosive detection. The Amtrak Police Department is a dedicated, 
professionally trained, specialized force of officers whose level of 
expertise at railroad policing is unparalleled.
---------------------------------------------------------------------------
    \3\ In terms of accountabilities, the British Transport Police is 
perhaps the closest comparable force. BTP reports 8.6M users daily, 
protected by a police contingent of 3,069 police officers, 1,689 police 
staff, 300 special police officers and 362 community support staff.
    \4\ Created by Congress, Amtrak's enabling legislation under the 
Rail Passenger Service Act of 1970, now codified starting at 49 U.S.C. 
24101, established the authority for Amtrak to have its own police 
force. The statutory authority was unique at the time and included 
interstate police powers. (emphasis added). See also, 49 U.S.C. 24305.
---------------------------------------------------------------------------
    The following chart depicts the proposed cuts to the Amtrak Police 
staffing level. As can be readily observed the cost cutting reductions 
return APD to an authorized strength that ignores the current realities 
of policing at Amtrak, as well as the strategic and tactical public 
safety decision making that Amtrak senior management, and the APD have 
made over the last eighteen years \5\.
---------------------------------------------------------------------------
    \5\ In 2015 the Amtrak Police Department with approval from Amtrak 
management, contracted for the performance of a comprehensive Workforce 
Planning and Deployment Study. The May 19th, 2019 reduction in force as 
proposed, has supplanted and ignored the staffing levels recommended in 
the study. See, Strategic Policy Partnership, LLC, December 2015.
---------------------------------------------------------------------------
   amtrak pre 9-11 staffing vs. proposed 2019-2021 reduction-in-force
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          operational impacts
    Accurately determining the operational impacts of the proposed cuts 
without the benefit of a risk-based deployment study and analysis is 
difficult. However, there are snapshot anecdotal cases, as well as 
observable on-going changes in police deployment that are informative. 
Here are some recent facts that disclose the problems and underlying 
safety dangers and hazards that may increase exponentially if Amtrak 
continues its cost cutting plan to cut the police force.
    <bullet>  On March 20, 2019, the antiquated police radio system at 
Union Station in Chicago failed. Amtrak passengers and the minimal 
number of police on duty were placed into a dangerous, unsafe and 
unprotected condition.
    <bullet>  Eight days later there was a shooting in Sunnyside Queens 
NY. The one APD officer on duty was unable to get back-up from his own 
agency.
    <bullet>  On April 13th, the radio system in Chicago failed again.
    <bullet>  And dangerous drug traffickers continue to threaten the 
safety of the public who use the Amtrak system. On April 16th, more 
than 18 pounds of Fentanyl was seized from a suspect on a train in New 
Mexico. Seizures of Fentanyl, Heroin and other dangerous drugs on 
Amtrak are basically a daily occurrence.
    With over 300 daily trains covering 21,000 route miles in 46 states 
and the Nation's Capital, Amtrak's vast rail system is a critical 
element to our nation's economy and mobility. Amtrak has witnessed 
record ridership, yet the current police force has seen a decrease in 
positions by 7% since 2017. The Amtrak Police Labor Committee has 
observed the following on-going changes taking place as a result of 
staffing losses:
    <bullet>  Reductions in law enforcement service levels. This 
includes a reduction in detectives and investigators whose caseloads 
are increasing; reassignment of background investigations to patrol 
officers or K9 officers; and reduced hours of police coverage at Amtrak 
maintenance facilities.
    <bullet>  Reassignment of resources causing blanking of shifts and 
reductions in hours of station coverage. Stations and platforms left 
unprotected.
    <bullet>  Reductions in patrol hours are impacting the number of 
police officer self-initiated actions. Police officer response to 
quality of life issues and on location assistance to passengers and 
system users is declining.
    <bullet>  Passenger screening for explosives or other dangerous 
goods are being reduced and, in some cases, eliminated. Law enforcement 
officers assigned to screening teams in NY and Philadelphia have been 
reassigned.
    <bullet>  Special operations teams are absorbing additional work 
that impacts their readiness and performance.
    <bullet>  Counter-terrorism unit efficiency has been affected by 
reductions in staffing.
    <bullet>  Officer morale is becoming a serious issue. It is 
becoming more and more difficult to recruit in some cities.
    There are data indicators that suggest that in the future the APD 
will face increased accountability for the protection of the Amtrak 
system. APD's National Communications Center handled nearly 153,000 
incoming calls, many requiring a police response. On average APD 
officers are involved in well over 1,200 individual activities daily. 
Most of these calls are from stations or platforms and with the 
redeployment of resources many of these calls will result in either no 
response or a delayed response. Future predictable staffing impacts:
    <bullet>  APD staffing will fall below pre 9-11 levels. In fact, 
from 2017 to 2022 should these reductions in staffing take place, APD's 
total position loss will be down 27%.
    <bullet>  At certain locations there will be times when there is no 
police officer on duty who can respond to a call for service.
    <bullet>  Overall there will be a degradation in service caused by 
the lack of police coverage. Response times to calls for service may 
result in both unsafe operating conditions and unacceptable delays. For 
the New England Division in particular, police coverage at some 
stations will be eliminated. Total staffing in New England is forecast 
to be reduced by 50%.
    <bullet>  There will be a loss of capability to adequately and 
rapidly deploy ``surge'' forces to hot spots, special or national 
security events.
    <bullet>  Performance levels will fall because the span of control 
of Amtrak police supervisors will increase, while officer efficiency is 
decreased because training hours will necessarily be curtailed.
    <bullet>  The net effect of police force reductions generally 
results in difficulty recruiting employees at all levels throughout the 
agency for years to come.
    <bullet>  As regional detective and investigative units continue to 
be reduced, the number of case follow-ups, case closures and arrests 
will be negatively impacted.
    <bullet>  Security at rail yards and maintenance facilities will 
continue to see further reductions in law enforcement and security 
officer coverage.
    <bullet>  Once the reductions in staff are evidenced there is a 
significant probability that the system will experience an increase in 
criminal activity, as well as an increased potential for targeting by 
terrorists.
    <bullet>  APD's ability to maintain a robust Intelligence and 
information sharing capabilities with Federal, state and local 
intelligence units (such as Joint Terrorism Task Forces and State 
Fusion Center) will be impacted.
    <bullet>  There will be an increased risk of injury to police 
officers who are working with minimal or no backup. Additional lost 
time may further exacerbate unsafe conditions caused by staffing 
losses.
                               conclusion
    This report recommends that Amtrak conduct an in-depth staffing and 
deployment analysis of the Amtrak Police Department prior to the 
imposition of a series of mandated cuts to police positions. The 
detailed study should determine the operational impacts associated with 
Amtrak's planned cost cutting initiative that target reductions in 
staffing that represent close to one-fourth of the authorized strength 
of the department.
                                 <F-dash>
Study, ``Barriers to Innovation and Automation in Railway Regulation,'' 
 R Street Policy Study No. 175, June 2019, Submitted for the Record by 
                             Hon. Crawford

R STREET POLICY STUDY NO. 175

June 2019
      BARRIERS TO INNOVATION AND AUTOMATION IN RAILWAY REGULATION
By Ian Adams, Nick Zaiac and Caden Rosenbaum
                           executive summary
    Every day, the United States becomes more dependent on the timely 
delivery of vital goods and materials carried on the nation's rails. 
With that demand, the trains that haul these goods to all corners of 
the country are being subjected to ever-increasing pressure to satisfy 
consumer expectations. Fortunately, the U.S. rail industry and the 
multi-billion dollar infrastructure it supports \1\ is well positioned 
to capture the benefits of new technologies that will automate systems 
to improve safety and provide better value to consumers.
---------------------------------------------------------------------------
    \1\ ``Overview of American Freight Railroads,'' Association of 
American Railroads, October 2018, p. 4. https://www.aar.org/wp-content/
uploads/2018/05/AAR-Overview-Americas-Freight-Railroads.pdf.
---------------------------------------------------------------------------
    Yet, obstacles to the adoption and beneficial realization of 
automated systems remain. The first arises from groups that are 
applying pressure on lawmakers to pass crew size mandates that require 
at least two operators onboard, irrespective of technical needs. These 
laws are based on misplaced concerns about safety, particularly in the 
face of technological advancements like Positive Train Control (PTC), 
and understate the role that human error can play in railroad 
incidents, regardless of crew size.
    The second obstacle is perhaps more challenging to overcome, 
because it plays on a fear of the unknown--the effect of automation on 
employment. Indeed, the true animating principle for crew size mandates 
may not rest with safety at all. But, rather, is likely based in the 
misperception that railway automation, even where some form of human 
monitoring exists, will kill jobs in the railroad industry. While 
intuitively powerful, such arguments ignore economic precedent. 
Historically, the loss of some jobs through innovation also leads to 
job creation. Accordingly, creating a patchwork of state laws borne of 
that fear may ultimately disrupt the operation of the railroads that 
serve as a backbone of interstate commerce.
    However, while news from the states is bad, a recent move by the 
Federal Railroads Administration (FRA) to rescind its train crew size 
Notice of Proposed Rule-Making offers a clear path toward a uniform--
and innovation friendly--posture.\2\ This is because, as the preeminent 
regulator of rail safety in the nation, the FRA's pronouncement that 
there is no safety basis for a minimum crew size mandate,\3\ the 
reasoning of the now-rescinded NPRM,\4\ represents a solid example for 
states to follow, and potentially a case for negative preemption of the 
activity undertaken by the states to date.
---------------------------------------------------------------------------
    \2\ ``Withdrawal of Notice of Proposed Rulemaking: Train Crew 
Staffing,'' Federal Railroads Administration, May 23, 2019 [hereinafter 
``Crew Size Mandate Withdrawal'']. https://www.fra.dot.gov/eLib/
details/L20134#p1_z5_gD.
    \3\ Ibid., p. 11.
    \4\ 81 Fed. Reg. 13,917 (Mar. 15, 2016) [hereinafter FRA Staffing 
Mandate]. https://www. federalregister.gov/documents/2016/03/15/2016-
05553/train-crew-staffing.
---------------------------------------------------------------------------
    This development, and the possibilities it ushers forth, are good 
news. Because, as goes the future of freight rail commerce in the 
United States, so goes the welfare of consumers and the many 
interdependent industries that rely on the goods it carries.
                              introduction
    The testing, adoption and deployment of automated technologies in 
the rail sector offer a story of success for policymakers to learn from 
as they consider the regulation of other modalities of transit that are 
only now adopting automated technologies. Systems like Positive Train 
Control (PTC) and infrared track inspection, which serve to minimize 
the risks of human error and track failure, already exist. Other new 
developments in the field should be further encouraged by the robust 
use of pilot projects, which are authorized by regulation and are 
largely creatures of industry interest and regulatory flexibility.
    Yet, inspired by misplaced fears about job loss, further 
developments in automation that would otherwise continue to improve 
safety and efficiency on the nation's rails are imperiled by the 
creeping development of a patchwork of state laws that impose crew size 
mandates. As the preeminent arbiters of rail safety, such laws offer 
federal regulators a way to ensure that going forward, railway 
automation is not encumbered by thinly masked exercises in sector-
specific protectionism.
    With the withdrawal of the 2016 Crew Staffing Mandate,\5\ the FRA 
has made clear that there is not a relationship between staffing and 
train safety. However, even with this clear statement of policy, 
thwarting states from passing mandates under the guise of safety-
related oversight remains only an implicit proposition. The FRA should 
make it explicit. To that end, it should take action that makes clear 
that state laws that impose crew size mandates, especially against the 
backdrop of feasible automated technologies, are an impingement on its 
sole authority as the arbiter of railroad safety.
---------------------------------------------------------------------------
    \5\ ``Crew Size Mandate Withdrawal.'' https://www.fra.dot.gov/eLib/
details/L20134#p1_z5_gD.
---------------------------------------------------------------------------
    Accordingly, the present study lays out the case for such an 
action; first by looking at the safety history of rail automation, then 
by providing an overview of contemporary projects in the space and 
finally, by looking into the labor concerns that are the real driver of 
crew size mandates. Put simply, such a case for FRA preemption of state 
crew size mandates is the case for a safer and future-ready rail 
industry.
                   a brief history of rail automation
    Railway automation, particularly in passenger operations, is not 
new in concept or application. Since the 1970s, when automation rolled 
out as a major cost-saving feature of the Washington Metropolitan 
Transit Authority's rail network, rail operators have invested billions 
of dollars building out operational procedures and refining the 
capabilities of automated systems. Other automated lines have followed, 
including BART in the Bay Area, the 7 and L trains in New York, MARTA 
in Atlanta and the Metromover in Miami--to say nothing of the dozen or 
so automated trains at American airports. That investment, and hard-won 
experience, has meant that rail automation has continually been a 
subject of innovation over the last 50 years.
    Not only is there a great deal of experience with automated systems 
in the context of rail, but the modality is, itself, well-suited to 
automation. As a technical matter, there are fewer variables for 
automated systems to account for in rail applications than in 
automotive ones.\6\ Fewer vehicles in the right of way means fewer 
opportunities for human error to lead to crashes and other disasters. 
Improving the interface between humans and automated systems is one 
source of further improvements in an already-safe industry. What's 
more, automated systems in the context of rail also benefit from 
industry-wide coordination in a way that other applications lack. 
Indeed, via operational safety mechanisms like PTC and tracking 
programs like Railinc,\7\ the industry has gained experience 
coordinating such systems.
---------------------------------------------------------------------------
    \6\ See, e.g., Nancy J. Cooke, ``Human Systems Integration,'' 
Transportation Research Circular No. E-C212 (August 2016). https://
sites.google.com/site/trbar070/files/
Omaha_TRC2013_The%20Future%20Locomotive.pdf.
    \7\ Railinc is a subsidiary of the American Association of 
Railroads that acts as a central hub, monitoring trains like an air 
traffic controller.
---------------------------------------------------------------------------
    All of this is to say that, as a matter of experience and technical 
suitability, rail technology is uniquely well suited among major 
modalities of transit for the use of ever-more sophisticated automated 
systems.
         present applications of railway automation technology
    Arguments presented in favor of crew size mandates tend to focus 
exclusively on safety,\8\ ignoring not only historical evidence of the 
technology's suitability to rail, but also contemporary examples of 
automation's value as a tool to improve the safety and efficiency of 
railroads.\9\ For instance, in January of this year, Australian 
railroad Rio Tinto announced the successful deployment of its 
``AutoHaul'' operation (named for its ability to complete autonomous 
heavy-haul shipments), which is already allowing iron mines to 
transport ore, long-distance, in the Pilbara region of Western 
Australia.\10\ Domestically, the potential for automated systems is 
similarly great, both to enhance operational safety and to improve 
inspection processes.
---------------------------------------------------------------------------
    \8\ See ``Crew Size Mandate Withdrawal.'' https://www.fra.dot.gov/
eLib/details/ L20134#p1_z5_gD.
    \9\ Ibid., pp. 8-10.
    \10\ ``Rio Tinto Completes AutoHaul Autonomous Train Project,'' 
Railway Gazette, Jan. 4, 2019. https://www.railwaygazette.com/news/
news/australasia/single-view/view/rio-tinto-completes-autohaul-
autonomous-train-project.html.
---------------------------------------------------------------------------
    The Autohaul project runs through the Australian desert, a place 
with so little water that railroads need to fly crews to remote depots 
to change shifts. However, that does not describe many places in 
America, where railroad towns have had more than a century to sprout up 
along the existing network, and these towns face real safety risks 
should a derailment happen. For this reason, in the United States, 
railroads and their regulators will need to take extra precaution 
before moving to fully automated locomotive control. While the 
potential for complete automation is real, any move to completely 
remove operators from locomotives will need to be thoroughly tested in 
a laboratory environment and on remote stretches of track first.
Positive Train Control (PTC)
    The adoption and proliferation of PTC technologies represent a 
substantial achievement. PTC prevents train-to-train collisions, 
incidents due to excessively high speeds and situations wherein trains 
are on the wrong track--all arguments advanced to favor crew mandates. 
By leveraging onboard Communications-Based Train Control (CBTC) 
capabilities and other advancements, trains are able to communicate 
with traffic management and track equipment to monitor massive amounts 
of data in real-time and generate meaningful, minute-by-minute insights 
through Railinc. Ultimately, through the combination of all of these 
viable capabilities, trains can anticipate incidents well before a 
human conductor or engineer can.
    But the benefits of PTC are not only useful as a matter of safety. 
PTC automation can also streamline train scheduling and direction using 
a moving-block system,\11\ which ensures train operations are maximized 
to reduce the costs of shipping.\12\ Based on the technical benefits 
achieved by PTC, studies have shown that between $1.1 and $2.5 billion 
in efficiencies could be gained by 2029 without jeopardizing 
operational safety.\13\ Such operational savings will translate into 
further investment into rail infrastructure and other consumer-side 
savings.
---------------------------------------------------------------------------
    \11\ ``FRA Staffing Mandate,'' p. 5. https://
www.federalregister.gov/documents/2016/03/15/2016-05553/train-crew-
staffing.
    \12\ ``Automatic Train Control,'' The Railway Technical Website, 
2019. http://www.railway-technical.com/signalling/automatic-train-
control.html.
    \13\ Elliott Long, ``Under Legislation, Policymakers Would 
Micromanage Freight Rail Employment,'' Medium, May 6, 2019. https://
medium.com/@progressivepolicyinstitute/under-legislation-policymakers-
would-micromanage-freight-rail-employmente9cfad55d471?sk=fbe52198dc
3632edff7512babd7b28fa.
---------------------------------------------------------------------------
Track and Brake Inspection
    The benefits of automation in the rail sector are not limited to 
when trains are rolling or even to the trains themselves. For example, 
track and brake inspection--vital and onerous tasks currently performed 
by human personnel on site--are also ripe to be improved through the 
deployment of automated systems because such systems yield generally 
superior safety results when compared to manual inspection.
    To that end, the FRA has suspended the requirements of 49 CFR 
213.233(c) and approved BNSF Railway's proposal for a track inspection 
pilot program on its ``coal loop'' that is using automated technologies 
to assess and monitor over 1,300 miles of main and siding tracks 
between Lincoln, Nebraska and Donkey Creek, Wyoming.\14\ The goal of 
the pilot is to demonstrate that automated inspection outcomes, no less 
safe than human inspection outcomes, are possible. Likewise, automated 
brake monitoring is also showing promise, as the Federal Railroad 
Administration has undertaken tests at the Facility for Accelerated 
Service Testing (FAST) track--a 2.7-mile closed loop that can closely 
replicate conditions over several days with a fully loaded train. These 
tests have shown an ability to accurately detect wheel temperature and 
perform brake inspection as the train moves [often referred to as 
``rolling stock inspection''].\15\
---------------------------------------------------------------------------
    \14\ 83 Fed. Reg. 55,449 (Nov. 5, 2018). https://
www.federalregister.gov/documents/2018/11/05/2018-24111/approval-of-
bnsf-railway-company-test-program-to-evaluate-automated-track-
inspection-technologies.
    \15\ Office of Research and Development, ``Using Wheel Temperature 
Detector Technology to Monitor Railcar Brake System Effectiveness,'' 
Federal Railroad Administration, December 2013. https://
rosap.ntl.bts.gov/view/dot/28273/dot_28273_DS1.pdf?.
---------------------------------------------------------------------------
    Beyond track and brakes, railroads use automation to inspect other 
parts of trains where equipment failure could lead to safety problems. 
BNSF has begun using artificial intelligence technologies to look for 
train wheel defects with cameras, supplementing existing acoustic and 
infrared inspection technologies.\16\ The Canadian national railroad 
uses similar optic technologies to inspect whole railcars for potential 
issues, including broken or out-of-place parts.\17\
---------------------------------------------------------------------------
    \16\ Kyra Senese, ``New BNSF Cameras Find Problems in Rails and 
Wheels,'' Railway Track and Structures, Jan. 29, 2018. https://
www.rtands.com/freight/bnsf-cameras-boost-maintenance-safety.
    \17\ Stuart Chirls, ``CN Turns to Duos Technologies for 
Inspections,'' Railway Age, May 17, 2018. https://www.railwayage.com/
freight/cn-turns-to-duos-technologies-for-inspections.
---------------------------------------------------------------------------
    These automated technologies have begun to show promise because of 
a regulatory environment focused on safety and efficiency-related 
outcomes, and not on specific approaches to achieving those outcomes. 
It is in that context that crewsize mandates persist as a regulatory 
aberration that should be addressed fully, and not simply avoided 
piecemeal by striking down state safety rationales.
                         regulatory environment
    To better understand the path to automation on the nation's rails, 
it is necessary to grasp the regulatory structures that will oversee 
the transition, and how they interact.
    In 1966, Congress passed the Department of Transportation Act, 
which created the Department of Transportation (DOT) and the FRA.\18\ 
As an agency within the DOT, the FRA is charged with ensuring safety, 
reliability and efficiency in the transportation of passengers and 
goods along railways, and is the premier railroad safety agency for 
promulgating crew size and automated-systems rules and regulations.
---------------------------------------------------------------------------
    \18\ ``About FRA,'' Federal Railroad Administration, accessed May 
21, 2019. https://www.fra.dot.gov/Page/P0002.
---------------------------------------------------------------------------
    Although the FRA has a storied history, it is not a faultless one 
when it comes to regulating outcomes instead of technologies. For 
example, in 2015, the FRA Coordinated with the Pipeline and Hazardous 
Materials Safety Administration to promulgate the Electronically 
Controlled Pneumatic Brake System (ECP) mandate, which would have 
required all new tank cars to include the ECP system by 2021.\19\ The 
ECP mandate faced sharp criticism from industry experts who claimed 
that it was misguided and unnecessary.\20\ Although the FRA has 
regulatory authority to promulgate rules in this area,\21\ the ECP 
mandate was an over-reaching standard that locked train manufacturers 
and rail operators in to a prescriptive solution that served as a 
command-and-control quick fix. Fortunately, the FRA repealed the ECP 
Mandate in September of 2018, allowing railroads to continue innovating 
and to avoid dangerous situations through performance-based 
innovation.\22\
---------------------------------------------------------------------------
    \19\ ``DOT Announces Final Rule to Strengthen Safe Transportation 
of Flammable Liquids by Rail,'' U.S. Dept. of Transportation, May 1, 
2015. https://web.archive.org/web/20150611191103/https://
www.transportation.gov/briefing-room/final-rule-on-safe-rail-transport-
of-flammable-liquids.
    \20\ See, e.g., Pat Foran, ``ECP mandate: under study and on 
hold,'' Progressive Railroading, April 2016. https://
www.progressiverailroading.com/mechanical/article/ECP-mandate-under-
study-and-on-hold--47875.
    \21\ Department of Transportation Act of 1966, Pub. L. No. 89-670, 
Sec. Sec.  6(e)(3)(A), [codified 49 U.S.C. Sec.  303 (2019)].
    \22\ 83 Fed. Reg. 48,393 (Sept. 25, 2018). https://
www.federalregister.gov/documents/2018/09/25/2018-20647/hazardous-
materials-removal-of-electronically-controlled-pneumatic-brake-system-
requirements-for.
---------------------------------------------------------------------------
    Despite that outcome, in 2016, the FRA issued a prescriptive 
standards mandate yet again. The Staffing Notice of Proposed Rulemaking 
(NPRM) recommended the use of two-person crews (at a minimum) on 
freight trains, citing an incident at Lac-Megantic, Quebec, Canada. 
Further, this action was taken in spite of the fact that the 
Transportation Safety Board refused to identify the train's one-person 
crew as the cause of the accident.\23\ More remarkable still, it was 
taken in spite of the fact that Canadian authorities eventually 
concluded that crew size was not a factor in the incident. In fact, it 
occurred after operation, as a result of the engineer improperly 
securing the train when the locomotive's engines were powered down, 
which caused it to roll down a grade.\24\ This is equivalent to 
forgetting to put a car in park before walking away.
---------------------------------------------------------------------------
    \23\ ``FRA Staffing Mandate.'' https://www.federalregister.gov/
documents/2016/03/15/2016-05553/train-crew-staffing.
    \24\ Ibid., p. 12
---------------------------------------------------------------------------
    While it was an unfortunate outcome, the Lac-Megantic accident's 
cause bore little relation to the FRA's proposed prescriptive fix, 
which would have required all drivers to have a passenger. Indeed, the 
now-rescinded Staffing Mandate proposal was, as a technical matter, 
unnecessary--especially in the face of PTC and real-time track 
monitoring systems like CBTC.
    In fact, the mandate really only made sense when viewed within the 
scope of legacy roles and responsibilities for conductors and 
engineers. For example, an image comes to mind of crew members 
frantically shoveling coal into a furnace to stop a speeding 
locomotive, but any crew member of a modern-day freight train knows 
that bringing a train to a halt involves little more than pulling a 
computerized lever or pushing a button. Things have changed 
dramatically and today, having an extra person in the locomotive may 
only serve to put another person in harm's way.\25\
---------------------------------------------------------------------------
    \25\ See, e.g., Shawn Logan, ``CP Rail Workers Killed In B.C. 
Derailment Identified as Calgary-Based Crew,'' Calgary Herald, Feb. 5, 
2019. https://calgaryherald.com/news/local-news/three-cp-rail-workers-
killed-in-massive-derailment-near-field-b-c.
---------------------------------------------------------------------------
    This line of reasoning was validated when the FRA decided to 
withdraw the 2016 NPRM on May 24, 2019, by making an affirmative 
decision not to regulate. In doing so, it implicitly preempted all 
state regulation of train crew sizes on the basis of safety.\26\ As a 
result, state rules mandating crew sizes, when based on purported 
safety benefits from additional crew members, now represent 
inappropriate interventions into the jurisdiction of the FRA.\27\
---------------------------------------------------------------------------
    \26\ ``Crew Size Mandate Withdrawal.'' https://www.fra.dot.gov/
eLib/details/ L20134#p1_z5_gD.
    \27\ Ibid., p. 24.
---------------------------------------------------------------------------
                            lessons learned
Automation does not ``kill'' jobs
    Although the FRA's Staffing Rule has been withdrawn, it will endure 
as an example of how not to regulate. That is, it demonstrated that it 
was less than favorable to prescribe a particular technical solution 
when industry could more effectively innovate to achieve the desired 
regulatory outcome--without imposing needless and significant burdens 
on operations or safety.\28\ Further, the rule's existence was not 
predicated on a safety outcome but rather existed as a job guarantee 
for rail workers.
---------------------------------------------------------------------------
    \28\ See, e.g., Marc Scribner, ``Toward Performance-Based 
Transportation Safety Regulation,'' Competitive Enterprise Institute, 
March 29, 2017. https://cei.org/sites/default/files/Marc%20Scribner%20-
%20Toward%20Performance-Based%20Transportation%20
Safety%20Regulation%202.0.pdf.

      image 1: crew size mandates (as of may 2019 fra preemption)
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 SOURCE: Data compiled by the authors.

    In the now partially-counterfactual world in which the 2016 
Staffing Rule took effect, engineers on long-haul routes through the 
ranches of Wyoming's open plains or the desert stretches of the 
southwest would have had an unnecessary ``buddy'' to watch the cows go 
by; a second employee dispatched far from home ``just in case.'' This 
is because, as the job of a locomotive engineer is reoriented to focus 
on the maintenance of automated systems, less time will be required to 
operate the trains. But, just because the nature of an engineer's job 
is changing, does not mean that less human engagement in the operation 
of railroads will be necessary. Indeed, contrary to arguments that 
claim railway automation will kill jobs,\29\ more jobs could be 
created--just in different capacities.\30\
---------------------------------------------------------------------------
    \29\ Paul Davidson, ``Automation could kill 73 million U.S. jobs by 
2030,'' USA Today, Nov. 28, 2017. https://www.usatoday.com/story/money/
2017/11/29/automation-could-kill-73-million-u-s-jobs-2030/899878001.
    \30\ Katie Patrick, ``Rail Industry Says Automation Will Create 
More Jobs, But Congress Isn't So Sure,'' InsideSources, May 13, 2019. 
https://www.insidesources.com/rail-industry-says-automation-will-
create-more-jobs-but-congress-isnt-so-sure/?utm_source=The+Signal&utm_
campaign=e868c225e6-EMAIL_CAMPAIGN_2018_01_16_ 
COPY_01&utm_medium=email&utm_term=0_70b8080426-e868c225e6-49716557.
---------------------------------------------------------------------------
    This transition is already underway. For example, jobs have been 
created to implement PTC, with some engineers performing maintenance, 
upgrades and implementation of PTC as their sole responsibility.\31\ 
Likewise, personnel currently dedicated to safety inspections in the 
field will be no less necessary, but instead will perform their 
responsibilities in the safety of centralized operations hubs. There is 
no indication that this trend of job creation will not continue.
---------------------------------------------------------------------------
    \31\ Ibid.
---------------------------------------------------------------------------
A patchwork of state laws effectively block interstate commerce
    While the federal government has moved away from acting to mandate 
a minimum crew size, some states have begun to move in the opposite 
direction. As of May 2019, five states had enacted legislation that 
would mandate at least two-person crews on all trains, while 21 were 
actively considering legislation to introduce such a requirement. And, 
although these bills should be preempted where they focus on safety as 
the basis for regulation, without additional action, those that base 
their regulations on other grounds will continue to complicate railway 
automation.
    Rail networks span the nation, and shipping products and materials 
inexpensively across thousands of miles can be significantly affected 
by a patchwork of inconsistent state laws that increasingly represent a 
burden to interstate commerce. For instance, even after the NPRM's 
withdrawal, it may still be the case that in Illinois, where no rail 
carrier can operate a train unless it has an operating crew of at least 
two individuals,\32\ a train hauling fertilizer from Fort Worth, Texas 
to Chicago will be required to come to a full stop to board an 
additional engineer who provides no additional safety benefit.
---------------------------------------------------------------------------
    \32\ 625 Ill. Comp. Stat. 5/18c-7402 (2019).
---------------------------------------------------------------------------
    This patchwork has since likely been preempted by the FRA's 
announcement of the withdrawal of its crew staffing mandate \33\ under 
the authority of the Federal Rail Safety Act, which provides:
---------------------------------------------------------------------------
    \33\ ``Crew Size Mandate Withdrawal,'' p. 24. https://
www.fra.dot.gov/eLib/details/ L20134#p1_z5_gD.

        A State may adopt or continue in force a law, regulation, or 
        order related to railroad safety or security until the 
        Secretary of Transportation (with respect to railroad safety 
        matters) [ . . . ] prescribes a regulation or issues an order 
        covering the subject matter of the State requirement.\34\
---------------------------------------------------------------------------
    \34\ 49 U.S.C. Sec.  20106(a)(2).

    Combined with the specific preemption language in the FRA's 
withdrawal of the federal crew size mandate,\35\ this authority 
effectively preempts state safety-related crew size mandates.\36\ 
However, the preemption contemplated in the FRA mandate withdrawal is 
limited since its basis was the specific section of the Federal Rail 
Safety Act mentioned above, which forbid states from imposing safety-
related mandates.\37\ This section did not preempt all crew size 
mandates, however, and a state law purporting to simply secure 
additional jobs would remain legal.\38\ What's more, preemption is only 
effective if enforced. Those states that hold out on crew size mandates 
may propose post hoc arguments that the crew size mandates were also 
intended to be a job creation mechanism.
---------------------------------------------------------------------------
    \35\ ``Crew Size Mandate Withdrawal,'' p. 24. https://
www.fra.dot.gov/eLib/details/ L20134#p1_z5_gD.
    \36\ Ibid.
    \37\ Ibid., p. 23.
    \38\ Ibid., pp. 22-25.
---------------------------------------------------------------------------
    This means that if the states are not fully preempted, the same 
destructive patchwork that came about under the prior safety-related 
crew size mandates could re-emerge under a labor-specific mandate. In 
light of this, a federal standard should exist to conform inconsistent 
state laws that burden interstate commerce and thus it is time for 
federal regulators to step in to quash the further expansion of a 
problematic regulatory patchwork.
                            recommendations
    As a matter of constitutional law, determinations made by the 
federal government supersede inconsistent state laws that unduly 
interfere with commerce between the states.\39\ Such was the situation 
presented by the patchwork of state crew size mandates based on safety 
rationales that have since been explicitly deemed inappropriate by the 
FRA and implicitly preempted.\40\ Yet, where states decide to move away 
from the backdoor safety rationale now preempted and base crew size 
mandates on more labor-specific grounds, such mandates still pose a 
significant barrier to the free flow of commerce--and the progress made 
by railway automation. Accordingly, policymakers should undertake the 
following actions to promote the further use and development of 
automation in the rail industry.
---------------------------------------------------------------------------
    \39\ See Gibbons v. Ogden, 22 U.S.(9 Wheat.) 1, 211 (1824); and 
South Carolina State Highway Department v. Barnwell Bros., Inc., 303 
U.S. 177 at 186 (1938).
    \40\ Crew Size Mandate Withdrawal, pp. 22-25. https://
www.fra.dot.gov/eLib/details/ L20134#p1_z5_gD
---------------------------------------------------------------------------
    First, the FRA should promulgate rules that reinforce its 
withdrawal of the Staffing NPRM to align with the Regional Rail-
Reorganization Act,\41\ which provides that:

    \41\ Often referred to as the ``3R Act.''
---------------------------------------------------------------------------
        No State may adopt or continue in force any law, rule, 
        regulation, order, or standard requiring the Corporation to 
        employ any specified number of persons to perform any 
        particular task, function, or operation, [ . . . ] and no State 
        in the Region may adopt or continue in force any such law, 
        rule, regulation, order, or standard with respect to any 
        railroad in the Region.\42\
---------------------------------------------------------------------------
    \42\ 45 USC 797j (2019).

    Again, to specifically make explicit what is now implicit in this 
space will make it easier for courts to enforce the impermissibility of 
these state laws.
    Second, states that seek to attract innovation and investment from 
railways should pass similar legislation that makes clear that 
railways--and the benefits that result from their continued investment 
in railway automation technologies--will not be prevented from moving 
commerce within those states.
    Finally, in line with the DOT's novel ``multi-modal'' approach to 
automated technologies, the FRA should look to evaluate the potential 
scope of further pilot programs in a manner that gives firms interested 
in testing new automated technologies the maximum flexibility possible 
under existing law. Programs such as the BNSF pilot program approved by 
the FRA serve as a beacon of possibility and regulatory cooperation 
that will push railway automation forward.
    Taken together, the effects of these actions would be enormous. The 
first would preempt state crew size mandates once and for all, 
fulfilling the duties charged to the FRA by Congress in its enabling 
legislation,\43\ and exercising the necessary preemption authority 
delegated by Congress and reserved by the Constitution to ensure the 
free flow of commerce along railways, and alleviate undue burdens 
imposed by the states.\44\ The second would be an express vote of 
confidence in railway automation that would spur further innovation and 
move the technology forward toward safer and more efficient forms of 
railway shipment. The third would promote the sort of innovative 
experimentation that will lead to further safety breakthroughs and 
added efficiencies.
---------------------------------------------------------------------------
    \43\ Dept. of Transportation Act of 1966, Pub. L. No. 89-670, 
Sec. Sec.  6(e)(3)(A), [codified 49 U.S.C. Sec.  303 (2019)].
    \44\ See Art. I, Sec.  8, cl. 3. See also, Nat'l Fed'n of Indep. 
Bus. v. Sebelius, 567 U.S. 519 (2012).
---------------------------------------------------------------------------
                               conclusion
    To ensure that goods move efficiently and affordably is at the very 
core of the federal government's role as the nation's chief regulator 
of interstate commerce. And, making sure that railroads can legally use 
the best practices enabled by modern safety technology is key to the 
nation's economic competitiveness in world markets. Where states 
intervene in transportation markets in the name of local interests, we 
all lose. When that happens, federal officials in Congress and the 
administration have a duty to step in for the good and prosperity of 
the nation as a whole. Using past Congressional guidance, the FRA has 
already stopped the growing problem of safety-based crew size mandates, 
but they will face similar challenges in the future, as the pressure to 
put state benefits ahead of national prosperity is not going anywhere. 
In light of this, Congress will need to step up and clearly assert that 
state rules that seek to stem railway automation are and will forever 
be ``off track.''

About the Authors

    Ian Adams is the Vice President of Policy at TechFreedom, where his 
work focuses on the disruptive impact of burgeoning technologies on law 
and regulation.
    Nick Zaiac is a commercial freedom fellow at the R Street Institute 
where he studies postal, freight, transportation and infrastructure 
issues.
    Caden Rosenbaum is a law student at American University's 
Washington College of Law and a legal intern at TechFreedom, where he 
studies interstate commerce, federalism, data privacy, net neutrality 
and FTC enforcement issues.



                                Appendix

                              ----------                              


    Questions from Hon. Peter A. DeFazio for Hon. Ronald L. Batory, 
             Administrator, Federal Railroad Administration

    Question 1. On July 1, 2019, the Government Accountability Office 
(GAO) issued a study on Class I railroads' train length and the impacts 
longer trains have on communities and safety. The GAO found that while 
your agency is studying the potential operational risks of long freight 
trains, it does not have a documented strategy for sharing the study's 
results with stakeholders. The GAO also found that FRA does not intend 
to use information gathered from its longer train study to inform the 
agency's work on blocked crossings. The GAO has recommended the FRA 
take actions to share its research and engage communities.
    How does your agency intend to fulfill these recommendations?
    Answer. In its May 13, 2019, response to GAO, FRA concurred with 
both of the report's recommendations and has actions underway to 
address them. Regarding research results, FRA has always considered 
sharing results an essential function of the agency's research program 
to advance innovative practices and technologies that will improve rail 
safety performance. We use multiple platforms to communicate results, 
including our public website--fra.dot.gov. For example, between January 
1, 2018, and July 15, 2019, FRA posted on its website 100 technical 
reports and research results. FRA researchers are active participants 
in such professional forums as the Transportation Research Board annual 
meetings and industry conferences. Moreover, FRA is working with the 
Office of the Secretary of Transportation on Department-wide technology 
transfer opportunities.
    Regarding working with railroads to engage state and local 
governments on the community-specific impacts of longer freight trains, 
FRA will use planned stakeholder engagements in 2019 and 2020, as well 
as other opportunities, to alert railroads to the number of complaints 
FRA receives, the intensity of community concerns, best practices to 
reduce community-specific impacts of train operations, and the benefits 
of working proactively with State and local governments along the 
railroads' rights-of-way. Planned engagements include grade crossing 
listening sessions and PTC collaboration sessions. These sessions bring 
together industry and local government stakeholders to discuss 
important rail safety issues.

    Question 2. Will the agency share the results of the study 
publicly?
    Answer. Yes. As noted above, sharing research results, including 
research on longer freight trains, is a priority for FRA. FRA plans to 
publish the report of this study on its public website, as we do with 
all other reports. FRA reports are also available on the National 
Transportation Library's online repository.

    Questions from Hon. Daniel Lipinski for Hon. Ronald L. Batory, 
             Administrator, Federal Railroad Administration

    Question 3. Administrator Batory, you indicated in one of your 
responses that issues relating to blocked crossings should be handled 
between the states, local governments, and railroads. What role, if 
any, do you believe the Federal Government should play in alleviating 
blocked crossings?
    Answer. Idling trains blocking highway-rail grade crossings are not 
a new concern, so for years the Federal government, including FRA, has 
provided technical expertise, data, education, and outreach to assist 
all stakeholders in resolving issues related to blocked crossings. 
However, as railroad operations have changed in recent years, FRA has 
taken some different approaches to addressing the issue. For instance, 
FRA has a proposal to begin collecting additional data from the public 
and law enforcement on blocked crossings, which will provide the agency 
with more standardized data on instances of blocked crossings 
throughout the United States. The data will tell FRA where, when, for 
how long, and what impacts resulted from blocked crossing incidents 
reported by the public. FRA intends to maintain and analyze the data, 
so that over time, the locations of ``hot spots,'' key factors leading 
to the reported blocked crossings, and community impacts can be 
identified. FRA will also continue to help facilitate meetings between 
stakeholders and share expertise on potential solutions to the issues, 
as it has historically done, but because the factors leading to blocked 
crossings are necessarily location and railroad specific, the federal 
government should not dictate solutions.
    That said, I appreciate the concerns raised by Members of Congress 
and the motoring public, so on May 16, 2019, I wrote to the CEOs and 
senior leadership of the railroad companies regarding the impacts to 
quality of life and public safety associated with blocked crossings. My 
request was that the railroads determine appropriate actions to 
minimize blocked crossings and to redouble their efforts in working 
with states and local communities to advance the safety and efficiency 
of both railroad and highway operations.

    Question 4. Is the Federal Railroad Administration considering 
implementing regulations regarding blocked crossings?
    Answer. For the reasons noted above, FRA is not considering 
implementing regulations regarding blocked crossings.

    Question 5. Railroads currently have to report some safety data 
regarding grade crossings to the Federal Railroad Administration. 
Should they be required to report data on blocked grade crossings to 
the Federal Railroad Administration as well?
    Answer. FRA does not believe that railroads should be required to 
report data on blocked grade crossings to the agency. Operational 
constraints may require a train to stop for a significant period of 
time at some locations and FRA is proposing to begin collecting 
additional data on blocked crossings from law enforcement and the 
public to best concentrate efforts on resolving blocked crossings.

    Question 6. How is the Federal Railroad Administration going to 
improve its data on the occurrences, causes and impacts of blocked 
crossings?
    Answer. Currently, FRA is typically notified of blocked crossings 
via e-mail through a generic ``Contact Us'' website. That website is 
used by the public to submit any type of comment/question to FRA's 
Office of Railroad Safety, not just reports of blocked crossings; 
accordingly, the information submitted is varied and often does not 
identify the key facts (e.g., location, time, duration, impact) of the 
incident being reported, making it difficult (or even impossible) for 
FRA to follow-up to determine the cause of the incident. To gather more 
specific and actionable data, FRA is proposing to add new, dedicated 
links to its existing website and its existing phone application (Rail 
Crossing Locator) for the public to report blocked crossings. When 
submitting a report, information will be specifically requested on the 
location of the blocked crossing, the time, duration, and impacts of 
the blocked crossing, which will provide standardized information for 
analysis. We will also have a separate dedicated portal (secured by 
log-in), for law enforcement agencies to report blocked crossings in a 
similar manner. FRA intends to maintain and analyze the data so that 
over time, the locations of ``hot spots,'' key factors leading to the 
reported blocked crossings, and community impacts can be identified.

    Question 7. Do blocked rail crossings have a negative impact on the 
ability of emergency responders to respond to emergencies? If so, can 
you elaborate on this impact and what FRA is doing to minimize this 
impact?
    Answer. Depending on the specific circumstance, blocked rail 
crossings may have a negative impact on the ability of emergency 
responders to respond to emergencies. For instance, if a particular 
highway-rail grade crossing is blocked for an extended period of time, 
emergency vehicles would not be able to get from one side of the track 
to the other at this particular location, which could have a negative 
impact if there is no other highway-rail grade crossing in the 
vicinity. Local authorities and railroads have, however, developed ways 
to mitigate these concerns. For instance, FRA worked with the Federal 
Highway Administration (FHWA) to develop their ``Noteworthy Practices'' 
document sharing information on how one local community (Kirkwood, 
Missouri) addressed blocked crossings. In this case, the locality 
installed electronic signs to direct motorists and emergency service 
vehicles to an overpass near a crossing with heavy freight traffic and 
that was frequently blocked by stationary Amtrak trains servicing a 
nearby passenger station. FRA recently awarded a project to install 
intelligent transportation systems (ITS) devices at crossings designed 
to notify emergency service dispatchers of the locations where 
crossings are blocked so the dispatchers may direct EMS vehicles to 
other crossings \1\. FRA will continue to work with all stakeholders, 
including FHWA, to identify and develop additional solutions.
---------------------------------------------------------------------------
    \1\ FRA contract to the University of South Carolina on an 
Intelligent Crossing Assessment and Traffic Sharing System (i-CATSS). 
The project aims to develop an affordable and field deployable system 
to provide real-time quantitative traffic information and estimate 
delay time due to grade crossing blockage.

    Question 8. Do you believe Congress should grant the Federal 
Railroad Administration any additional authority to regulate blocked 
crossings? If so, what specific authorities should Congress give FRA?
    Answer. No, FRA does not believe that Congress should grant it 
authority to regulate blocked crossings. For the reasons described in 
response to question 3 above, FRA does not believe a federal, one-size-
fits-all solution would effectively address the issue. As noted above, 
FRA believes the appropriate role for the federal government, and FRA 
specifically, is to provide technical expertise, data, education, and 
outreach to assist all stakeholders in resolving specific instances of 
blocked crossings.

      Questions from Hon. Andre Carson for Hon. Ronald L. Batory, 
             Administrator, Federal Railroad Administration

    Question 9. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. Since 2011, the FRA has routinely performed a comprehensive 
overview of the railroad industry workforce in response to the 2010 
launch of the Department of Transportation (DOT) National 
Transportation Workforce Development Initiative. The initiative 
required each DOT Operating Administration to produce an analysis of 
its industry workforce. In FRA's inaugural 2011 documented study, 
through its most recent spring 2017 study update, diversity is cited in 
the document as a consistent railroad industry workforce challenge. The 
2017 study participants included management and staff representatives 
from across the railroad industry, including: railroads (Class I, Short 
Line and Regional), railroad associations, academia, and labor unions. 
Dialogue with the study participants focused on a wide range of 
workforce development challenges. Regarding ethnic and gender diversity 
specifically, the study participants indicated several contributing 
factors, mainly physical requirements of some railroad careers, the 
inability to find mentors or coaches to support career progression, and 
unavailability of measures, data, and reporting on diversity.
    Industry efforts are underway, but there is still room for 
improvement. Notable activity to improve diversity within the railroad 
industry has focused on recruiting and retention. Many railroads have 
programs and activities that promote mentoring minority employees and 
provide those employees opportunities to network with employees of 
similar background and experience. Additionally, some organizations 
have begun outreach programs to specifically target minority groups and 
communities to educate them on the career opportunities in the railroad 
industry. Such outreach activities allow current railroad industry 
employees to engage targeted populations and increase awareness of 
potential hiring opportunities.
    Across the industry, more work is needed in the areas of program 
development, knowledge and implementation of best practices, and 
establishment of standardized metrics to better assess diversity and 
inclusion. Railroad industry members should consider exploration and 
sharing best practices regarding workforce data collection and 
analytics, and how technology can be used as a catalyst to support 
diversity programs.

   Questions from Hon. Eric A. ``Rick'' Crawford for Hon. Ronald L. 
         Batory, Administrator, Federal Railroad Administration

    Question 10. How can this Committee help drive participation in the 
Confidential Close Call Reporting System (C3RS)?
    Answer. Consistent with Congress' direction, FRA has worked hard to 
increase railroad participation in C3RS and to identify alternative 
funding options. FRA is continuing to build momentum encouraging 
railroads, their labor unions, and non-union represented railroads, 
which includes shortlines and regional railroads, to participate. The 
Program has nearly doubled in carrier participation over the last year 
and more railroads are eager to join. FRA is excited by this progress 
and looks forward to continuing to work with industry and this 
committee to reap even greater safety benefits from the C3RS program.

    Question 11. When a yardmaster performs an activity that could 
impact the safe movement of a train along the rail line, is that 
yardmaster subject to hours-of-service laws?
    Answer. FRA's approach to yardmaster hours of service applications 
is functional. When yardmasters are engaged in, or connected with, the 
movement of trains, they are performing covered service as a train 
employee and are subject to Sec.  21103 of the Federal hours of service 
laws (HSL). A yardmaster may instead be subject to Sec.  21105 of the 
HSL if they perform dispatching service functions. However, yardmasters 
are not subject to any HSL limitations if they do not perform any 
covered functions. This functional approach to the application of the 
hours of service laws is essential to proper regulation of a diverse 
rail industry, where employees whose job title is ``yardmaster'' 
perform different job duties for different railroads or even at 
different yards within the same railroad.

    Questions from Hon. Andre Carson for Dennis R. Pierce, National 
      President, Brotherhood of Locomotive Engineers and Trainmen

    Question 1. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. Decision-making authority for hiring resides with each 
individual railroad. Therefore, neither the Brotherhood of Locomotive 
Engineers and Trainmen National Division (``BLET'') nor, with one 
exception, any of our subordinate General Committees of Adjustment 
(``GCAs'') have any input into hiring processes. Nevertheless, all, or 
nearly all, of the Collective Bargaining Agreements negotiated, 
administered and enforced by our GCAs include broad anti-discrimination 
clauses.
    Moreover, wage scales, and seniority and other work rules are blind 
as to gender, race, ethnicity and all similar methods of classifying 
individuals. Consequently, there is no economic incentive for a 
railroad to engage in anti-diversity and/or discriminatory practices. 
And, of course, railroad workers also are protected by numerous federal 
and state laws addressing this subject.
    I also am aware that many railroads maintain diversity policies, 
and provide diversity-related training and instruction to their 
employees. However, because these are company policies, neither the 
BLET nor its GCAs have any input.
    That being said, as part of the Teamsters family, the BLET is a 
participant in the activities of the Teamsters Human Rights Commission 
and its various caucuses, which include the Human Rights Diversity 
Commission, the International Teamster Women's Caucus, the National 
Black Caucus, the Hispanic Caucus and the LGBT Caucus. BLET National 
Secretary-Treasurer S.J. Bruno is the designated Human Rights Officer 
for our Union.
    The membership of the Brotherhood of Locomotive Engineers and 
Trainmen is far more diverse than the virtually all-white, all-male 
workforce that existed when our oldest working members were hired. As 
with the rest of the Nation, however, we should always be working to 
improve diversity with the tools that are available to us.

    Questions from Hon. Andre Carson for John Previsich, President, 
   Transportation Division of the International Association of Sheet 
              Metal, Air, Rail and Transportation Workers

    Question 1. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. I will begin by stating that as a labor union, our 
membership is open to all and we value diversity in the workplace. 
However, with only minor exceptions, our organization does not 
participate in workforce hiring on the railroads that we represent, and 
we are not privileged to review hiring records to support any 
information that we may provide in response to the question. 
Nonetheless, the issue of diversity in our industry is important to us 
and I am willing to share my personal observations on this matter.
    Our union represents workers on all of the nation's major 
railroads, many short-line railroads and numerous passenger operations, 
including Amtrak. My observation is that diversity in the rail 
workforce is generally influenced by the demographics of the region 
where employed. For example, the workforce in urban areas is much more 
diverse than that found in rural regions, reflecting the relative 
demographics of both areas. Railroad work in urban areas often include 
a high number of passenger and freight assignments with fixed on-duty 
times and scheduled days off, factors that are attractive to a broad 
section of America's workforce.
    Long-haul freight operations are a different story. Although the 
industry provides good work opportunities, typically the conditions are 
such that only a narrow spectrum of the workforce finds them to be 
acceptable. More often than not, crews are required to report for duty 
without sufficient advance notice to be rested, there are no scheduled 
days off, workers are forced to accept calls at any time day or night 
and they are subject to discipline if they find it necessary to be off 
for a day in violation of an employer's attendance policy.
    These adverse working conditions severely limit the desirability of 
railroad work for some individuals, reducing diversity by excluding all 
who have family or other obligations that cannot accept such 
conditions. For example, any who have a role as a caregiver, whether it 
be for an aging parent, family member or simply raising children will 
find it difficult to meet those demands while working on-call with a 
24/7 availability requirement.
    While we have aggressively pursued more stable and set working 
conditions at the bargaining table, the carriers have rejected our 
proposals. Congress has the authority and obligation to remedy this 
situation. The Rail Safety Improvement Act, passed by Congress and 
signed into law in 2008, directs the Federal Railroad Administration to 
enact a number of initiatives that would help mitigate many of the 
unsafe working conditions in the industry. While FRA has acted on some 
of the RSIA requirements, others of importance to railroad workers 
remain unaddressed.
    In closing, we ask that Congress take immediate action to ensure 
that FRA meets its obligation to address scheduling and fatigue-
mitigation issues as set forth in the RSIA and beyond. Without 
question, doing so will provide a more desirable workplace that will 
attract a more diverse workforce.

 Questions from Hon. Andre Carson for Andrew W. Sandberg, Assistant to 
 the President, International Association of Machinists District Lodge 
                                   19

    Question 1. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. I apologize for the delay. The Machinists Union strongly 
supports diversity in the workplace and often encourages our employers 
to implement hiring practices that increase diversity in the railroad 
industry. However, this question should mostly be directed to our 
members' employers, as they are ultimately the decision makers when it 
comes to hiring and hiring practices.

   Questions from Hon. Andre Carson for William Gonzalez, President, 
                     Amtrak Police Labor Committee

    Question 1. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. Representative Carson, sir, this question would best be 
answered by Amtrak Police managers, as the Union does not have any 
expertise on current rail workforce hiring processes, as it relates to 
expanding diversity. However, what we can tell you is that the Amtrak 
Police Department is disjointed in its efforts to hire officers 
nationwide. It is our understanding that hiring is split between 
Amtrak's corporate Human Resources personnel in Washington, DC and 
Chicago. APD does not have an internal recruiting manager, nor does it 
have a local recruiting officer in each of its field offices. With a 
few exceptions, APD has little to no presence at career fairs, hiring 
expos, college campuses, and military job fairs where diverse, 
experienced officers could potentially be hired.

    Questions from Hon. Eleanor Holmes Norton for William Gonzalez, 
                President, Amtrak Police Labor Committee

    Question 2. You said in your testimony ``if cost-cutting were the 
legitimate concern of departmental management, why did it needlessly 
purchase brandnew 9m handguns this year when it had already purchased 
.40 caliber handguns no more than 3 years ago.''
    In your experience, how often does the police force typically 
upgrade equipment, like guns?
    Answer. Representative Norton, ma'am, there is not a set rule on 
when guns should be replaced. But the Glock firearms, which are issued 
to the Amtrak Police Department is capable of shooting approximately 
150,000 rounds before there is any need to replace any of its 
instruments. Amtrak trains its patrol officers in firearms a total of 
16 hours annually. Out of those 16 hours, 8 hours are classroom 
instruction and 8 hours of actual drill shooting and qualification. On 
average, officers shoot an estimate of 250-500 rounds, which totals an 
estimate of 1000 rounds on a high-end average annually. Members of our 
Special Operations Unit would be the exception to this number, as they 
conduct additional firearms proficiency training throughout the year.

    Question 3. Why were the weapons upgrades necessary? Have Amtrak 
officers been threatened in the commission of their duties or have you 
noticed an uptick in violence towards officers?
    Answer. Representative Norton, ma'am, officers feel that the 
upgrade to Glock 9mm weapons was not necessary at this time. While no 
one disagrees that the Department should have a scheduled plan to 
upgrade weapons and provide new equipment on a continual basis, 
officers feel that the lack of radio reception to communicate and our 
outdated radios should have been a priority, primarily for officer 
safety. This has been something officers have been asking about for 
several years, due to the unreliability of our current system and 
equipment.
    The recent weapons upgrade in December 2018 was a waste of Amtrak 
Police funds, due to the fact that upgraded weapons were purchased in 
2012, which was long overdue. An average weapon issued in 2012 was only 
used to shoot approximately 7,000 rounds. Where in my prior response a 
Glock can shoot approximately 150,000 rounds before any instrument 
needs to be replaced.
    Amtrak officers deal with a large volume of Emotionally Disturbed 
Persons (EDP) on a daily basis, which should be expected for intermodal 
transportation facilities and public train stations. However, this 
means that threats towards officers are commonplace and assaults on 
Amtrak Police Officers have been rising in recent years. With the date 
available to us, there have been over 50 assaults on our officers since 
2015. In certain locations like Union Station in Washington, DC there 
has been a spike in assaults on officers. While none have resulted in a 
use of deadly force, we are concerned about officer safety for our 
officers.

  Questions from Hon. Eric A. ``Rick'' Crawford for William Gonzalez, 
                President, Amtrak Police Labor Committee

    Question 4. On average, how many Amtrak Police Department staff 
leave Amtrak voluntarily each year?
    Answer. Ranking Member Crawford, sir, on average annually the 
Amtrak Police Department loses 20-25 staff members through resignation 
or retirement. 2017 was the largest loss in staffing with over 30 
members leaving. Also, with Amtrak offering a buyout plan an additional 
16 personnel have either resigned or retired since July 22, 2019, in 
total for 2019 we are at 23 members since January 2019. These numbers 
provided are agreement employees, commanders who are represented by 
Deputy Chiefs, Inspectors and Captains fall under non agreement and 
have taken a loss of nine (9) since 2014 but are immediately replaced. 
As a department we have lost over 100 APD personnel since 2014.

Questions from Hon. Andre Carson for Ian Jefferies, President and Chief 
          Executive Officer, Association of American Railroads

    Question 1. What personnel and contracting efforts are expanding 
diversity in the rail workforce and where is more work needed?
    Answer. Railroads know well that having a diverse workforce 
promotes greater innovation and productivity by leveraging the 
strengths of different talents, skills, and perceptions. From high 
school graduates, to military veterans, to those holding advanced 
degrees freight railroads employ approximately 165,000 diverse 
employees.
    In fact, individual railroads have various programs aimed at 
enhancing diversity. For example, Norfolk Southern has formed division 
and office diversity and inclusion councils across its network, 
empowering employees as ambassadors of diversity and inclusion. BNSF 
has established a strategic plan for moving the company to its 
diversity goals. Union Pacific has several Employee Resource Groups 
across the company; these groups allow the diverse experiences, 
capabilities and viewpoints of all employees at all levels to be a part 
of its success. Canadian Pacific announced earlier this year that the 
first female Chairman of the Board will start this year and several 
other railroads have received various awards for being among the best 
places to work in America for women.
    As the railroads continue to invest, innovate, and evolve, they 
will also continue to expand their efforts to make working in the 
industry appealing to men and women of every background and range of 
personal characteristics.

Questions from Hon. Angie Craig for Ian Jefferies, President and Chief 
          Executive Officer, Association of American Railroads

    Question 2. The farmers in my district and agriculture customers 
across the U.S. rely on a consistent and dependable rail service 
product to meet market demand, moving goods from production to 
processing in the most cost-efficient way possible. But according to 
reports, the implementation of Precision Scheduled Railroading in some 
parts of the country have caused service disruptions--tripling, 
sometimes quadrupling, freight travel times.
    Farmers are being squeezed from all sides. The ongoing rainfall and 
wet conditions limiting their ability to plant, the trade war cutting 
into their global market share, and the more expensive and less 
reliable transportation of their products.
    Mr. Jefferies, how has PSR impacted service for the customers of 
Class 1 railroads, such as escalating costs?
    Answer. Implementation of precision scheduled railroading, or PSR, 
is different for each railroad, but for all railroads that are adopting 
it, the goal is the same--to fundamentally improve railroad service 
quality and consistency. To be sure, as PSR has been adopted by various 
railroads, there have been hiccups along the way, some of which have 
led to temporarily reduced service levels. Railroads know that offering 
high quality, reliable service to their customers is crucial, which is 
why they work hard to quickly and safely resolve all service issues, 
whatever their cause.
    Improving asset utilization has many components. One such component 
is providing financial and other incentives to rail customers to 
quickly load and unload railcars and take other steps to allow crews, 
locomotives, and other railroad equipment to be used as productively as 
possible. In some cases, rail customers face higher costs if they are 
unwilling to take these steps. Railroads will continue to work 
cooperatively with their customers to find mutually satisfactory ways 
to continue to make productivity gains in ways that all parties 
benefit.

    Question 3. Do you have experience interacting with farmers in the 
heartland and their difficulties getting goods to market following the 
implementation of PSR?
    Answer. While I have not interacted directly with farmers in the 
heartland, I can tell you that the railroads themselves are constantly 
working cooperatively with their customers to find ways to provide the 
safest, most reliable, and most cost-effective rail service possible.

  Questions from Hon. Paul Mitchell for Ian Jefferies, President and 
       Chief Executive Officer, Association of American Railroads

    Question 4. Railroads are over 150 years old. In the time they have 
existed there have been massive advances in technologies, and the speed 
of those changes has increased in the 21st Century. The FRA, PHMSA, and 
DOT all have a culture of safety, and that is important. It is the job 
of policy makers to ensure regulatory frameworks from these agencies 
remain effective and reflect current conditions and methods.
    Given the new technologies that now exist and that are on the 
horizon, what impact do FRA, PHMSA, and other DOT regulations have on 
technology deployment and what if anything should Congress be doing?
    Answer. There is bipartisan agreement that America's regulatory 
processes require reform and could more accurately reflect rapid 
technological advancements. Improved regulations and regulatory 
processes can also help improve U.S. infrastructure, including rail 
infrastructure.
    Federal regulations provide a critical safety net to the American 
public, but rules borne from faulty processes only deter economic 
growth without any corresponding public benefits. Dictating the means 
to an end via overly prescriptive policy increases compliance costs; 
can chill innovation and investment in new technologies; and can slow, 
or defeat entirely, an outcome both industry and government would view 
as a success.
    Today, we have a unique opportunity to not only address specific, 
harmful policies, but also to improve the system that creates rules by 
incorporating common sense principles. Specifically, regulations should 
be based on a demonstrated need, as reflected in current and complete 
data and sound science. Regulations should also provide benefits 
outweighing their costs and should take into consideration the big 
picture view for industries and sectors--including current regulations 
in place.
    In this regard, the freight rail industry believes policymakers in 
Congress and elsewhere should embrace performance-based regulations, 
where appropriate, to foster and facilitate technological advancement 
and achieve well-defined policy goals. Defining the end goal, rather 
than narrow steps, will boost citizen confidence in government; 
motivate U.S. industry to research and innovate; and create new 
solutions. Outcome-based measures can better avoid ``locking in'' 
existing technologies and processes so that new innovations, including 
new technologies, that could improve safety and improve efficiency, can 
flourish.

  Questions from Hon. Troy Balderson for Ian Jefferies, President and 
       Chief Executive Officer, Association of American Railroads

    Question 5. There has been a lot of discussion today about the size 
of the railroad workforce. You also mentioned in your testimony that 
U.S. freight shipments are expected to rise 35 percent by 2040.
    Can you explain how these two factors--size of the railroad 
workforce and rail demand--are related if at all?
    Answer. Like firms in every other industry, railroads must manage 
their resources--including their most important resources, their 
employees--based on business needs. The number of rail employees does, 
in fact, tend to ebb and flow based on current and expected future rail 
traffic levels, technological developments, and other factors. 
Railroads are hopeful that freight transportation demand will continue 
to grow, and they will make sure that their assets--equipment, 
infrastructure, and employees--will be adequate to meet those 
transportation needs.

                                    
</pre></body></html>
